<html>
<title> - TRANSITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                     TRANSITION ASSISTANCE PROGRAM

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2008
                  FIELD HEARING HELD IN RAPID CITY, SD

                               __________

                           Serial No. 110-99

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                   U.S. GOVERNMENT PRINTING OFFICE
44-001                      WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           JERRY MORAN, Kansas
JOHN J. HALL, New York               STEVE SCALISE, Louisiana

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






                            C O N T E N T S

                               __________

                             July 28, 2008

                                                                   Page
Transition Assistance Program....................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    56
Hon. John Boozman, Ranking Republican Member.....................     3
    Prepared statement of Congressman Boozman....................    57

                               WITNESSES

U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    45
    Prepared statement of Mr. McWilliam..........................    78
U.S. Department of Defense, Don Keplin, State Chairman, South 
  Dakota Employer Support of the Guard and Reserve...............    46
    Prepared statement of Mr. Keplin.............................    80
U.S. Department of Veterans Affairs, William D. Fillman, Jr., 
  Director, Central Area, Veterans Benefits Administration.......    48
    Prepared statement of Mr. Fillman............................    81

                                 ______

American Legion, Department of South Dakota, Luverne L. Boes, 
  District 13 Commander..........................................    35
    Prepared statement of Mr. Boes...............................    70
American Legion Auxiliary, Doris Ann Werlinger, Past Department 
  President of South Dakota......................................    37
    Prepared statement of Ms. Werlinger..........................    75
Ellsworth Air Force Base, SD, Transition Assistance Program, 
  Susan Machetta, Community Readiness Consultant, Transition 
  Assistance Program Coordinator.................................    18
    Prepared statement of Ms. Machetta...........................    64
Geffre, Kimberly S., Servicemember, Ellsworth Air Force Base, SD.     9
    Prepared statement of Ms. Geffre.............................    60
Krebs, Master Sergeant Roxanne, USAF, Ellsworth Air Force Base, 
  SD.............................................................     8
    Prepared statement of Sergeant Krebs.........................    59
Koopman, Mark, Servicemember, Ellsworth Air Force Base, SD.......     9
    Prepared statement of Mr. Koopman............................    60
Lassegard, Sergeant Ole D., USANG, Member, 235th Military Police 
  Company, South Dakota Army National Guard......................     6
    Prepared statement of Sergeant Lassegard.....................    58
Lassegard, Yvette S., Rapid City, SD.............................     5
    Prepared statement of Ms. Lassegard..........................    58
South Dakota Department of Labor, Todd Kolden, Administrator.....    27
    Prepared statement of Mr. Kolden.............................    68
South Dakota National Guard, Major General Steven R. Doohen, 
  Adjutant General, and Secretary, South Dakota Department of 
  Military and Veterans Affairs..................................    17
    Prepared statement of General Doohen.........................    61
South Dakota State Approving Agency, Shane A. Olivier, Veterans 
  Education Program Specialist...................................    25
    Prepared statement of Mr. Olivier............................    65
Veterans of Foreign Wars Ladies Auxiliary, Department of South 
  Dakota, Diane Hickenbotham, President..........................    39
    Prepared statement of Ms. Hickenbotham.......................    76

                       SUBMISSION FOR THE RECORD

U.S. Small Business Administration, William D. Elmore, Associate 
  Administrator for Veterans Business Development, Office of 
  Veterans Business Development, statement.......................    84

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, letter to 
  John McWilliam, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor, 
  letter dated August 1, 2008, and DoL response letter...........    86

 
                     TRANSITION ASSISTANCE PROGRAM

                              ----------                              


                         MONDAY, JULY 28, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:00 a.m. 
MST, at Rapid City Central High School, 433 North Mount 
Rushmore Road, Rapid City, South Dakota, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.

    Present: Representatives Herseth Sandlin and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good morning, ladies and gentlemen. 
The Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on the Transition Assistance Program (TAP) 
will come to order.
    It is an honor and privilege for me to be here with you 
today. I would like to thank our servicemembers, veterans and 
their families, in particular, and everyone in attendance this 
morning. I would also like to thank the distinguished Ranking 
Member, Mr. John Boozman of Arkansas, for joining us here in 
Rapid City.
    Like other States across the country, South Dakota has seen 
many of its servicemembers activated in support of operations 
in Iraq and Afghanistan. Over two-thirds of the South Dakota 
Air National Guard, 1,012 members, have actively supported the 
Global War on Terror (GWOT), since the September 11th attack on 
the United States, either at home or abroad, in 15 different 
countries.
    In addition, since the terrorist attacks on America, the 
South Dakota Army National Guard has mobilized more than 3,200 
soldiers. Also, the airmen and women from Ellsworth Air Force 
Base have been supporting missions in the Middle East since 
September 11th in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), including the 200 servicemembers that 
have been deployed, as well as many others deployed in 
Southwest Asia.
    Many of our brave service men and women in South Dakota, 
and across the country, are returning in need of healthcare, 
employment, housing, educational, and other services. They 
deserve our best efforts in providing the resources to ensure a 
seamless transition from military service to civilian life.
    On June 19th, 2006, the Subcommittee on Economic 
Opportunity, under the leadership of then-Chairman Boozman, 
held a field hearing nearby at Ellsworth Air Force Base to 
discuss the Transition Assistance Program and the Montgomery GI 
Bill. During that hearing, some of our panelists suggested 
expanding evening classes or on-line resources to accommodate 
servicemem-bers and their spouses' work schedules. Others 
suggested making the program mandatory for separating 
servicemembers and expanding existing Montgomery GI Bill 
benefits.
    Today, we are gathered here to reexamine the Transition 
Assistance Program and the progress we've made from 2 years 
ago. We will also have the opportunity to learn how the program 
is assisting our veterans in the seamless transition into 
employment and community life.
    As the Subcommittee was taking testimony in Washington, DC, 
and elsewhere across the country, we learned: when and where 
transition assistance is most effective; how invaluable family 
support readiness is to servicemembers and their families; how 
National Guard leaders have worked to establish programs to 
assist families during deployment; how to ease the transition 
home following deployment for their members; and how more 
recent remobilization patterns often using small Reserve or 
Guard tactics pose many unique challenges.
    As many of you know, the Transition Assistance Program was 
established to meet the needs of separating servicemembers 
during their period of readjustment into civilian life. The 
program offers job-search assistance and related services, such 
as: workshops on resume writing; interview process; labor 
market overviews; personal appraisal; and VA benefits. The 
program seeks to provide veterans with the skills and services 
needed to transition into the workforce.
    During my time in office, I've had the opportunity to meet 
with many local government officials and veterans here, in 
South Dakota. In addition, this Subcommittee has received many 
recommendations from government, military officials, veteran 
service organizations, and concerned citizens from across the 
country. I'm glad to note that we have succeeded in making 
progress for our servicemembers and veterans during this 
Congress.
    For example, included in the final version of the National 
Defense Authorization Act of 2008, we were able to gain 
bipartisan support for language that would allow mobilized 
members of the Reserve Forces to use their Reserve Educational 
Assistance Program, also known as REAP, benefits for 10 years 
after they separate from the Guard or Reserves.
    Furthermore, we made progress in passing the Post-9/11 
Veterans Education Assistance Act, which was recently enacted 
into law. This act will enable most veterans to attend a public 
4-year college or university, with benefits covering full 
tuition. It also provides a housing stipend, and helps pay the 
costs of books and other expenses associated with attending 
school. Many of their dependents may also be eligible to 
receive these benefits if the servicemember meets certain 
enlistment requirements.
    While this progress is long overdue, we must remain 
committed to reviewing all benefits and provide the oversight 
necessary to ensure effective administration of those benefits, 
which help meet the needs of our servicemembers and veterans.
    I'm glad to see some of our panelists here today who were 
with us 2 years ago. We hope to hear more, from all our 
panelists, with regard to how the Transition Assistance Program 
can better serve our veterans.
    I look forward to working with Ranking Member Boozman, and 
other Members of our Subcommittee, to ensure that our 
servicemembers and veterans are provided proper benefits to 
help them succeed in life after the military. The men and women 
who serve our Nation honorably deserve and should receive the 
best our country has to offer.
    I now recognize Mr. Boozman for any opening statements he 
may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 56.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you very much, Madam Chair.
    A couple years ago I had the opportunity to meet with you, 
and I certainly remember the warm hospitality that was afforded 
us and is being afforded now. We really do appreciate that. We 
appreciate the staff, the district staff of the Chairs, who 
again have worked so hard to put all of these things on, as has 
staff in Washington.
    During that time I was the Chairman, and I'd like to 
announce that your Congresswoman did such a good job as my 
Ranking Member here in the 109th Congress that I thought she 
should get a chance to be Chairwoman for the 110th, and I need 
to start negotiating with her to get my old job back. She does 
a tremendous job. The Veterans' Affairs Committee is a 
committee that people choose to serve on. It's very bipartisan. 
We work hard, and she and her staff have done a tremendous job.
    We're here to hear from South Dakotans about their 
experiences with the Transition Assistance Program. TAP is 
designed to provide servicemembers with the basic skills and 
knowledge to reenter the civilian work. As such, TAP appears to 
have mixed results. It's successful because of the information 
being put out touches a wide variety of topics of importance to 
those in the military service. Unfortunately, a significant 
portion of servicemembers either choose not to attend or are 
not allowed to attend TAP scheduled training.
    According to the July 17, 2008, audit by the VA Inspector 
General (IG), entitled ``Veterans Benefits Administration 
Transition Systems for Operations Enduring and Iraqi Freedom,'' 
servicemembers and veterans in 2006 and 2007, only 43 percent 
and 47 percent of OEF/OIF servicemembers participated in that, 
falling short of the VA's goal of 53 percent. Clearly the VBA 
needs to do a much better job in reaching out to your veterans.
    I'm also concerned with the same Inspector General report 
that shows that the highly touted Benefits Delivery at 
Discharge, or BDD, program is not meeting its goal to process 
benefit claims for severely wounded OEF/OIF veterans within 30 
days. Imagine, of the nearly 5,000 claims received by regional 
offices, only 24 percent were processed within 30 days. The 
other 76 percent averaged 114 days, with some taking as long as 
504 days.
    Madam Chair, while oversight of the basic claims processing 
system falls outside of our Subcommittee, its performance 
certainly delays a disabled veteran's ability to access 
programs within our jurisdiction, such as vocational 
rehabilitation benefits and specially adaptive housing 
benefits. These two programs alone are essential to a smooth 
transition to civilian life.
    With most locations providing TAP over a two and one-half-
day period, members are literally deluged with information, and 
if they don't pay attention, they will likely miss something 
important.
    Members of the National Guard and Reserves pose a special 
challenge because of the dispersed nature of their duty 
stations. In my mind, we need to do a better job preparing 
members of the Guard, especially those who own businesses, 
prior to deployment. We need to ensure that they have full 
access to all benefits and programs for which they are 
eligible.
    Finally, many of those leaving military service will enter 
school or training programs under the GI Bill. I'm sure that 
most servicemembers are aware that the Congress passed, and the 
President signed into law, a new, much more generous GI 
education and training benefit.
    I want to recognize your efforts, Madam Chair, to improve 
education benefits by introducing H.R. 5684 that greatly 
improved the education benefit. And again, I appreciate you and 
your staff really leading the way as we did get a new GI Bill 
that was signed into law.
    You've brought together, Madam Chair, an excellent group of 
witnesses, and I look forward to the testimony. Thank you.
    [The prepared statement of Congressman Boozman appears on
p. 57.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. It's nice to 
have you back here in South Dakota.
    We will be in Arkansas later in the summer, having a field 
hearing for the Subcommittee. As Mr. Boozman mentioned in his 
opening statement, it's a bipartisan committee and one in which 
we are squarely focused on the needs of our servicemembers in a 
bipartisan way. It allows the districts of our colleagues to 
hear from servicemembers, local and State officials who have 
been working hard, in partnership with Federal agencies to 
ensure that our servicemembers and veterans have the full scope 
of benefits and programs to which they're entitled.
    I want to welcome all of our panels testifying before the 
Subcommittee today. Before I invite our first panel up, I would 
like to take a moment to express my disappointment in the 
absence of the U.S. Department of Defense (DoD) today. While I 
appreciate the participation of Mr. Don Kelpin, South Dakota 
Chairman, the continued absence of the DoD officials is 
disheartening.
    Ranking Member Boozman might recall the absence of a DoD 
official in our legislative hearing in Washington, DC. The 
participation of DoD officials would add tremendous value to 
these hearings, as we look to provide our servicemembers and 
veterans the resources they need and deserve.
    We strongly encourage the Department of Defense to take a 
more active role in participating in all hearings, especially 
these field hearings, where servicemembers, veterans and their 
families provide feedback regarding problems with military 
deployment. We're concerned that one of the largest Federal 
agencies in our country couldn't find a person from the 
Pentagon to attend this theater.
    I would like to remind all our panelists that your 
statements will remain part of the record. Therefore, please 
limit your remarks to 5 minutes so that we may have sufficient 
time to follow up with questions once everyone has had the 
opportunity to provide their testimony. We've set aside ample 
time for testimony and questions, but remember that full 
written statement is already a part of the written record.
    I'd like to invite the first panel up. Joining us on this 
first panel is Mrs. Yvette Lassegard, military spouse; Mr. Ole 
Lassegard, a member of the South Dakota National Guard; Ms. 
Roxanne Krebs, a servicemember from Ellsworth Air Force Base; 
Mr. Mark Koopman, a servicemember also from Ellsworth Air Force 
Base; and Ms. Kimberly Geffre, a servicemember from Ellsworth 
Air Force Base as well.
    Thank you all for joining us. Please have a seat. We look 
forward to hearing your testimony.
    Ms. Lassegard, I will begin with you.

 STATEMENTS OF YVETTE S. LASSEGARD, RAPID CITY, SD (VETERAN'S 
   SPOUSE); SERGEANT OLE D. LASSEGARD, USANG, MEMBER, 235TH 
  MILITARY POLICE COMPANY, SOUTH DAKOTA ARMY NATIONAL GUARD; 
MASTER SERGEANT ROXANNE KREBS, USAF, ELLSWORTH AIR FORCE BASE, 
 SD; MARK KOOPMAN, SERVICEMEMBER, ELLSWORTH AIR FORCE BASE, SD 
 (RECENT TRANSITION ASSISTANCE PROGRAM ATTENDEE); AND KIMBERLY 
S. GEFFRE, SERVICEMEMBER, ELLSWORTH AIR FORCE BASE, SD (RECENT 
            TRANSITION ASSISTANCE PROGRAM ATTENDEE)

                STATEMENT OF YVETTE S. LASSEGARD

    Ms. Yvette Lassegard. My testimony today reflects my 
personal views and does not necessarily reflect the views of 
the Army, the Department of Defense or the administration.
    Thank you, Chairwoman Herseth Sandlin and other 
Subcommittee Members, for the opportunity to speak with you 
about my experiences of transition.
    My name is Yvette Lassegard. My husband Ole is a sergeant 
for the 235th Military Police Company in the South Dakota 
National Guard. We have one son Aric, who is 6 years old.
    Ole is a war veteran, having served twice in Operation 
Iraqi Freedom. His first deployment was a stateside mission at 
Fort Carson, Colorado, from February 2003 to January 2004. And 
most recently he served in Afghanistan from October 2006 to 
January 2008. I served as the lead volunteer for the Family 
Readiness Group for our unit during both deployments. This job 
was not always very easy, but it will be an experience I will 
carry with me for a lifetime.
    During the first deployment, our soldiers were stateside, 
which, even though they were on home ground and it was not as 
stressful in the sense of the constant danger, it was no easier 
than their deployment overseas. They still were not home.
    The transition back into our family and civilian lives went 
pretty smoothly on a personal level; however, even though the 
soldiers were considered veterans, I don't think they were 
always treated as veterans by society. Oh, you were only 
stateside. That's not so bad. It was no different in most ways. 
They were still away from their families, civilian jobs, homes, 
and they were treated as deployed soldiers by the military. 
These soldiers did have many of the same sacrifices, even 
though most people did not understand that.
    When our unit was activated to go to Afghanistan 2 years 
later, it was very different. The stress level was higher. They 
were in a war zone again, away from their families, jobs, home, 
but there was more support from the public. People were more 
accepting of this real deployment.
    When they came home this time, they were treated like 
veterans, even though most of them were already veterans before 
they were in foreign soil. The transition this time has been a 
little different. We both have become stronger, a little bit 
more independent in our time apart. Different things are more 
important to us, the most important being each other and our 
son. This time I worry about things like post traumatic stress 
disorder (PTSD) and what other things they may experience, but 
I do know I feel more prepared to help with what he may need.
    I think our State does a wonderful job of helping the 
families of the soldiers both during deployment and transition 
back into civilian life. They work with me and the rest of the 
Family Readiness Group to help keep the families across our 
State informed about what's going on with their soldiers during 
deployment as well as help them prepare for the returning 
soldiers.
    The program that--the programs that are offered are 
outstanding, Military OneSource, troop and family counseling, 
the TRICARE benefits, and the benefits that the VA offers. I 
think that continuing education for both the families as well 
as the soldiers about these programs is very important, 
especially after deployment. I also think that trying to 
continue educating the public is important. When a National 
Guard unit is deployed, it affects everyone in the community. 
Not only do loved ones leave, but employees, employers, 
community volunteers or friends. These deployments bring back 
changed soldiers, whether it is a stateside mission or an 
overseas mission. If more people are aware of the effects 
deployment has as a whole, I think transition will be easier 
for everyone, especially the soldiers.
    Thank you for your time.
    [The prepared statement of Ms. Lassegard appears on
p. 58.]
    Ms. Herseth Sandlin. Thank you, Mrs. Lassegard.
    Sergeant Lassegard, you are now recognized for 5 minutes.

             STATEMENT OF SERGEANT OLE D. LASSEGARD

    Sergeant Ole Lassegard. My testimony is from personal 
views. It does not necessarily reflect the views of the Army, 
the Department of Defense or the administration.
    Thank you, Chairwoman Herseth Sandlin and other 
Subcommittee Members, for the opportunity to speak with you 
today. My name is Ole Lassegard. I'm a sergeant in the 235th 
Military Police in the South Dakota National Guard. My wife 
Yvette and I have one son Aric. He is six.
    I joined the Army National Guard in September of 1993 in 
order to pay for college. I'll have completed 15 years of 
service this coming September, and I will have 19\1/2\ years of 
service when my current enlistment is finished. I do plan to 
serve a minimum of 20 or more years.
    During my 14 years of service, I've been on State duty for 
one fire in the Black Hills, the Jasper fire. I have helped 
with snow and power pole removal in Watertown, South Dakota, 
after a major blizzard, and did security detail at Camp Rapid 
after 9/11.
    I've also served active duty. My first deployment was a 
stateside mission in Fort Carson, Colorado, from February of 
2003 to January of 2004. During this deployment we conducted 
law-and-order missions while active-duty military police from 
Fort Carson went overseas.
    My second deployment was an overseas mission in Afghanistan 
from October of 2006 to February of 2008. During this 
deployment, my unit conducted several missions that consisted 
of detainee ops, which is enemy prisoners of war; convoy 
security; law and order on some--excuse me, law and order in 
some of the smaller forward observation bases (FOBs); customs 
missions on some of the smaller outlying FOBs; and also village 
assessments. Being away from our family was not easy either 
time. During my time at Fort Carson, it was very frustrating to 
be so close to home but yet not at home.
    My integration back into my family life and my civilian job 
was fairly smooth. While being deployed in Afghanistan, things 
were a lot different. I was halfway around the world from my 
family and home. Being in a war zone was stressful. This time 
when I came home, integration into my family life has been a 
little different. Yvette and I both became stronger. My son 
Aric has finished preschool, and he is almost done with 
kindergarten and has grown up so much while I was away. The 
most important part of our life now is our time together as a 
family. My transition back to my civilian job has gone good.
    Our demobilization was at Fort Carson, Colorado. The out-
processing, including briefings and debriefings, were long and 
drawn out. A lot of us felt that some of it could be completed 
at our home station here in Camp Rapid so that we could have 
more time with our families, being gone for more than a year.
    Once I was home, I was able to get into the VA at Fort 
Meade for a dental appointment within a week; however, my post-
deployment medical checkup before going back to work was not 
easy. I was told at first I should get an appointment within 30 
days. This did not happen. I was told several times that they 
were full and that I would have to wait. When checking back in 
with them, I was getting several different stories, depending 
on whom I would talk to. Things were finally straightened out, 
and I was able to get the appointments I needed. It was very 
frustrating for me to have to deal with this. But in all, the 
VA has been a nice benefit in which I will continue to use as 
needed.
    Thank you for your time.
    [The prepared statement of Sergeant Lassegard appears on
p. 58.]
    Ms. Herseth Sandlin. Thank you, Sergeant Lassegard, for 
your testimony and sharing your experiences.
    Ms. Krebs, you're recognized. Thank you for being here.

           STATEMENT OF MASTER SERGEANT ROXANNE KREBS

    Sergeant Krebs. Madam Chairwoman and distinguished Members 
of the Subcommittee, thank you for the opportunity of 
presenting my experience. I've been in the Air Force for 21 
years and will retire at the end of this year. Since the Air 
Force has been my only career since the age of 18, I've never 
had the opportunity to gain the experience my civilian 
counterparts have with conducting a job search, preparing a 
resume or going on a job interview. Although my military career 
has allowed me to grow and develop into a leader who will be 
successful in any job I hold, the TAP workshop provided me with 
the fine-tuning I needed to effectively market myself to an 
eventual employer.
    Over the past few years, I had numerous friends who went to 
TAP workshops here at Ellsworth Air Force Base and overseas, 
and every one couldn't say enough about the program. Although 
I've heard wonderful things about TAP over the last few years, 
I kept putting it off because something else would come up. 
Finally, in May of this year, I needed to, so I finally signed 
up for the 3-day June workshop at the base Airmen and Family 
Readiness Center.
    This was the best decision of my career. Now I can't stop 
talking about the workshop to everyone I know who is separated 
or even thinking about retiring. During the TAP workshop, we 
not only learned how to write a resume, conduct ourselves 
during a job interview and what veterans programs and vet 
benefits are available, but we were also provided an 
opportunity to speak with real civilian employers.
    The employers provided us opportunities to discuss with 
them what they were looking for in potential employees, how 
they view resumes, and their tips on conducting an interview. 
Once they finished briefing the whole group, they provided one-
on-one opportunities to meet with the employers for further 
individualized feedback.
    One final aspect was the volume of reference materials we 
were provided, from Web sites to magazines to books, all 
covering different aspects of the job search. One of the most 
priceless reference sites showed me how to convert military 
terminology into the equivalent civilian terminology, which 
allows my resume to be competitive.
    Some people would argue why offer a career workshop, which 
costs time and money that the Department of Defense doesn't 
have when an individual could just go to a local college and 
pay for a similar class? I would argue that a local college 
can't design a class to meet the needs of our military culture. 
Only a program created for and run by both veterans and the 
military can meet the unique needs of transitioning military 
personnel.
    I truly believe this is one of the most comprehensive and 
informative workshops I have ever taken throughout my life. I 
believe it will continue to help make a big difference in the 
lives of all military personnel.
    Thank you again for allowing me an opportunity to present 
my experience with the Transition Assistance Program.
    [The prepared statement of Sergeant Krebs appears on p. 
59.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Koopman, you are recognized.

                   STATEMENT OF MARK KOOPMAN

    Mr. Koopman. Chairwoman Herseth Sandlin, Ranking Member 
Boozman, Members of the Subcommittee, on behalf of the 
Transition Assistance Program, I would like to thank you for 
allowing me to present my information and give you three 
reasons why I support it.
    After being out of the civilian workforce for 20-plus 
years, day one of TAP gave me a wealth of knowledge on getting 
back in the game. I no longer felt like an outsider looking in. 
Granted, I experienced information overload, but now felt that 
I had been given the competitive edge that I needed for my job 
search, with access to tools such as Web sites, job search, 
personal appraisal information and financial guidance.
    Day two of TAP was even more valuable. It consisted of 
teaching me how to fill out a job application, master 
application; understanding the five different types of resumes, 
chronological, functional, combination, Federal and targeted; 
the importance to know how to complete cover letters; and 
finally, writing my own resume.
    Day three was equally important as it consisted of the 
interview process. They taught us basic elements such as 
preparation, knowing the company, and know the job 
description--as basic as it sounds, we needed to be reminded of 
this; getting my 30-second commercial done, having to sell 
myself; finding out that there are so many different types of 
interviews, phone, board, one-on-one, e-mail, and that I always 
had to be ready to interview.
    We discussed tough questions and how to handle them in 
interviews. I understood that I must be able to show the 
interviewer how I can contribute to this company by increasing 
their profits and satisfying their needs. Without the last half 
of the day to learn about personal veteran benefits, I know 
that I now have--that I would not have been able to protect my 
family and best use the benefits that are available to me.
    In summary, I've explained why the three-day TAP classes 
benefited me and why I believe it is invaluable for all 
veterans. Please continue to support it as I do.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members 
of the Subcommittee, thank you for taking the time to hear 
about my experience with the Transition Assistance Program. 
This concludes my testimony. I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Koopman appears on p. 60.]
    Ms. Herseth Sandlin. Thank you for your testimony, Mr. 
Koopman.
    Ms. Geffre, thank you for being here. You are recognized.

                STATEMENT OF KIMBERLY S. GEFFRE

    Ms. Geffre. Thank you. And, Members of the Subcommittee, 
thank you for the opportunity to present information concerning 
my experience with the Ellsworth Transition Assistance Program 
and the reasons I support it.
    I'm honored to have served my country for over 19 years. In 
May of 2007, I deployed to Iraq; shortly after my departure, my 
husband relocated also for a 1-year assignment in Central 
America. I've had the opportunity to benefit from many of the 
services provided at the Ellsworth Air Force Base, including 
pre-deployment and post-deployment services, and most recently 
the Transition Assistance Program.
    I've been out of the civilian workforce for almost 20 
years. I was intimidated by the transition back into civilian 
life. This course provided me with the insight into areas I 
should consider prior to separating. I was given information to 
assist me in job search, to access the tools such as Web sites, 
personal appraisal information, financial guidance, et cetera. 
I only wish I had--would have attended earlier and had more 
time to get prepared.
    The training I received was very informative and presented 
in a logical format. Lessons included how to fill out job 
applications, understand different types of resumes, the 
importance of cover letters, and the instructors even provided 
assistance to me in drafting my own resume.
    I learned the keys to job search, such as preparation, 
knowing the job description and the different types of 
interviews. But lastly, I learned about the veterans benefits 
and specifically programs that I didn't know were available to 
me. Every military member should attend this class.
    There is one area of concern that I have in applying for 
civil service following military service. Although benefits and 
preferences are available for veterans after separation, the 
hiring system for the civil service may not allow you to take 
advantage of the veterans preference until you receive the 
final DD-214 Form. In the past, a copy of this document was 
provided to the servicemember during their last appointment. A 
copy of this document at the outprocessing is now mailed to the 
servicemember and can take more than a month from the date of 
separation. Many members who are retired have spent up to 60 
days on terminal leave attempting to secure employment, in some 
cases remaining unemployed for as long as 3 months before they 
can take advantage of the VA preferences because they have not 
received the DD-214 Form.
    Compounding this problem is the complicated hiring system. 
In my current position, I have worked with this hiring process 
to hire a civilian employee. It took months. On USAJOBS.com, 
positions are listed that are not truly open. Two other 
civilian positions were listed within my own office that we 
were not hiring for, and there were positions open for months 
that remained unfilled because someone in the reviewing process 
determined the applicant was unqualified. This process was very 
difficult for the unit waiting for the position to be filled 
and frustrating for the applicants who needed employment and 
had applied, but had not received feedback on why they were 
found not to be qualified. This hiring system needs significant 
work.
    Chairwoman Herseth Sandlin, Ranking Member Boozman and 
Members of the Subcommittee, I support your efforts to review 
and improve the Transition Assistance Programs offered 
throughout our Nation, and hope that the information provided 
here today is helpful to you.
    This concludes my testimony. I'll be glad to answer any 
questions.
    [The prepared statement of Ms. Geffre appears on p. 60.]
    Ms. Herseth Sandlin. Thank you, Ms. Geffre.
    Thank you, to all of you, for your testimony.
    If I could just start with a couple of questions. Let's 
start with you, Ms. Lassegard. While your husband was deployed, 
either stateside or to Afghanistan, did the Department of 
Defense or the U.S. Department of Veterans Affairs (VA) ever 
contact you in any way?
    Ms. Yvette Lassegard. No.
    Ms. Herseth Sandlin. Do you think it would have been 
helpful to have heard from one or both of those agencies with 
regard to benefits, or just soliciting from you information, or 
the needs of certain services to make things easier?
    Ms. Yvette Lassegard. I'm not sure. But like I said, our 
Families Assistance Center, they do what they can to train--you 
know, to train the family and soldiers coming home to provide 
as much information as they can, so that's what information we 
did get.
    Ms. Herseth Sandlin. Looking back, at both of those 
deployments, what information that you didn't have at the time 
that you now have, would have been critical for you to know? 
Can you think of anything off the top of your head?
    Ms. Yvette Lassegard. No, I can't.
    Ms. Herseth Sandlin. Is that something you could submit in 
writing? I know it's hard to think back to both of those 
deployments, and the information you may not have had at the 
time.
    It goes a little bit to the question that I asked the three 
servicemembers from the Air Force Base. Each one of you said, 
in your testimony, that during that last day, your last half 
day, you learned of veterans benefits that you didn't realize 
you were entitled to in the past, or didn't have the full scope 
of information. The same would be true of our members of the 
Guard and Reserve, particularly those who--when they separate 
from service after deployment.
    But in light of the testimony from the three of you, would 
you recommend that the Transition Assistance Program be made 
mandatory? Or do you think that there are trade-offs in making 
it mandatory, where perhaps people wouldn't get as much out of 
it if it were mandatory versus the word of mouth? Ms. Krebs, 
you described those who raved about how beneficial the program 
was.
    Could each of you respond about whether or not you think it 
would be good to make it mandatory?
    Sergeant Krebs. I think it would be good to make it 
mandatory. I think the problem comes in is that it is a three-
day class, and then there's another half-day class with the 
disabled veteran part. And it's deployment rates. It's really 
hard, I think, and I don't know where you would target it.
    Because there's a lot of--so much information given, it's 
really recommended that you take it almost a year, a year and a 
half before you separate, and then 4 or 6 months before you 
separate.
    I think it's good. I just--ultimately, I think it should be 
mandatory. I just don't know how you work it into----
    Mr. Koopman. I also vote for making it mandatory. I think 
we could implement it even as not a 3\1/2\-day class, but 
lengthen it to 5-or-more-day class with all the information 
that we're bombarded with. Five is probably realistic, but we 
could make it like the Noncommissioned Officer Academy. Of 
course, it's not a 6-week program, but a 1- or 2-week program 
where maybe at the 6- or 9-month point, it's just part of the 
transitioning out program.
    It's--I'm very much in favor of it.
    Ms. Geffre. I also feel it should be mandatory. In fact, I 
think it should be longer, and they also have up to 90 days of 
terminal leave. And so it's very difficult for them to decide 
in a few months how they're going to proceed from this point.
    Especially with the GI Bill changes, we don't know how 
those benefits are going to play out. So it is helpful, and I 
think we should work it in somewhere within the Academy or 
within our service time. It is difficult to find the time, but 
time should be made for those.
    Ms. Herseth Sandlin. Yes, Sergeant Krebs.
    Sergeant Krebs. Just one more thing. There was one other 
thing I'd like to see maybe added. When you leave the military, 
especially for retirees, there's a lot of things that are 
specific to the military, such as the TRICARE, survivor benefit 
plan and a lot of those, just the retirement pay. A lot of 
those would be nice to see added, or just a specific class 
held. Or make it mandatory for military people, instead of 
having to go to 20 different offices, go to one location.
    Ms. Herseth Sandlin. Be more efficient perhaps.
    Ms. Krebs, you had said something about the helpful 
information of converting military terminology to civilian 
terminology. I've heard this from other witnesses, either in DC 
or in my district.
    Are you familiar with anyone who didn't take advantage of 
the TAP program that really struggled as it related to that 
terminology conversion? Now that this is on a Web site, is that 
more easily accessible for servicemembers as an assistance tool 
in preparing for finding employment in the civilian sector?
    Sergeant Krebs. I don't know specifically of anybody who 
hasn't taken the program. Like I said, Ellsworth has a great 
one. I did a year over in Korea, and they had a great one 
there. Pretty much word gets around, and you get into the 
program. Pretty much you figure it out, and the light goes on.
    Military--I talk about the military culture, and we do have 
terminology that if you don't know, it just doesn't translate 
easily. So the Web site is a great thing. But I don't know of 
anybody specifically, unless you guys do, that maybe struggles.
    Mr. Koopman. We had one member in our class last week who 
took out all the military acronyms and then had a civilian 
friend proof it. And that civilian friend found two acronyms 
that he had swore he had everything out of there, so it's 
another world.
    Ms. Geffre. My husband, coming back from Central America, 
the TAPS program is not available at the base where he was at. 
And without this course, I know he would struggle, I would 
struggle trying to retire without having the knowledge gained 
in TAPS.
    It's invaluable, at least to have the ideas out there and 
available. I believe it should be available, because most of 
these people who are struggling when they separate don't 
realize how difficult it is to find a job in the civilian 
sector.
    Ms. Herseth Sandlin. That is very helpful.
    I have one more question for Mr. Lassegard. But one 
comment, too. Mr. Koopman, you said TAP should be longer 
because you're bombarded with all this information. I think 
that's how all the members of the National Guard feel when 
they're in their demobilization site, right?
    We're going to have General Doohen testify about some steps 
that will be taken to try to follow up on some of this 
information at times where it's versus TAP, which you're sort 
of looking at retiring, perhaps, or looking at leaving, now 
we're looking at a compressed timeframe after a deployment.
    I think, Ms. Geffre, you had mentioned pre-deployment and 
post-deployment in TAP. If you could comment. You had already 
specifically mentioned it would be nice if you could have more 
demobilization time at Camp Rapid than at Fort Carson.
    Do you think if you had more demobilization time at Camp 
Rapid, that it would make it easier for processing some 
information that they're giving you about benefits and 
programs, and you had family there to help participate, versus 
being at Fort Carson and solely focused on getting home?
    Sergeant Ole Lassegard. I personally believe that the big 
problem was, okay, once we were stateside, even if you were 
stateside, we were just about home. It was real hard to sit and 
concentrate on some of the briefings that they were giving us.
    I feel that if we were at home being able to see our 
families, that it would have been easier to concentrate and 
maybe to integrate some of the briefings they were giving us 
with the family, because there's a lot of that at that point in 
time I can honestly tell you I wasn't concentrating on. And 
with the spouse there or other family member, they might have 
caught something that we wouldn't and said, hey, this is what 
they said. This is what you need to do.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    I think that's one of the biggest problems of advice. Guys, 
members that are coming home, there are certain things that 
just have to be done to make sure that the proper information 
is gathered and given to you. And it's really difficult.
    I've had the opportunity to go to the coming home 
ceremonies, and things were literally--people are there that 
maybe haven't seen a child that was born while they were 
overseas or someplace else. So it's very, very difficult. And 
that's something that I think we're doing a better job of it 
now than ever, but it's just hard.
    So again, that's something that we're going to work on, and 
we appreciate your testimony.
    First of all, I appreciate all of your armed service. My 
dad did 20 years in the Air Force and retired as a master 
sergeant. He was as good as he could be, and yet I learned very 
quickly that if he ever told me to do something, I needed to 
get it done. But nobody--he didn't attend the TAP program. That 
was never taken out in his demobilization, whatever.
    What good did you all--you went through the TAP program. 
What do you all do now? Where are you employed?
    Sergeant Krebs. Actually, I'm still in the military. I am 
not due to get out for another 2 months.
    Mr. Boozman. What do you want to do?
    Sergeant Krebs. Actually, I really like what you did with 
the GI Bill. I'm actually going back to college full time to 
get my teaching certification. So I'm really looking forward to 
what you did.
    Mr. Koopman. I'm seeking a management position in 
accounting and finance. So if there's anyone out there hiring.
    Ms. Geffre. I have a year left. Right now I'm a paralegal, 
and I'm going back to being a mom for a while. My kids are 
still at school age, and I want to enjoy that while they still 
want me around, and hopefully get into a job that is more 
flexible as a parent.
    Mr. Boozman. I think your argument about why the DoD versus 
community college or some other, whatever, was very valid. 
These things, they're so much easier, you know, when you're 
listening. I know a lot of the stuff that you were hearing that 
you probably hadn't heard since you were recruited, you just 
don't hear that stuff anymore. And really, it's--some people 
don't really realize these are the benefits that you have and 
you're going to lose.
    I'm also in agreement with Chairwoman Herseth Sandlin, and 
I think it needs to be mandatory. I think it needs to be in 
some way encouraged to take your extra career, because in a lot 
of ways, you know, you're transitioning to wanting to teach and 
the other professions, the accounting stuff or whatever. But it 
would be good if you were taking it 5 years before you got out 
so that you can start what you're doing, ancillary education, 
and pushing in that direction.
    But it's hard. We're in situations that are difficult. We 
are doing a better job than we were doing before. But one of 
the concerns in the IG report that I talked about was again the 
fact that in some cases, and this probably is an example, and 
Reserve with the regular military as far as the number of 
people taking it, but this is something that I think we really 
need to continue to get those numbers up as best we can.
    So thank you very much for your testimony. It's very 
helpful, and I'm glad that you had a good experience, it sounds 
like, going through the program. I think the important thing is 
that hopefully after you got done with it, that you had the 
ability to have sites to go to in the future and people to 
contact, you know, so that as you ran into a snag, you know, 
you'll be able to continue to get the information. So thanks 
again very much.
    Ms. Herseth Sandlin. I want one or two quick follow-up 
questions for the Lassegards. Yvette, you said you were lead 
volunteer for the Family Readiness Group, and you also said to 
stress the importance of continued education about the programs 
and benefits, especially after deployment.
    Does the Family Readiness Group stay pretty cohesive after 
deployment? Are you aware of anyone who sought assistance from 
any of the agencies for that type of continued education and 
information you utilized in the Family Readiness Group as a 
vehicle to deliver information?
    Ms. Yvette Lassegard. I'm not aware of any, no, at this 
point.
    Ms. Herseth Sandlin. Is that something that you think would 
be helpful, or would it be too difficult to keep it active, the 
Family Readiness Group versus those who don't separate from 
service at the 40-day, 45-day, during some of the training for 
National Guard members?
    Ms. Yvette Lassegard. You know, we always have the 
information for them, or we can always direct them to where 
they need to go to get the information. So I don't know how 
it--I guess it will work.
    Ms. Herseth Sandlin. Then on the healthcare issue, Sergeant 
Lassegard, you had mentioned there was sort of some frustration 
that you understand you felt, as it related to some initial 
medical appointments.
    Sergeant Ole Lassegard. Yes, ma'am.
    Ms. Herseth Sandlin. Do you have any idea? It sounds like 
you were talking to a number of different people telling you a 
number of different things about why there was a delay. Were 
you ever given a justification or rationale that made sense to 
you as to why it was delayed? It sounds like you've worked 
through that now, but we need some information, we're charged 
as a full Committee, not just as a Subcommittee. But as a full 
Committee, we work closely with the VA to make sure we address 
issues that they need and resources to make sure that we don't 
have long waiting times, and especially when we focus on the 
OEF veterans receiving their care from the VA for a period of 
time.
    Sergeant Ole Lassegard. When I first got in contact with 
the VA, it was in regards to the DD-214. I forget the name of 
the--the lady I talked to, but it would have been in the--
anyways, basically what it boils down to is that she told me 
that within 30 days I should be getting an appointment for the 
post-deployment checkup.
    And I called again to set up an appointment, and the 
individual that I talked to that made the appointments, 
scheduled the appointments, had told me the doctor that I see 
or I need to see is full, and he doesn't have any appointments 
open. And basically at that point in time it was 2, 2\1/2\ 
months.
    And I told her, I'm an OEF veteran, and I was instructed 
that I should be able to get in and see you within 30 days, and 
she wouldn't work with me. After going back and talking to a 
couple other people, I was eventually helped to get it 
straightened out, and they got me in within--basically within 
the 30 days, and I was able to be seen.
    But it just seemed that someone wasn't getting the proper 
information within the VA at Fort Meade, and it--it kind of 
grated on my nerves, I guess you would say. It was real 
disappointing in that regard.
    Ms. Herseth Sandlin. I appreciate you sharing that with us, 
because one of the things that we've focused on over the last 
couple years is the seamless transition, whether that's a 
seamless transition from being in the military as a career, 
retiring and transitioning out. Or it's a seamless transition 
of being deployed and post-deployment and the readjustment 
period with families.
    We appreciate you sharing that experience, and we 
appreciate all of your testimony today. Thank you. We're 
grateful for your service to the country.
    Mr. Boozman may have other follow-up comment or questions 
as well.
    I would just like to say I wish all of you the best of luck 
as you transition into the civilian sector, and we thank you 
for your additional commitment into the National Guard, and 
thank you very much.
    Mr. Boozman?
    Mr. Boozman. Yes, Miss Geffre. You mentioned the problem 
with the disabled?
    Ms. Geffre. Yes, sir.
    Mr. Boozman. And Mike was telling me that there's a special 
hiring authority. Were you aware of it?
    Ms. Geffre. I am also aware of that, but you have to 
apply--if you don't go to a Transitioning Assistance Program 
like the one we went to, you won't know about those benefits to 
enable those servicemembers to take advantage of those, even if 
it's a service-connected disability. They should know about 
those things as it gets closer.
    At the Academy, it could also be used as a recruitment 
tool. In some cases I understood that I would probably delay my 
retirement, because now I knew I could actually plan through 
these things. By waiting to attend, I had limited myself to 
that last year, so information about the disabled veterans 
preference is an informational tool that's not always known to 
all of us and TAP is time to learn about these things, 
informational tools.
    Mr. Boozman. And then even in the last year.
    Ms. Geffre. Yes, sir.
    Mr. Boozman. How long--has that been going on for a long 
time?
    Ms. Geffre. That's a fairly new process. The DD-214 forms 
were the last forms needed in order to apply and they are given 
to us in outprocessing at the base. That has been regionalized 
to Air Force Personnel Center (AFPC) back in Randolph Air Force 
Base (AFB), TX. It's just one of those functions that they've 
taken back.
    My understanding is it will take 4 to 6 weeks. 
Unfortunately, we have no experience with this yet because the 
program hasn't been running that long. One of the Airmen that 
is in my office is waiting for her paperwork to actually start 
this process since she'll be starting leave next month. It 
could take some time to get that form in order to enable her to 
get veterans benefits.
    Mr. Boozman. We need to see what's going on, the GI Bill 
benefits, whatever benefits are out there.
    So, again, thank you very much for your time. Thank you for 
being here. I appreciate your testimony.
    Ms. Herseth Sandlin. Thank you.
    We'll invite our second panel up.
    Joining us on the second panel is Major General Steve 
Doohen, Adjutant General of the South Dakota National Guard, 
who is accompanied by Captain Martin Yost, Program Manager of 
Family Support; and Miss Cynthia Porter, Advisor, of South 
Dakota Transition Assistance. Also joining us on this panel is 
Ms. Susan Machetta, Community Readiness Consultant at Ellsworth 
Air Force Base.
    We were going to take this off. Now we're going to tack it 
up. So we apologize for the distraction. If the tacks don't 
work, we're just going to take it off.
    [Reference to a Banner.]
    We look forward to all of you being here.
    Major Doohen, we'll go ahead and begin with you. You're 
recognized for 5 minutes.

STATEMENTS OF MAJOR GENERAL STEVEN R. DOOHEN, ADJUTANT GENERAL, 
   SOUTH DAKOTA NATIONAL GUARD, AND SECRETARY, SOUTH DAKOTA 
  DEPARTMENT OF MILITARY AND VETERANS AFFAIRS; ACCOMPANIED BY 
 CAPTAIN MARTIN YOST, PROGRAM MANAGER, FAMILY READINESS, SOUTH 
     DAKOTA NATIONAL GUARD; AND CYNTHIA PORTER, TRANSITION 
     ASSISTANCE ADVISOR, SOUTH DAKOTA NATIONAL GUARD, AND 
    CONTRACTOR, ARROWPOINT CORPORATION; AND SUSAN MACHETTA, 
 COMMUNITY READINESS CONSULTANT, TRANSITION ASSISTANCE PROGRAM 
     COORDINATOR, ELLSWORTH AIR FORCE BASE, SD, TRANSITION 
                       ASSISTANCE PROGRAM

          STATEMENT OF MAJOR GENERAL STEVEN R. DOOHEN

    General Doohen. Good morning, Madam Chairwoman, other 
Members. It is a real honor and pleasure to be here this 
morning with you. I just want to take this opportunity to thank 
each and every one of you for what you have done for the 
veterans in the State and in the Nation.
    I'm fairly new to this position, but coming into this job 
and taking a look at the resources that you have given to our 
veterans, my hat's off to you. On behalf of the members of the 
South Dakota Army National Guard, I thank you for all the work 
that you have done.
    I would just like to also mention this morning that my 
comments are my own, and I'm not representing the DoD or 
anything else. They're just my own comments.
    From my perspective, my job is, as the Adjutant General for 
the National Guard of South Dakota, and also I'm the Secretary 
for the Military and Veterans Affairs, and I must say I'm very 
impressed with the reintegration program that the National 
Guard has in the State with Captain Martin Yost and Cynthia 
Porter and the Family Support Program.
    I must say that Minnesota gets all the recognition for 
having a great program, but I seem to think that South Dakota 
is very lucky to have such a great program. And I said that 
when I was first starting out that Minnesota benchmarked part 
of the program from South Dakota, so maybe we can get some 
recognition. But it's an eight-day program, and I think that 
really it covers all the areas. They've fine-tuned it over the 
years.
    I'm also a Secretary for the Department of Military and 
Veterans Affairs, and I must say the active director and his 
staff, I feel, are really doing an outstanding job trying to 
reach out to different veterans in the States. And they're 
going to be hosting another mental health summit in Pierre here 
coming up this fall, and I feel that they have been very 
beneficial.
    One of the things that I've also been very impressed with 
is the cooperation between the different agencies in South 
Dakota, not only in the National Guard and on stateside, the VA 
and Employer Support of the Guard and Reserve (ESGR), I really 
have found in the short time of my job is that there's really 
good cooperation when we call all these summits or conferences, 
that people are working well together.
    Just one thing that I would like to mention. One of my 
concerns coming into this job, and it hit me a month or two 
after I got into this job, is the issue with PTSD. And it's an 
issue that if you look into it, it's really probably more 
serious than I really have thought. And it's a tough--I think 
the resources are there, from what I've seen--is that in a lot 
of these guys on leadership is trying to take the stigma away 
from soldiers and airmen asking for help. And so that's one 
area that I feel responsibility in and was trying to reach out, 
taking that stigma away.
    Also, it's trying to educate the community employers and 
family members what PTSD is all about, and in a lot of 
instances where I've seen instances where family members and 
possibly employers see the symptoms in soldiers and airmen, and 
maybe encourage them to get help. So another emphasis on--I 
think we're going to need to do is educating people about PTSD 
and maybe some of the symptoms, and then also encouraging them 
to maybe encourage their military member to get help.
    One of the things that I've run across is that they have a 
great program now in Hot Springs VA just specifically for PTSD, 
and they do an outstanding job down there in addressing this. 
It's kind of a small program, but it's known around the State 
that they have a good program.
    And just in conclusion, I flew airplanes for 35 years in my 
life. I can tell you taking over this job, it has really made 
me very appreciative of what our military servicemembers, the 
sacrifices that they go through. Another thing that's really 
made an impression on me is that we are in the war, and the 
military men, women, all the sacrifices that they make and 
they're continued to be asked to make. And we're so fortunate 
to have the young people--and sometimes the Guard gets the old 
people like me--to have the people we do have in the military.
    Thank you for your time.
    [The prepared statement of General Doohen appears on p. 
61.]
    Ms. Herseth Sandlin. Thank you, General Doohen, for your 
leadership and testimony today.
    Ms. Machetta, you are now recognized.

                  STATEMENT OF SUSAN MACHETTA

    Ms. Machetta. Thank you, Chairman, and all of you here 
today. Thank you so much for giving us the opportunity to speak 
to you. As the transition coordinator, I've found that deciding 
to leave the service, whether through retirement or separation, 
is an incredibly personal decision, and people really need to 
look at that. And it's essential that they have 2 to 3 years to 
make those proper decisions, whether it's financially, 
emotionally, in job preparation, what am I going to do next.
    All of that is so critical for them to do what they need to 
do in that program. They can't wait for the last 2 or 3 weeks 
or a month. And so we've really made a strong encouragement 
that people come much in advance of the 3-year timeframe. It's 
actually a recruiting tool now in helping people stay and make 
better choices for themselves. If all you worried about is 
where you worked, it wouldn't be a problem, but there's so much 
more involved.
    We also found that so many times you can't make that 
decision in a vacuum. If your spouse isn't there to assist you 
or to capture all that data in the three and one-half-day class 
that we have, they're not going to get the best out of it 
either. And so we're really pushing for spouses to come.
    We've increased membership and attendance every single 
session since I started with this program over 2 years ago. We 
have many more spouses coming, and we've tried to increase the 
flexibility of the program so that now you can attend 3 years 
in advance. You can get assistance with resumes while you're 
deployed to Iraq. We do a lot of that on line or through e-
mails.
    We've built a Web site to pull together the most critical 
Web sites for job preparation, and we put them on a central Web 
site so they don't have to go to 1,000 different places. They 
can capture it all in one location. They can do that from no 
matter what service they're in while deployed.
    We'll have folks from Army, Navy, calling back saying, hey, 
can we get involved? Can we do this? And then we'll edit with 
them, so that really helps them make a decision a lot faster.
    A few years ago we had an individual from out in Oregon who 
was going to retire and had wanted to be a pilot out in Rapid 
City. So he heard of the program, so he came out and attended. 
On his way back to duty, he had a heart attack and luckily 
survived. But as a pilot, it totally changed what he might be 
wanting to do with his future.
    The most wonderful thing was that he brought his wife with 
him, and so the wife was here in Rapid City. And they were able 
to easily get into all of the resources that they might need 
and make a decision whether to do a standard retirement or go 
to a disability retirement. And without her attending, that 
wouldn't have been possible.
    To make it flexible, because, again, you can't have people 
going six times and getting that much out of a duty day forever 
and ever, we do encourage them to attend the full three and 
one-half-day program. And then we give them just-in-time 
training; whether it's personally needed, or if they just want 
to come for an hour, they can get that refresher feedback that 
they need, and that's been helpful.
    So I really appreciate Congress' help. You've given us now 
four additional classes every year at Ellsworth that we 
wouldn't have had without that help. The VA, all of the 
agencies in the local area, the U.S. Department of Labor (DoL), 
are tremendously beneficial, and that's been a good team 
effort. And we couldn't do it without all of them, so I dearly 
thank you for that.
    We did do some changes. We found some statistics were not 
being kept, or they were being taken, but not monitored. And 
the other positive benefit of doing this has been we've been 
able to get a great deal more help out to the folks in the area 
of finances. They start 3 years early now, and they really know 
what they need to have saved if they want to go into their own 
business. We have different resources to help them, if that's 
what they require, with finding those resources so that they 
can actually find their dream job and offer something to the 
community in the future. So that's been really helpful to have 
3 months to help them get that--3 years to 3 months to help 
them get into that program.
    Thank you very much for your time.
    [The prepared statement of Ms. Machetta appears on p. 64.]
    Ms. Herseth Sandlin. Thank you for your time.
    Mr. Boozman, do you have any questions for them?
    Mr. Boozman. Ms. Machetta, what is the average time for 
people that attend class before they're discharged?
    Ms. Machetta. It would be difficult to say. I know that 
we've had a huge increase. I still got some that are coming in 
2 weeks before they get out. And it's helpful in some ways, but 
I have most folks coming in with a year and a half to 3 years 
left, and it's really helped us change the focus on the future 
of learning.
    Mr. Boozman. So is it, I guess--again, I'm a guy that would 
like to see people when they're trying to make a decision to 
stay or get out, to attend this type of program, because as you 
were talking, a lot of these people aren't aware of some event 
that has begun in the military. Eventually, seeing a seminar 
where you tell them about some of the things that they're 
getting in the military life that they're not going to be--that 
they're going to have to pay for on the outside.
    So is there a stigma attached with going through the TAP 
program if you stay in?
    Ms. Machetta. Not any longer. It's actually turning into a 
tool. At our decision-time debriefing where people are looking 
at getting out after their first term, they're encouraged to 
come and take a look at TAP. Many of the students attending the 
full transition program have found that there are benefits that 
affect the wives they didn't know about.
    They've found that by taking--staying in, they can get 
their master's or doctorate paid for, and then use that 
educational benefit with the family member now with the 
changes, or to get them into that dream area. For one gentleman 
it added an additional $11,000 to his GI Bill by staying in one 
more term.
    Mr. Boozman. See, I think that's great. So that would be a 
reason to encourage them to get in earlier in the career.
    Ms. Machetta. We did have a visit recently, probably 6 
months ago, with our first entrance of commanders, explained 
what they were trying to do with transition. And they've been 
very, very helpful now in encouraging people to come earlier, 
and that helps to have leadership pushing.
    Mr. Boozman. So if you're exposed to that stuff while 
you're so far down the line, then it's not as difficult to back 
up. Perfect.
    General, I appreciate your testimony, the really detailed 
description. I think you all are doing a great job.
    Have you been able to put in place--you mentioned PTSD, 
your concern about that, your concern about suicide and stuff. 
And have you been able to collect data that basically shows 
effectiveness of some of the things that you're doing?
    General Doohen. I'll turn this over to Martin, but the one 
thing that I will say that I heard the other day, that 
initially there was some information coming out that the 
military was having a higher rate of suicide and--but then I've 
just heard some figures the other day, and I can't confirm 
them.
    But actually, if you look at the age groups and the number 
of suicides, the military actually has a lower percentage of 
suicides than the civilian population. That's the only 
different thing that I have.
    On the PTSD, it's really hard--I've heard the word from 20 
to 40 percent of the members coming back have some form of 
PTSD, and some different opinion levels on it.
    But as far as our State, Martin, do you have any figures?
    Captain Yost. Thank you, General.
    Ms. Herseth Sandlin and General, we really don't have the 
figures on that, but what we see is recognizing of PTSD is 
coming later; rather than at 30, 60, 90 days, sometimes it 
takes up to a year to identify PTSD.
    And General Doohen's leadership in that has been to somehow 
have a counselor embedded with the units upon their return so 
when they are back at their normal drills on weekends, there's 
someone there that if a commander or first sergeant or first 
line leader sees something, someone's there maybe that they 
could directly meet with that individual to prevent and treat 
conditions.
    We currently don't have that program right now. The Yellow 
Ribbon Program that Congress has passed is working with that 
right now, but I don't see us having the trained individuals 
there so that we can give that servicemember the immediate 
response that may be needed at that point in time.
    Mr. Boozman. I think that's--I think it is helpful as you 
go forward, but it looks like you're doing a very, very good 
job. What we're trying to do, put best practices that work 
throughout the country, so having your views, sometimes that is 
helpful. I really like servicemembers opinions on things like 
that. Those things are very valuable. And if you just start 
beating that into their head from the very start--but again, we 
appreciate your testimony. Thank you very much.
    Ms. Herseth Sandlin. General Doohen, in fact, you or 
Captain Yost or Ms. Porter, who is accompanying you today, can 
answer the questions and explain to the Subcommittee how the 
reintegration programs recently revised and under eight phases. 
If you could explain how it was more recently revised, then 
also talk to us about how long it takes to complete all the 
phases of the program, and how many members have finished the 
program versus those who may start the reintegration program.
    Captain Yost. Ms. Sandlin, with the program just starting, 
we just received funds from Congress starting in 2008, late 
2008, so we're finally getting support funding right now. And 
so some of the units are backtracked a little bit and will be 
going forward with the new units coming back.
    Right now we have a first drill back, which happens within 
90 days after the return of deployment. And at that program--
that's probably our seventh phase. And I just want to catch you 
up a little bit on what's happening.
    Now, with the Yellow Ribbon Program funding, we will start 
out a year out from when the unit gets the alert. Then we will 
have programs up until the deployment. And then during 
deployment there will also be different levels of help that 
will go on. And then once the soldier returns back again, then 
there are several phases that we will address as far as 
reintegrating. There's a 30-, 60-, and 90-day program that will 
take effect. These programs will involve everything from job 
transition. We also do individual counseling. We have 
Department of Veterans Affairs there, everybody--all the 
providers are there to give the--the servicemembers and their 
families--and I think that's the biggest key, that the funding 
comes down to help pay, because of our geographical size of our 
State, to help get the families together with the 
servicemember.
    As the other panel had stated, the wife needs to be there 
or the parent, because we sometimes forget our single soldiers. 
They have nobody to go to. They sometimes are the ones nudging 
the servicemember saying, hey, that's you, or you need to get 
this. And that's been very successful. So with the money that 
Congress has given us, this program will be a success.
    Ms. Herseth Sandlin. But you've had it in place. So, you're 
saying with the additional funding, you're going to start 
earlier than what you've been doing over the last few years as 
it relates to the Family Readiness Group. Then after 
deployment, the 30, 60, 90, this is just going to enhance 
enough time and services you're able to provide to members and 
their families, correct?
    Captain Yost. That's correct. South Dakota was one of the 
first States to start a family weekend within 30 days prior to 
deployment; that we brought all the families in, and we gave 
them the TRICARE classes so that they would be able to 
understand that medical process. We also had counselors come in 
that did small groups with the youth and also with the adults 
in transitioning with that separation, some of the key points 
on communicating and working with the kids so they understand 
Dad's going or Mom's going, and this is how you work with the 
people who are at home.
    We also had worked with all the different service 
organizations, the Veterans of Foreign Wars (VFW), the Legions. 
They worked well with us, giving the support to the families 
while they were there.
    The last thing we talked about, we talked about Red Cross 
messages and to prepare the families so that there aren't as 
many questions with the Transition System Advisor, Ms. Porter, 
so there aren't a lot of questions while a servicemember is 
deployed, so he or she can continue the mission without 
worrying about their families, that they are going to be taken 
care of.
    Again, now that the money has come down we'll enhance that 
program with additional moneys and additional programs prior to 
deployment, the company and battery commanders, first 
sergeants, and the commands along with families together to 
make great plans for their services.
    Ms. Herseth Sandlin. Ms. Porter, do you think that there's 
one common problem that stands out either for families during 
deployment or for servicemembers when they return? Is it PTSD? 
Is it a general readjustment period, employment issues? Is it 
some of the members who are small business owners that are 
causing problems during the deployment after? Any one thing 
that stands out, or a set of things that you think Congress can 
be of additional assistance, furthering the funding that we 
have allocated for the Yellow Ribbon Reintegration Program?
    Ms. Porter. Ma'am, I had experience being that spouse left 
in the rear with the small children; and also being at the side 
of a deployed spouse twice, as Mrs. Lassegard. So I have a very 
interesting perspective because of my new job post, my 
husband's deployment.
    And I think that that deployment time period enhanced my 
emotional intelligence, if you will, and it--I wanted to be the 
lead strength in our marriage. And I think that as my husband 
came home and we transitioned as a family, it seems to be that 
we have a lot of resources, and we are an excellent team in 
South Dakota.
    The State, the VA, the National Guard, Ellsworth, we've 
worked together as a team that I haven't seen in my short 
professional life in years. It's a wonderful experience to work 
and serve after having three deployments myself, and I don't 
know how to solve this problem.
    I do know that I had the honor of being asked to 
participate in a public service announcement that was by 
General Doohen, and my husband and I also had the opportunity 
to lend our faces to create awareness faces of vet advance and 
the PTSD awareness.
    Now, PTSD is left to be diagnosed by the professionals, and 
I think that we need to give people the opportunity to grow as 
individuals so that they know how to best use the resources. 
And all of the resources in the world, if they're not receptive 
to them, cannot be effectively used. So it's very hard to say 
there's this one thing that you can fund, because how can you 
fund opening someone's mind to making them available to use all 
the avenues of approach for personal advancement available to 
them?
    So I guess unless you want to really pay for therapy, 
maybe, it would be hard to say that there's this one thing. But 
I do know that the Committee, through TRICARE, that is, to go 
to therapy as a family, turned us around and put us very fast 
on the right track. And I would encourage every family I see, 
if they're struggling, personally I encourage them to use that 
opportunity. And it's okay to go to therapy. And we say that 
all the time, because you just don't know what--you don't know 
what you don't know. How do you know?
    Ms. Herseth Sandlin. Did you have something you wanted to 
add?
    Captain Yost. Yes. As a caveat to that, being in the work 
with General Doohen, we are both Air and Army. We also have the 
Army Reserves in the State of South Dakota. Our Family 
Assistance Center and our family program assists any 
servicemember, whether it's Navy or full-time or active duty, 
whatever it is. We will take the calls, and we will give them 
service.
    But I see a point where the Army has really taken a forward 
step and done an outstanding job in obtaining the funding, and 
the Air Force is also on board now. But I think we're 
forgetting about our Army Reserves. They're small. They're a 
smaller unit. They don't have probably the budget, and we've 
been working greatly with those groups in eastern South Dakota 
and giving them some of the briefs that we have.
    We also let them know that we will support them, that we 
bring them on board with us so that they will be part of our 
programs, too. But I think a funding issue would be to fund 
those other sides.
    Ms. Herseth Sandlin. I appreciate that, Captain Yost. This 
is one of the things that Mr. Boozman and I heard in Indiana. 
The Reserve component, especially when it's not the full 
component of it, the individuals from different units in a 
smaller detachment going and mobilizing with others. They are 
falling through the cracks, the individual reservists, upon 
deployment in terms of access of information, in terms of their 
employment rights and their other issues.
    I appreciate what you are saying. I appreciate what the 
South Dakota National Guard and what your leadership has done 
to fill the gap that I think has existed for a number of years 
where the Department of Defense was really only communicating 
about these benefits of readjustment to their active-duty 
military and left it to all of you to make this up as we went 
along.
    You've done an outstanding job being proactive. Your 
outreach has been tremendous, and we appreciate it here in 
South Dakota. You're also reaching out to the Reserve 
components. That's something that we're looking into further to 
see what else we can do to assist those efforts on a State 
level.
    One last question, and then I'll turn it back to Mr. 
Boozman, for Ms. Machetta. You had talked about the individual 
who had come here and heard about how good the TAP program was 
at Ellsworth, and then he suffered the heart attack after the 
spouse had attended TAP.
    I failed to ask the three individuals on the prior panel if 
their spouse attended TAP with them. Is that something that you 
encourage or recommend? Are you stretched for resources and the 
spouses can't attend on their own, they have to come with the 
servicemember? Also, is it a recent development where TAP has 
integrated the opportunities for servicemembers to meet with 
civilian employers that are coming in; is that something that 
has happened in the past, but not to the degree you're 
integrating it now?
    Ms. Machetta. Okay. Thank you.
    As spouses, by regulation, they've always been told they 
can come. If they don't know, they don't attend. So we actively 
sought them through commander calls and weed them out. And we 
talk to them about specific benefits such as the Workforce 
Investment Act and Dislocated Spouse Program so that as we get 
them there, they see that there's something for them, and 
they're also listening better for the member. So that's really 
been helpful.
    In fact, Mark Koopman's wife was in attendance at the 
class, and Kim Geffre's husband will be attending in the near 
future. So as active-duty couples, they'll attend separately 
sometimes. That's been really helpful.
    When I took the program over 2 years ago, we offered in the 
class a 1-hour block where professionals could come in and do 
interviewing and help the folks with practice interviews. But 
what I found was that most people were terrified of doing an 
interview because they didn't have the resume done, and they 
didn't know what kind of job they were looking for. It was 
really not a positive experience. And so now at the beginning 
of TAP, we make available to them hundreds of jobs that are 
open, actual positions, descriptions they can write the job 
for.
    And then after TAP, during lunch hours and about 5 hours on 
Friday, we'll invite many, many different companies, some from 
as far away as Texas, to come up and actually do interviews, 
review resumes and give them help. Some of the local 
businesses; some are from all over the country. And so they 
have that opportunity to visit privately with hiring 
professionals and make sure they're ready. And that's--that's 
just so wonderful, the businesses that work with us and come up 
every 2 to 3 months. And they all take turns.
    Ms. Herseth Sandlin. Mr. Boozman, any further questions for 
the panel?
    Mr. Boozman. No. Thanks, Madam Chair.
    Again, I thank all of you for your service and your great 
job.
    Ms. Herseth Sandlin. Thank you for your work with the 
servicemembers, our Nation's veterans, your support on 
transition assistance, and the efforts that you've put up. 
Thank you very much.
    Ms. Herseth Sandlin. Joining us on this third panel is Mr. 
Shane Olivier, Education Program Specialist. He's accompanied 
by Mr. George Summerside, Acting Director of the South Dakota 
Division of Veterans Affairs. Also joining us on the third 
panel is Mr. Todd Kolden, Veteran Services State Coordinator 
for the South Dakota Department of Labor.
    We appreciate your attendance and testimony this morning.
    Mr. Olivier, we'll begin with you. Again, just a reminder 
to this and the remaining panels, your written testimony will 
be included in the printed record. So we'll recognize Mr. 
Olivier for 5 minutes.

  STATEMENTS OF SHANE A. OLIVIER, VETERANS EDUCATION PROGRAM 
SPECIALIST, SOUTH DAKOTA STATE APPROVING AGENCY; ACCOMPANIED BY 
 GEORGE SUMMERSIDE, ACTING DIRECTOR, SOUTH DAKOTA DIVISION OF 
VETERANS AFFAIRS; AND TODD KOLDEN, ADMINISTRATOR, SOUTH DAKOTA 
                      DEPARTMENT OF LABOR

                 STATEMENT OF SHANE A. OLIVIER

    Mr. Olivier. Thank you, Madam Chairwoman, Ranking Member 
Boozman and Members of the Subcommittee. We're pleased to 
appear before you today and provide some comments on the post-
9/11 GI Bill and kind of give you an idea of what the South 
Dakota State Approving Agency has been up to.
    We're very pleased with the Post 9/11 Veterans Educational 
Assistance Act, you know, it's a good deal for the Total Force 
GI Bill, for people--that it's really providing opportunities 
and benefits for people that are wanting to use it for college 
degrees.
    The Chapter 33, the way it's written right now, veterans 
cannot use their benefits at a non-college degree educational 
institution. Some examples of these institutions are business 
and trade schools, voc tech's, cosmetology or barber schools. 
In addition, like flight training institutions and 
correspondence schools are also not included. The Chapter 33 
veterans cannot use their benefits in crime or on-the-job 
training programs. In some of these examples are carpenters, 
electricians, automotive technician, truck drivers, et cetera.
    Since the original GI Bill, it's an important component for 
all the educational benefits. We get a lot of the approval of 
job training programs. We do a lot of apprenticeship and job 
training. And some of the VA benefits that these kids use or 
people use, they learn better from on-the-job training or 
apprenticeship skills, and we do a lot of those approvals. We 
also recommend reconsideration of other GI Bill improvement 
measures that were introduced into the 110th Congress, but they 
haven't been fully acted upon. And another aspect of our 
agency's mission is customer service. We partner with all of 
the other agencies, kind of like the previous panel discussed. 
We work together.
    Our job is really to be the front-line responder for the 
vet and to help them get--if they contact our office, and it's 
not regarding an educational issue, we will direct them to the 
right direction.
    And customer service is something that George really 
preaches and we all believe in. And we're serving the people 
that have served our country, so we do our best to get them an 
answer or direct them to where they need to go to get their 
answer.
    When the new GI Bill came out, we didn't have much 
information on them, but we got a lot of questions on it. So 
George got right on it, and we went to work immediately trying 
to find some information that we could get out to our vets we 
were getting all the questions from. We got a fact sheet from 
the VA that was electronically. We made sure we could get that 
out. It's kind of a short--just a short fact sheet on the new 
GI Bill. And we got that out to our veterans services workers 
and provided a mailing electronically as well and got that out 
very rapidly. About--I think it was 18 days after we got--the 
bill was signed, we got that fact sheet out.
    We do a pretty extensive welcome home brochure, and I know, 
speaking as a veteran myself, that's very helpful. But kind of 
like the first panel said, Sergeant Lassegard, you get 
inundated with a lot of information. It's good to have these 
manuals as well as these brochures that George was instrumental 
in putting together. It has a ton of info, and you can take it 
home and read it. It's pretty important.
    But to echo what the first panel member said, you want to 
get home and see your families. Benefits aren't really on your 
mind when you're coming back from a year and a half, wherever. 
But we do our best to get the information out to these people.
    We also--we printed 1,000 fact sheets on the new GI Bill, 
and we provided electronic copy out to the Veterans Service 
Network, also to our school certifying officials, and to our 
county and Tribal Service officers.
    As you guys know, the new Chapter 33 GI Bill is very 
comprehensive and complex, and what we're going to do is try to 
disseminate this information out to our vets as quickly as we 
can. Also, we try to respond, like I said, quickly to the 
demands of the veterans. The last fiscal year we had over 1,900 
actions taken. We visited over 200 facilities. There was 1,100 
approval actions that we completed just for our veterans 
educational benefits.
    That's kind of just a quick run-down. As you said, this is 
all in the record, so I just kind of hit the high points.
    In closing, Madam Chairwoman, I'd like to thank you guys 
for allowing us to testify and kind of give you a short run-
down on what we're doing.
    [The prepared statement of Mr. Olivier appears on p. 65.]
    Ms. Herseth Sandlin. Thank you, Mr. Olivier. I appreciate 
your testimony.
    Mr. Kolden, you're recognized.

                    STATEMENT OF TODD KOLDEN

    Mr. Kolden. Thank you. My name is Todd Kolden, and I'm an 
Administrator of the South Dakota Department of Labor. And one 
of the programs that I administer for the Department is the 
Veterans Employment Services. I serve as an active member of 
the National Association of State Workforce Agencies, Veteran 
Affairs Committee, and I'm the State Employment Chairman for 
the Veterans of Foreign Wars and Disabled American Veterans 
(DAV).
    It is my honor to appear before this Subcommittee today on 
behalf of the South Dakota Department of Labor Secretary to 
present to you the views regarding the Transition Assistance 
Program workshop and to discuss any questions you may have.
    My testimony this morning will focus primarily on TAP. You 
heard earlier this morning that the partnerships are important 
for TAP to be successful, and I'm happy to say that the 
partnership we have with the Department of Defense, in this 
case Ellsworth Air Force Base, the VA Vocational Rehabilitation 
and Employment, the South Dakota Department of Military and 
Veterans Affairs, the U.S. Department of Labor (U.S. DoL) and 
Veterans' Employment and Training Service (VETS) and our 
Department are solidly in place.
    I think these are very important for TAP to be instrumental 
in the success of TAP facilitated at Ellsworth Air Force Base. 
Without these solid partnerships, servicemembers attending TAP 
would not be receiving the full benefit of transition services 
that they deserve.
    South Dakota's current TAP Memorandum of Understanding, 
2008, which was signed by Ellsworth Air Force Base, the U.S. 
DoL, the South Dakota Department of Labor, is current. However, 
with these partnerships, even though they aren't in writing, we 
do ask for your assistance in--to ensure that these departments 
can continue to function successfully.
    I want to note that the importance of our DVOPS, our 
Disabled Veterans Outreach Program Specialists, and our Local 
Veterans Employment Representatives (LVERs) is not only serving 
veterans in the local office, but also conducting outreach. One 
of the best opportunities for outreach is during the 
facilitation of TAP workshops.
    In South Dakota, our DVOP specialists and LVERs facilitate 
approximately 80 percent of the TAP workshop and 25 percent of 
the disabled TAP workshop, which is conducted approximately 16 
times per year. On average, our workshops have about 30 
personnel, 30 to 35 personnel, attending each workshop.
    The majority of our Air Force and members of the other 
services, including the National Guard and Reserve, often 
attend. TAP is also available to spouses, and they are strongly 
encouraged to attend as you heard Machetta state earlier. TAP 
workshop transition services develop a one-on-one relationship 
with the DoD or LVER, which, in my opinion, enhances a very 
successful transition.
    For those servicemembers who are leaving South Dakota, we 
do provide a contact, an EOT or LVER in the State that they are 
relocating to.
    As the Subcommittee is aware, and I think I heard some 
questions earlier of making TAP mandatory for active-duty 
servicemembers and to facilitate TAP workshops regarding their 
component before transitioning or retiring from military 
service. The Department of Labor and South Dakota Department of 
Labor strongly feels it should be mandatory for active-duty 
personnel.
    Many of these servicemembers have been in the military for 
more than 4 years, and most likely have been serving at a 
fairly young age. Many have probably never held a civilian job, 
and this transition will be a very abrupt change. This should 
be handled through the accounting or command level.
    In other words, we feel that the Adjutant General of each 
State should inform their units about the TAP workshop, allow 
them the opportunity to attend the TAP workshop if they desire 
by sending them on no cost, Temporary Duty (TDY) assignment, or 
Temporary Additional Duty (TAD) orders.
    As you know, many of these individuals already have jobs 
they are returning to and may not have a desire or need to 
attend TAP. But again, they should at least be given that 
opportunity.
    In South Dakota, the South Dakota Department of Labor made 
this request that nearly 5 years ago to the Adjutant General 
and thanks to the partnership we have established there is an 
informal agreement in place and this was recently affirmed with 
the new Adjutant General. And thanks to the partnerships we 
have established, there was an informal agreement in place as 
recently affirmed by General Doohen.
    Currently there are full-time Guard members attending TAP 
that are retired or separated. U.S. DoL reports that only 60 
percent of our servicemembers are currently attending TAP with 
an ultimate goal of 85 percent. We support this initiative and 
feel that making TAP mandatory will reach this goal.
    More important, it will have increased the successful 
transition of servicemembers. Of note for all servicemembers 
who are assigned Ellsworth Air Force Base and unable to attend 
TAP prior to separation, one of our DOT specialists will 
provide an abbreviated TAP presentation at the mandatory pre-
separation briefing.
    While this is not meant to replace TAP, it does provide 
valuable and needed information to separating personnel. We 
always encourage participation in the full TAP workshop. If 
this isn't possible, we will encourage them to attend TAP at 
the State where they're relocating to.
    I would like to share my personal experience with TAP. When 
I retired from the military service, I was given the 
opportunity to attend TAP, and the information I learned and 
the resources I was provided helped me immensely, immediately. 
TAP assisted me into seamless transition from military civilian 
life as I had employment when I retired. It also assisted in 
ensuring that all of my benefits were in place prior to my 
transition, and what to do and where to go if further 
assistance was needed.
    I feel that the TAP workshop is one of the best resources 
we currently have for servicemembers who are making the 
transition from military to civilian life and for Guard and 
Reserve individuals who want to make a career change.
    Finally, I'd like to mention that oftentimes an important 
part of transition is training separated servicemembers so they 
can enter a particular employment field. Some of you might 
remember or are aware of the Service Member Occupational 
Training Act, 1992, often referred to as SMOCTA, which was an 
Act that provided funding for training servicemembers after 
separating from military service and was highly successful in 
South Dakota.
    Recently, H. R. 6272, which would re-authorize SMOCTA by 
the Subcommittee and forwarded to the full Committee for 
consideration. And I would urge your support on this bill.
    Again, I want to thank you for allowing me to testify. This 
does conclude my testimony. I would be happy to discuss or 
respond regarding TAP or services in South Dakota. And I would 
just like to add one more note that I feel these field hearings 
might be one of the best ideas that have happened in a long 
time to get out and really listen to the field and what's going 
on in our State, so thank you.
    [The prepared statement of Mr. Kolden appears on p. 68.]
    Ms. Herseth Sandlin. Thank you, Mr. Kolden. We appreciate 
your testimony and your insight that you have offered today.
    I will have some questions for you after Mr. Boozman has 
asked some questions regarding what you recommended in your 
testimony 2 years ago and again today. Let me start with Mr. 
Olivier. In terms of the post GI Bill, as Mr. Boozman mentioned 
during his opening remarks, the fact that this Subcommittee had 
taken the lead in working with various stakeholders, various 
State veterans organizations, and agencies to try to find ways 
to dramatically improve the benefit, at the same time making 
sure that VA was adequately resourced to effectively administer 
it.
    While I'm very pleased that we passed a dramatically 
improved GI Bill benefit for our servicemembers, I should say 
that what we passed wasn't fully vetted in the Committees. 
There were provisions added late on transferability. It's going 
to be a complicated new program to administer.
    Now, Mr. Summerside, I remember having conversations with 
you over the last few years about the people that are your 
contacts down in Saint Louis who you can count on, who you can 
rely on, who help you, help servicemembers and veterans get 
answers to questions they have about benefits, get things 
processed, making this as smooth as possible. But, I think that 
there are some concerns that you have expressed that I share 
about whether or not Saint Louis is always fully resourced to 
meet all of the demands that have been placed on them in the 
past, all the new demands that are going to be placed on them 
working with folks like you and the State Approving Agencies.
    Mr. Olivier, on the State level with you, and of course, 
the VA as a whole, and the education service being ready to 
administer this expansive, appropriately generous but expansive 
and very complicated benefit. I am going to be charged with Mr. 
Boozman, I'm sure, throughout the rest of this term, and we 
hope into future years, to make sure that we're exercising the 
oversight the VA is going to need to make sure that our 
servicemembers have an ease of accessing this new benefit 
without bumps in the road. Also, by demonstrating some of the 
frustrations that occur when there are delays in processing 
claims and information that may not always be accurate that 
they're getting from different sources.
    I appreciate the steps you've already taken shortly after 
we passed that bill to try to share as much information as you 
can that was available from the VA to our servicemembers. But 
Mr. Olivier, Mr. Summerside, could you speak with me a little 
bit about your thoughts on administering this new benefit, and 
the support that you will need from Congress and the support 
that you believe the VA will need from Congress to make sure 
it's effectively administered?
    Mr. Olivier. I think as far as when we start the work with 
the veteran, we always have to get in touch with our 
regionalized employment liaison representative to find out 
exactly about their abilities and stuff like that. And that 
takes away quite a bit of time where we don't have access to 
those records. And that's for security issues, I'm sure.
    But we work--you know, it's tough for us, because we're 
kind of a liaison between the vets and the State and our 
veterans. And we try to get an answer back as quickly as we 
can, but they are very busy down in Saint Louis. And they do a 
really good job of getting back to us, you know, in a fairly 
short amount of time. Sometimes two, three days, but usually we 
tell the veterans a week. But they usually have a run-around, 
and then bounced to several different people or, you know, that 
it's tough when we get them on the phone.
    We try to run it through as quick as we can. But I think 
George can speak better on that, because he's got a lot more 
experience in that.
    Mr. Summerside. Thank you, Madam Chairwoman and Members of 
the Subcommittee.
    Saint Louis, this process actually began, the 
regionalization, over a decade ago. And many of the things or 
the thoughts that I thought they would do through technology 
and the other initiatives really haven't been realized, I don't 
think, to the full benefit to the veterans or family members.
    You know, we're very fortunate in South Dakota to have good 
relationships with some key people down in Saint Louis. But 
that was a hard-fought war here in South Dakota. We had to 
actually through a letter to our South Dakota veterans' 
Commission and others to the director of Saint Louis just about 
a decade ago, and he came up and visited. And from that 
meeting, he made a commitment to us and what we--the commitment 
back to him was this.
    We would do all the on-the-job-training (OJT) on the claims 
that would come right through our State improvement agency, 
which basically was unheard of. We would make sure that all the 
pieces are there to expedite any processing of the claim.
    We've held true to our part. But on the other side, what we 
always said to the veteran or the trainee, within 4 weeks of 
application, if you don't hear anything, we want to know, and 
we want to put it in--you know, on any kind of new arrangement 
or agreement, usually right up front it's usually pretty good, 
they respond back very quickly within a few days. But I still 
have a good working relationship with many of the key 
individuals down there. I think the main thing they need is 
they need resources available to them.
    And one other thing that they possibly could use is over in 
the comp and pension side, those individuals are paid at a 
higher rate. So when you open up the doors to comp and pension 
you get more claims examiners and those folks going over to 
comp and pen, you're losing them from the education end.
    And the other thing I've seen in the last decade, the VA 
educational services have lost a lot of the experience they've 
had over the last decades. I believe in my heart the real 
experience as far as knowledge and experience about veterans' 
programs really rests a lot with State approving agencies.
    My colleagues across the State, you know, Don Sweeney, he's 
been involved since the seventies. He's seen all these types of 
programs go through. Jim Bonaparte in New York, Jim Little, you 
know, most of the individuals I'm talking about have 10, 15, 
20, 25 years of experience. Most of the staff at the VA central 
office at this point in time, I think many of them have under 5 
years of experience. A lot of the ELR's that you're bringing 
into play to work with our agencies have little or no 
experience when they come out, and they are the final say in a 
lot of these approval issues.
    My good friend down in Missouri, Chad Shotz, said to me the 
other day when we were talking about an OJT approval, we're 
fighting fights we won 15, 20 years ago, and we're fighting 
them today. A lot of these have to do with training programs.
    So I think if the VA Central Office, you know, educational 
services really looks to the resources, and that would be 
through your State approving agencies, I think every one would 
gain a lot as far as the new GI Bill, the Chapter 33.
    Ms. Herseth Sandlin. Thank you both for your response to 
that question.
    Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Kolden, do we need a program that focuses on retraining 
vets with few skills? Do you see that as a problem?
    Mr. Kolden. I do see that. I don't think it's a full blown 
problem. I think it's an even larger problem. But, you know, if 
you look at the new GI Bill which came out, it's tremendous. I 
applaud that tremendously. That might even affect some of this 
legislation that's been thrown about.
    But a small State like South Dakota, we haven't seen 
training there that a lot of the larger States and large 
metropolitan areas have. I'm talking specifically, I'm not 
trying to put down the VETS office, but the homeless veterans 
reintegration program and the veteran grant, the Veteran 
Workforce Improvement Program Grant, VWIP, have never received 
any training dollars.
    That's probably another reason why that was successful in 
South Dakota, because we had a lot of servicemembers that did 
need the training. We currently have in South Dakota, 
approximately at this time today, 11,000 job openings. Our 
unemployment rate is about 2.5 percent.
    A lot of people say that's good, but there's a lot of 
underemployment out there. And I think the dollars that will 
come through to train servicemembers or training servicemembers 
who don't have the necessary skills in the workforce, civilian 
workforce, would benefit very highly from SMOCTA or a similar 
bill.
    I think our businesses in South Dakota would benefit from a 
bill similar to that. I just really can't see anything that 
would belong with a bill like that.
    To answer your question, yes, again, there are a lot of 
servicemembers who do not have the skills that they have 
achieved in military service that would benefit them in 
civilian life.
    Mr. Boozman. Good. That's under Miss Herseth Sandlin's 
leadership and her staff, my staff. I guess most bills come 
down the bar, so we're in the process of redoing that and 
trying to address that concern. And it is good that you're--
that's why we're out where the battle is being fought. You 
know, you guys are out on the front lines of these things, and 
we really are trying to give you some more tools to address 
those individuals. And so I think, hopefully we can get that 
passed at the arms level.
    What can you tell us about the number of veterans placed by 
the South Dakota Department of Labor this year?
    Mr. Kolden. What can I tell you about as far as numbers?
    Mr. Boozman. Are you getting referrals from the VA, from 
the voc rehab?
    Mr. Kolden. Yes. Again, that's another great partnership in 
South Dakota. We have the voc rehab, and the VA voc rehab 
operates out of Sioux Falls and out of Rapid City. And it's set 
up--I'd almost say that the Rapid City voc--VA voc rehab and 
our State was a model for a lot of other States.
    As I told you, I'm active with the National Association of 
State Workforce Agencies Veterans Affairs Committee. I think 
you hear a lot of the horror stories, if you will, of the 
relationships between other States and the Department of VA. 
And that just has not happened in South Dakota. We've had a few 
issues to work through.
    Kevin Roseland is the VA Regional Director out of Fargo. 
John Smith, we'll hear from him later today, out of Sioux 
Falls. They were instrumental in approving some of the 
relationships, and a lot of them were personnel problems. And 
they've dealt with and we had to move on.
    Like I say, there have been some bumps through them, but 
based, again on Kevin Roseland and John Smith, Earl Schultz 
from U.S. DoL/VETS in my office, we've worked through those 
bumps, and we have a good relationship to be successful in 
South Dakota.
    Mr. Boozman. That's the important thing. Thank you very 
much.
    Madam Chair, I appreciate you guys very much for your 
service to our vets.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. Mr. Kolden, 
I'm glad to hear that you think TAP should be mandatory. The 
servicemembers and the Air Force Base, all of them, felt it 
should be mandatory.
    Mr. Boozman and I have had discussions about getting what 
we've heard across the country, and how effective the program 
is for those who have participated, how we can best go about 
making sure that more people are able to participate.
    Now, the Marines have made TAP mandatory, and you have 
mentioned that you think that the encouragement or the 
requirement could come from the command level, from the 
Adjutant General to encourage more people to take advantage of 
the TAP program on the National Guard/Reserve. Correct?
    Mr. Kolden. Correct.
    Ms. Herseth Sandlin. Separate from the National Guard 
Reserve to the other branches of the Armed Services, in your 
opinion, since the Marines have made it mandatory, but the 
other branches haven't yet, do you think that this is a 
leadership issue that can be resolved there, or do you think it 
needs a legislative fix?
    Mr. Kolden. And you're all aware that a lot of the 
obstructions to making it mandatory was commands felt they 
would be losing people. But I think in the last 10 years, it's 
become very evident that TAP is a good recruitment tool. That's 
one way to look at it.
    I personally, when I retired, my command, it was mandatory 
in my command to have TAP when you retired or separated. So I 
think in the Navy and a lot of other services, there are 
commands to make it mandatory before you separate.
    I think hearing the testimony of servicemembers today, you 
know, they talk about getting the word out. And I'm not sure 
that we require legislature, but I think if the Services, the 
very service organizations heard the testimony like they heard 
today from the servicemembers who say it should be mandatory 
because they benefited from it, I'm glad I went through it, 
because I benefited from it.
    Again, an example was I had employment waiting for me at a 
very good job in the Twin Cities. And quite frankly, when I 
decided to come back to South Dakota, because I was tired of 
life in the big city, I used my TAP resources again to complete 
my resume, et cetera. And I had a job, a very good job which 
I'm at now in no time.
    But requiring legislation, I'm not sure if that would be 
the right way. I think then some of the Services or 
servicemembers would feel like they're being forced, and you 
know how people don't like to be forced. But again, I think if 
they start hearing how good of a recruitment tool it is and 
hearing the testimony today that servicemembers think it should 
be mandatory because it really benefited them, I think we'd see 
more of it.
    Ms. Herseth Sandlin. I know you have some TAP facilitators 
that have joined you here today.
    Mr. Kolden. Yes.
    Ms. Herseth Sandlin. Could you share with the Subcommittee, 
whether it's from your perspective or something you've heard 
from them, have you received any suggestions from 
servicemembers or from members of the Guard of ways to improve 
TAP? Maybe the issue of the spousal participation that we heard 
from the prior panel. Any other suggestions, other than the 
mandatory issue or the command encouragement, any other 
suggestions about how best to improve it?
    Mr. Kolden. I would have to say that Ellsworth Air Force 
Base has done a great job in getting the word out so spouses do 
attend. We strongly encourage spouses to attend.
    I'm thinking about Sue Machetta, who testified earlier and 
talked about a program, and she has a very good feedback system 
in place. After every TAP workshop, every servicemember who 
went to the TAP workshop fills out a feedback sheet form, et 
cetera. She reviews them. She sends them on to Earl Schultz, 
our DoL staff State director, and myself and to the TAP 
facilitators so we can all review the feedback that we receive. 
And we have made some tweaks based on servicemembers' feedback.
    Ms. Herseth Sandlin. Thank you very much.
    One last question and then I'll see if Mr. Boozman has any 
further questions.
    I had mentioned that we had made some changes in the 
National Defense Authorization Act of 2008 where the REAP 
benefits are now available for 10 years post-separation. Mr. 
Olivier, has your office taken any proactive steps working with 
either Guard leadership or other resources to identify and 
communicate with men and women who may have been deployed in 
OIF or OEF, but who separated from service, who may not yet be 
aware that they're entitled to utilize these REAP benefits?
    Mr. Olivier. Yes. I'll let George answer that question as 
well. They started that process. I'll let him address that.
    Mr. Summerside. Madam Chairwoman, as we talked when we had 
our meeting in, I think it was late February with Tom Murphy 
and myself, when we received that information, we developed a 
fact sheet. We distributed it not only to--all through our 
veterans' service network, all the Army and private service 
officers and certifying officials, and also we provided it 
electronically through the National Guard network and they 
provided it to their members.
    The one problem--and then we--we presented this very topic 
at some of the briefings or outreach briefings we had. The one 
issue we have is even the fact sheets that are available now 
are not very clear on who is actually eligible for what and how 
long. The response I received from Saint Louis is this: Tell 
them to apply to see if they will meet the requirements. And 
that isn't a very easy thing to do when you're trying to reach 
individuals on the simple facts of the program. And that was 
one of our National Guard group reports, and the administrator 
that we were working with, Cindy, she does an outstanding job. 
She's called for two briefings. Part of it was on education. 
Part of it was on post traumatic stress.
    But that is the one thing that--similar to what happened 
when they had Chapter 1606 and they allowed that extension. 
Basically the VA was allowing that extension, but no one was 
willing to talk about it or tell anybody about it for 6 months 
after they made the decision, so during that 6-month period 
there's a lot of individuals that are missed.
    And so if we could get a comprehensive fact sheet and good 
direction from the VA that actually will pay the benefit, we 
have the resources to make that information known in a 
quicker----
    Ms. Herseth Sandlin. Thank you very much. I appreciate your 
testimony.
    Mr. Boozman, any further questions?
    Thank you for your insights and your expertise that you 
bring to the table. We appreciate it. We look forward to 
following up with you on some of your suggestions. Again, thank 
you for your testimony and service to our State and the 
Nation's veterans.
    We're going to take just a short 5- or 10-minute break 
before we start with our fourth panel. We'll have two panels 
remaining, but we'll just take a short 5- to 10-minute break.
    [Recess.]
    Ms. Herseth Sandlin. We now go to our fourth panel. Joining 
us is Mr. Luverne Boes, District 13 Commander of the American 
Legion here in South Dakota; Ms. Doris Ann Werlinger, Past 
Department President of the American Legion Auxiliary in South 
Dakota; and Ms. Diane Hickenbothan, President of the Veterans 
of Foreign Wars Auxiliary in South Dakota.
    Thank you all for being here, for the great work you do on 
behalf of South Dakota's veterans, and the members of the 
organizations, and their families.
    Mr. Boes, we'll start with you. You are recognized for 5 
minutes.

STATEMENTS OF LUVERNE L. BOES, DISTRICT 13 COMMANDER, AMERICAN 
 LEGION, DEPARTMENT OF SOUTH DAKOTA; DORIS ANN WERLINGER, PAST 
     DEPARTMENT PRESIDENT OF SOUTH DAKOTA, AMERICAN LEGION 
   AUXILIARY; AND DIANE HICKENBOTHAM, PRESIDENT, VETERANS OF 
   FOREIGN WARS LADIES AUXILIARY, DEPARTMENT OF SOUTH DAKOTA

                  STATEMENT OF LUVERNE L. BOES

    Mr. Boes. Good afternoon, Madam Chair, Ranking Member 
Boozman, and Members of the Subcommittee. I am Luverne Boes, 
United States Navy Master Chief Petty Officer Retired and the 
American Legion Department of South Dakota District 13 
Commander.
    Since we have a much smaller all voluntary military, the 
need for National Guard and Reserves to fight the Global War on 
Terror is unprecedented. They have become the central part of 
our current DoD operations. We need to attract and retain these 
well-qualified individuals so our National defense stays strong 
and viable.
    One major incentive is the servicemember knowing that when 
they return from the wars they still have a job waiting for 
them. This is not always the case. Numerous cases brought to 
the attention of the American Legion by veterans and other 
sources, many of these returning servicemembers have lost jobs, 
promotions or benefits, and even been demoted.
    According to the Uniformed Services Employment and 
Reemployment Rights Act (USERRA), employers must, by law, 
protect the old jobs of employee servicemembers or provide them 
with equivalent positions. From all accounts, most Reservists 
and those in the National Guard appear to be well-informed 
about their active-duty legal rights. However, in their loss of 
their job, the American Legion strongly endorses the belief 
that servicemembers would greatly benefit by having access to 
the resources and knowledge that TAP can provide, but the 
program should have a stronger employment, mental health, and 
small business component.
    The American Legion strongly endorses H.R. 6272, the 
``Service Members Occupational Conversion and Training Act 
(SMOCTA) Reauthorization Act of 2008,'' along with the funding 
request. Veterans eligible for assistance are those with a 
primary or secondary military occupation specialty that the DoD 
determines is not readily transferrable to the civilian 
workforce, or those veterans with a service-connected 
disability rating of 30 percent or higher. The program 
successfully returns veterans to the civilian workforce.
    The American Legion believes that the Small Business 
Administration should be part of any Reservist and National 
Guard TAP and act as an advisory capacity for businesses owned 
by veterans to assist them with the resources and information 
to help lessen the impact of activation on their bottom line.
    Also, most individuals who join the National Guard and 
Reserves enter straight out of high school. Many are full- and 
part-time students with a number of activations since 9/11. 
They are discovering that graduation will take much longer than 
once anticipated.
    The American Legion recommends that TAP have an education 
representative to provide the National Guard and Reservist 
members with up-to-date GI benefit information so they can have 
the option of making informed decisions on how they incorporate 
their military service with their civilian employment and 
education options.
    With the President's signing into law a Post 9/11 Veterans 
Educational Assistance Act, the veterans education will change 
significantly after it becomes effective in August 2009. TAP 
and the Disabled TAP Program, DTAP, are excellent venues to 
brief recently separated servicemembers, especially those in 
the National Guard and Reserves, on new, enhanced educational 
benefits.
    In the recent months, there have been a number of news 
articles reporting that some creditors make illegal demands on 
active-duty personnel. With the military's increased reliance 
on National Guard and Reserve units, creditors residing in 
remote areas of the country outside of traditional military 
towns are not aware of the Servicemembers Civil Relief Act, 
which the President signed into law December of 2003. This Act 
helped ease the economic and legal burdens on military 
personnel called to active-duty status in Operation Iraqi 
Freedom and Operation Enduring Freedom.
    Relief extends to actions terminating leases, evictions, 
foreclosures and repossessions, default judgments, and lower 
interest rates on credit cards and loans, and protects against 
lapses and termination of insurance policies. If TAP was 
mandatory, servicemembers and local community businesses would 
also know this program and a lot of frustration and time and 
misunderstandings could be avoided.
    And finally, the American Legion recommends that Congress 
require Federal agencies that deliver TAP and DTAP services to 
develop a monitoring program to better assess how well services 
are being delivered to transitioning servicemembers and 
performance measures should be instituted to hold all Federal 
agencies accountable for their services rendered.
    The American Legion reaffirms its strong support in the TAP 
program but also encourages the Department of Defense to 
require that all separating active-duty servicemembers, 
including those in the Reserves and National Guard, be given an 
opportunity to participate in TAP training not more than 180 
days prior to their separation or retirement from the armed 
services and follow-up counseling not later than 180 days after 
separation from active duty.
    The American Legion would also support any legislative 
initiatives to mandate that all servicemembers be given the 
opportunity to participate in TAP and DTAP.
    This concludes my statement.
    [The prepared statement of Mr. Boes appears on p. 70.]
    Ms. Herseth Sandlin. Thank you, Commander. Ms. Werlinger, 
you are now recognized.

                STATEMENT OF DORIS ANN WERLINGER

    Ms. Werlinger. Thank you, Madam Chairwoman and Mr. Boozman 
and Members of the Subcommittee. Thank you for inviting the 
American Legion Auxiliary to appear before you today to discuss 
the Transition Assistance Program.
    Today I represent the American Legion Auxiliary, the 
world's largest women's patriotic service organization with 
900,000 members in 8,900 communities across the country. Here 
in South Dakota, we have 18,000-16,000 members in 221 
communities. Our mission is to serve veterans, their families, 
and their communities.
    The curriculum for TAP includes a narrowly defined yet 
broad-based agenda with the attempt to import as much 
information as possible to the active-duty component. Guard and 
Reserve members haven't had the benefit of a comprehensive TAP.
    While there is little debate as to the value of the 
information being shared during TAP, we hear continually from 
servicemembers and their families that TAP is either too much 
or too little, given at the wrong time and in the wrong setting 
with the expectation that all servicemembers hear the same 
message at the same time and in the same way.
    So what changes need to be made for TAP to be more 
effective? First, one size doesn't fit all. Even within the 
active component, not all servicemembers share the same career 
goals for civilian life. Guard and Reserve members face 
additional challenges as they return back to civilian lives 
that are now very different than when they left.
    Second, timing matters. Hitting a servicemember and his or 
her family too early or too late can dilute the message.
    Third, accuracy is not--no matter the delivery or message 
line is critical. We hear of miscommunication on important 
issues too many times.
    Fourth, too much information during delivery at one time 
with a combination of any of the above issues means much of it 
gets lost or not absorbed.
    Fifth, while technically the civilian job of a Guard or 
Reserve member is covered under USERRA, we all know that in 
practice these servicemembers have difficulty re-entering the 
workforce or picking up their careers because of subtle hiring 
practices that don't work in their favor.
    Following the example of Turbo TAP, which was designed with 
the National Guard in mind, any face-to-face program must be 
appropriately timed, relevant, and to the point. To 
oversimplify, the Auxiliary feels strongly that TAP needs a 
more contemporary face. Instead of giving servicemembers and 
their families what we think they need, we need to give them 
the option of choosing what they know they need.
    We recommend establishing a program that collectively is no 
more than 24 hours of content with an agenda flexible and 
varied enough so it appeals to participants at all stages of 
readiness for transition. The program should consist of a menu 
of presentations and/or workshops with minimum and mandatory 
requirements established for participation. The program should 
be established in such a way that one or two mandatory general 
sessions start TAP, followed by a diverse agenda of programs 
that would appeal to participants on a variety of levels and 
stages.
    If planned right, this format change would not require 
additional staff resources, would include much of the same 
content and material currently being used but focus on what's 
important to the participant.
    The most current Department of Labor statistics report that 
60 to 65 percent of all separating active-duty servicemembers 
attend TAP seminars and 30 percent of all separating National 
Guard and Reservists attend a portion of TAP. DoD has set a 
goal of 85 percent of separating servicemembers. We recommend 
that each branch of the military make TAP a mandatory 
requirement for all transitioning servicemembers, bringing 
participation to 100 percent.
    The Auxiliary is further recommending that accountability 
and measurable standards be established for each agency and 
delivery component in the process to ensure excellence. It is 
only right that at the conclusion of military or active-duty 
service we provide a transition program that meets them on 
their terms, ensuring a seamless transition back to civilian 
life.
    The American Legion Auxiliary recommends reformatting TAP 
to fulfill the needs of specific servicemembers, including our 
Guard and Reserve; requiring TAP be mandatory for all 
separating servicemembers; creating measurable standards to 
gauge effectiveness and success.
    TAP is an essential component of reintegration for all of 
our members of our military regardless of branch or rank. TAP 
done right becomes an invaluable step in successful 
reintegration.
    Thank you again for allowing me to represent the opinions 
of the American Legion Auxiliary through this testimony. I'm 
happy to answer any questions you may have.
    [The prepared statement of Ms. Werlinger appears on p. 75.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony.
    Ms. Hickenbotham, you are now recognized for 5 minutes.

                STATEMENT OF DIANE HICKENBOTHAM

    Ms. Hickenbotham. Chairwoman Herseth Sandlin, Mr. Boozman, 
and distinguished Members of this Subcommittee, I thank you for 
the opportunity to discuss what the Transition Assistance 
Program is doing to provide servicemembers and their families 
with the information and resources necessary to facilitate a 
successful transition from military to civilian life.
    I am honored to be asked to be here as the Department 
President of the State of South Dakota of the Ladies Auxiliary 
to the Veterans of Foreign Wars. We are the wives, widows, 
mothers, grandmothers, daughters, granddaughters, and sisters 
of persons who were or are eligible for membership in the 
Veterans of Foreign Wars by having served our great country in 
a foreign war or a hostile region.
    The Ladies Auxiliary to the Veterans of Foreign Wars serves 
veterans and their families and are a strong advocate for all 
veterans and their families. I am from the city of Aberdeen, 
South Dakota, where many of our National Guard and Army Reserve 
have been deployed. I speak as a wife and advocate for all 
veterans and their families and as the President of the 
Department of South Dakota Ladies Auxiliary to the VFW.
    We express great appreciation and gratitude for what the VA 
and the Department of Labor has been doing to help their 
readjustment back into a civilian life. Having returning to 
civilian life is often not easy for a soldier and is not easy 
for their families.
    I am especially grateful that you have included the Ladies 
Auxiliary to both the VFW and the American Legion. It does let 
us know that you are considering the effect and opinions of the 
families involved in the lives of our returning troops. I 
strongly believe that the family is the foundation for a 
healthy readjustment to civilian life.
    In speaking with many of the returning National Guard and 
Reserve members, they have expressed that the Turbo TAP 
technology has been a valuable tool for those returning from 
Operation Enduring Freedom and Operation Iraqi Freedom. This 
Web-based system seems to work very well for delivery of 
information and assistance.
    Servicemembers have rapid accessibility to locate One Stop 
Career Centers for employment assistance as well as medical 
care by locating the closest VA Medical Center. This program is 
helping returning servicemembers increase their participation 
and awareness of military benefits, allowing for an easier 
transition to civilian life.
    Now, what improvements and additions can be made that might 
make TAP more effective? This has come from talking to many 
troops and their families, and this is their opinion that they 
have expressed to me.
    I also would like to thank General Doohen and Captain Yost 
for their comment of PTSD and their dedication to take away any 
stigma from it, not only for the soldier but for the family, 
the spouses, the parents and the children of returning troops.
    We know there has been significant progress in the efforts 
to provide transition assistance to the soldier and to the 
families since this program was implemented. However, like I 
said, these are some of the following--or some of the concerns.
    Families are asking for more assistance to emotionally 
support their family while their spouse is deployed. This 
includes readjustment to parenting jointly again for when the 
spouse returns. Many feel that the family readiness leader or 
group leader was all that they know about, and to these ladies 
like Mrs. Lassegard, the people that have stepped up and taken 
over the job as assistance and family readiness leaders, I 
don't think we can thank them enough. I tell you, they are the 
backbone and they sit here very quietly. And they have been 
there for, you know, little things, from teenagers' problems 
to, you know, what's happening now, at that day I might 
possibly be deployed again.
    On some of the returning feedback with the TAP program, 
some spouses have felt that the returning soldiers are shuffled 
around too much for testing and receiving transitional 
assistance when they returned home. We had a soldier that was 
sent from Aberdeen to Fort Carson, Colorado, you know, for 
their testing and training, and the family felt like that was 
just another stress of another family separation.
    Many feel the need for credit counseling. And I know that 
was probably in some of the counseling, but it probably goes 
back to the communication, that maybe the readiness leaders 
aren't--you know, up in northeastern North Dakota we're not as 
close to a military base, and they really--there definitely is 
a definite need to have some of the counseling availability 
information sent home to the spouses and the families about the 
mandatory participation in TAP with the family member, whether 
it be the parent or the spouse would definitely be, I think, a 
great help.
    As far as the credit counseling, we often think that the 
spouse at home is in charge of the checkbook for the family and 
spending the money. One spouse related to me, though she got 
the bills all paid and her husband just worried about taking 
care of himself over there with what he had and when he 
returned home, the credit cards and the loans got really high 
from the person living at home.
    Many need assistance and support in dealing with the idea 
that their soldier may be called up again. It seems to hang 
over the heads of the children very intently. They know they're 
on alert. Their parent has been gone once, and the fear of it 
happening again causes much anxiety to some within the family 
unit. This isn't openly addressed, and it needs to be dealt 
with through the proper channels.
    There are things with PTSD that people--you know, 
transition is kind of almost not really a temporary word, but 
sometimes that transition into a well-adjusted foundation, 
signs and symptoms of PTSD may not show up for 15 years later, 
you know, and never have been addressed with it. Because, like 
I said, back here there are times where, you know, they just 
want to go back to their life.
    And just last week I had a young child call me. She was 15. 
She says, ``You know, Diane,'' she says, ``my dad's, you know, 
probably going to go again.'' And she says, ``I can't wait 
until he goes because I'm so tired of the anger that he's 
expressing at us.'' So this is happening now.
    We've got wonderful assistance for our program through the 
TAP for the counseling, but it is kind of underlying. It's not 
being--we definitely feel that the time line for this 
counseling for PTSD for the family, and we often know that the 
family becomes a battle buddy for the returning soldier. 
Families feel that the time to utilize the program is too 
short, doesn't start soon enough before the soldier returns. I 
don't know if it can be integrated or when you do actually 
start the readjustment with the families back home before their 
troops return.
    Many of the listed concerns seem to deal with communication 
with the TAP program and with the family. We recommend that 
communication with the families become a priority in a timely 
manner. The timetable of the transition assistance must be 
communicated frequently and soon enough to accommodate the 
soldier and family for smoother transition into civilian life. 
Family readiness leaders are an important tool in this program 
and they're training needs to be comprehensive and supportive.
    I thank you for allowing me to present this testimony on 
behalf of our organization, the Ladies Auxiliary to the 
Veterans of Foreign Wars. Know that we deeply appreciate the 
implementation of this program. The men and women that have 
worn the uniform of this great Nation deserve all the help and 
transitional assistance that we can give them to deal with the 
stress of war and separation. Every soldier deserves all the 
support that we as Americans can give them. Each and every 
soldier and each family member deserves help and support for 
the great sacrifice that they have all given.
    And I would be glad to respond to any of your questions.
    [The prepared statement of Ms. Hickenbotham appears on p. 
76.]
    Ms. Herseth Sandlin. Thank you all, for your testimony. We 
will start with Mr. Boozman's questions.
    Mr. Boozman. Thank you, Madam Chair.
    I appreciate your testimony. Again, this is why we're here, 
is you all are on the front lines and are very, very involved 
with what's going on.
    I think you really have given us a lot of good suggestions, 
and it's just difficult. We've got two things going on here. 
We've got people transitioning out of the military back into 
civilian life and then we've got people transitioning back as 
they come back from being gone in the theater and stuff and 
that's a difficult situation, also.
    I don't think sometimes we think enough about the--and you 
all have mentioned the stress in the family, the financial 
problems that come with deployment. You know, particularly in 
the case of the National Guard when you have a business and you 
go off and--it's just a difficult situation. Sometimes the 
support mechanism, it's just not there like it is in the 
regular military.
    Mike was mentioning earlier that possibly we could use the 
credit unions on base things like that, more to give advice and 
things. But I do think that's an area and that's something that 
we've looked at, that we're trying to be more supportive, but I 
think that when you look at the--something that we don't talk 
about, we talk about PTSD, we talk about suicide rates, but we 
don't talk about divorce rates, which is--you know, it's been 
significant.
    So those are things that we really do need to do a better 
job of and its something I'm committed to and the Chair and her 
leadership understands.
    But--I really don't have a question. I do appreciate you 
being here, and I appreciate your Auxiliary.
    I tell this story. I was at a ladies meeting several years 
ago, and I told them that my wife, Kathy, was with me. And I 
told them that I looked around and the auxiliary was doing all 
this work and that they were the backbone of the organization.
    And on the way home, Kathy looked at me and she said--my 
wife, Kathy, looked at me and she said, ``They're not only the 
backbone. They're the brains, also.'' So we do appreciate you 
very much.
    So thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I have a couple of questions for the panel. Mr. Boes, if I 
could start with you.
    In making TAP mandatory, I asked this question of Mr. 
Kolden in the previous panel, the Marines have made it 
mandatory. In your experience and in your opinion, do you think 
that this is going to require Congress to act, to make it 
mandatory, or do you think that the Department of Defense can 
make it mandatory in each branch following the suit of the 
Marines?
    Mr. Boes. Madam Chairwoman, what I would say personally is 
it should be mandatory through DoD.
    I was visiting the other day with a retiring E6 from the 
Air Force, and since given this task to come onto this panel, I 
decided to ask people that I saw in uniform about the program. 
And this gal was just outstanding. Her positiveness was just 
great. When she gets out of the service, she's going to do 
great things, and the TAP program is setting her up for that.
    And I said, ``Well, that's great for those of you that are 
retiring. How about that E3 or that E2 or even an E4 that's 
getting out after 3 or 4 years?'' And she was telling me that 
they really don't care about it. They just want to get out and 
go home.
    The problem is that in a few years they're going to say, 
``I wish I would have known about that.'' And so many of them 
don't even know to go check in with their local county offices 
to sign up for the veterans' benefits, because, if nothing 
else, the veterans' service officer there would be able to 
visit with them for a little while.
    While all of this discussion was going on, I was sitting 
back there thinking about something. I'm the brains of the 
organization.
    We talk about this being a great recruiting tool. Has there 
been any thought given to including a representative in a 
recruiting office so that people can see the veterans coming 
and going and what they are doing after service? Just a 
thought.
    But as far as making it mandatory, I think it needs to come 
from above. Because at the service level, if it isn't 
mandatory, we're going to have commanding officers or someone 
in command saying the job takes precedence over what you--
wanting to get in TAP right now.
    Ms. Herseth Sandlin. I appreciate your response.
    Two years ago when we had this hearing, the field hearing 
focused on this topic in part, out at Ellsworth Air Force Base. 
They were going through a reduction in force, so you had some 
younger Airmen who may or may not take advantage of TAP. I 
think with Airmen in particular, that's an additional 
obligation of the Department of Defense, to ensure that this 
information is shared with these younger individuals.
    But I do think--I appreciate your thoughts here even if one 
of the things we heard 2 years ago is if you make it mandatory, 
then it's just like every other mandatory program. You're not 
going to get much out of it.
    Well, that may be true in the short term for some of them. 
They're still going to have certain information that they 
retain, or remember that it's available, or that they will 
likely follow up or know where to follow up to get that 
information if they don't go through the program.
    So I appreciate your response.
    One other thing, Mr. Boes. You recommended that TAP 
workshops should have a stronger employment, mental health, and 
small business component. Do you think that there should be 
workshops that address only one or two of those topics at a 
time so that there's a stronger focus? Would you agree with the 
servicemember who testified earlier that there should be a 
longer duration to cover some of these other topics? Do you 
recommend that?
    Mr. Boes. Madam Chairwoman, I feel that the longer term of 
receiving that knowledge would be better. The idea that you get 
it in one fast blast, I heard Turbo TAP, a computer online 
system to get the information, that's all good, but the first 
time, too, you're going to pick up some information. The next 
time through you're going to pick up a little more.
    So if we start out 6 months prior to somebody's return or 
getting out of the service, start giving him that data, it will 
slowly sink in to where when they get out they say, ``Oh, wait, 
I remember, it was said at TAP, and I need to go check in at 
that veterans' service office.''
    One thing that the American Legion does also is we have a 
veterans' forum. Each district within the American Legion puts 
on a forum once a year and we bring in all of these people. I 
would like to find a TAP representative to include in my 
district's forum. It would just make sense to give out that 
extra information also.
    Ms. Herseth Sandlin. Thank you.
    To Ms. Werlinger and Ms. Hickenbotham, the Auxiliaries have 
been working with the Family Readiness Groups. Both of you 
talked about the importance of communication with the families, 
this time line of when you get the information to the family is 
too late and it will dilute its effectiveness.
    Could each of you elaborate in greater detail where you 
think TAP needs to be improved for Guardsmen and women and 
their families? In particular, having worked with the Family 
Readiness Groups to communicate to the National Guard 
leadership about the importance of encouraging not just full-
time Guard but part-time Guard to participate in the Transition 
Assistance Program offered at Ellsworth, or looking to see if 
those types of programs could be offered in Sioux Falls or 
elsewhere in the State?
    Ms. Hickenbotham. In Aberdeen, it seems like there has 
been--I was just sharing with her earlier that we are not 
getting the communication out there like they seem to be 
getting out here. I don't know if they're sending a 
representative out here.
    Just a week or so ago a wife called me and her husband had 
to go to Greece, which allowed her to receive CHAMPVA. And she 
was--you know, he'd returned like 6 years ago. He was one of 
the first ones back. And so--everybody knows TRICARE and they 
all go to the hospitals and the doctors or CHAMP, but they 
weren't aware of what CHAMPVA was and how she could get help 
with that.
    And we're in the middle--Minot's up there. You know, we're 
there, but we need some help and support working up there with 
them. And being from Rapid City, I'm feeling like you're 
getting the help you need, and I really think we need more help 
up in that northeast corner there.
    Ms. Werlinger. The only other thing I can think of, Madam 
Chairwoman and Members of the Subcommittee, is these service 
men and women, they need whatever they can get, and the sooner 
they can get it, the better off they are.
    I know in my own personal life, when my husband retired 
from the Air Force, he had all the information available for 
him. I was not included as a spouse for that retirement 
separation. I could have been, but he did not want me there. 
Well, being the person I am, I got the information anyway, but 
that's because that came within, what's here.
    But I feel that some of those things should be mandatory, 
and I have not heard of anybody that I can think of right off 
the top of my head that has had any problems. But, like I said, 
when they need it, they need it, and they should have it.
    Ms. Herseth Sandlin. One quick followup. Is the accuracy of 
information you identified in your testimony, and some of the 
concerns of the accuracy of the information that they're 
getting, not only do they need it and anything they can get, 
they need, we have to make sure it's accurate.
    Does the American Legion Auxiliary have any specific 
recommendations? Is it an issue of training within the TAP 
program itself? Is it facilitating accurate information? The 
previous panel said that some of the fact sheets coming from 
the VA are not always as comprehensive as we need them to be 
and don't fully explain the benefits. Do you have any specific 
recommendations on how we can improve the accuracy of the 
information?
    Ms. Werlinger. Well, I have to go along with Mr. Boes. I 
think that if we can have a TAP representative at those 
meetings that we have for the veterans' forum for the benefits, 
then we'll get that information that we need.
    Ms. Herseth Sandlin. Okay. Thank you.
    Thank you very much for your testimony today, for your 
leadership in your respective organizations. As a member of one 
of the Auxiliaries, I appreciate, very much, the role that both 
organizations play in supporting the American Legion and VFW. 
We appreciate, again, your leadership, Commander, and we'll 
look forward to following up with you on your suggestions to 
better serve our Nation's and our State's men and women. Thank 
you.
    We'll now move to our fifth and final panel.
    Joining us is Mr. John McWilliam, Deputy Assistant 
Secretary, Veterans' Employment and Training Service, U.S. 
Department of Labor. He's accompanied by Mr. Earl Schultz, 
Director of Veterans' Employment and Training in South Dakota. 
Also, we have Mr. Don Kelpin, South Dakota Chairman, Employer 
Support of the Guard and Reserve, U.S. Department of Defense, 
and Mr. William Fillman, Central Area Director for the Veterans 
Benefits Administration, U.S. Department of Veterans Affairs, 
who is accompanied by Mr. John Smith, Director of the Dakota 
Regional Office, Fargo and Sioux Falls, U.S. Department of 
Veterans Affairs.
    Thank you, gentlemen, for being with us today, traveling, 
most of you, to South Dakota or this part of the State, and we 
appreciate the written testimony you've submitted, which has 
been made part of this hearing record.
    Ms. Herseth Sandlin. Mr. McWilliam, we will begin with you, 
and thanks for joining us in South Dakota. You are recognized 
for 5 minutes.

  STATEMENT OF JOHN M. McWILLIAM, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
  LABOR; ACCOMPANIED BY EARL R. SCHULTZ, DIRECTOR, VETERANS' 
   EMPLOYMENT AND TRAINING, SOUTH DAKOTA, U.S. DEPARTMENT OF 
   LABOR; DON KEPLIN, STATE CHAIRMAN, SOUTH DAKOTA EMPLOYER 
 SUPPORT OF THE GUARD AND RESERVE, U.S. DEPARTMENT OF DEFENSE; 
 AND WILLIAM D. FILLMAN, JR., DIRECTOR, CENTRAL AREA, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY JOHN SMITH, DIRECTOR, SIOUX FALLS, SD, REGIONAL 
 OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you, Madam Chairwoman, and Ranking 
Member Boozman. It's a pleasure for us to be present here in 
South Dakota for this very important hearing on the Transition 
Assistance Program.
    The mission, as you know, of the Veterans' Employment and 
Training Service is to assist veterans in the transitioning 
into the 21st century workplace. One of the major ways that we 
do that is through the employment workshops provided through 
the Transition Assistance Program.
    We're very proud of our role in helping people transition 
from military to civilian employment. As has been mentioned 
several times today, currently 65 percent of all active-duty 
transitioning servicemembers attend a TAP employment workshop. 
This has risen from 50 percent about 10 years ago. As a 
recommendation of the President's Task Force on Returning 
Global War on Terror Heroes, each of the military services has 
established a goal of 85 percent participation. The DoL 
commitment to this is to provide the TAP employment workshop 
wherever and whenever requested by the Department of Defense 
and by the Department of Homeland Security.
    As you know, Madam Chairwoman, to maintain a quality of 
service delivery, all our workshops use a common workbook and 
standard program of instruction. All facilitators are trained 
at the National Veterans' Training Institute.
    We are currently in the process of beginning a redesign of 
the curriculum. A core aspect of that redesign will be customer 
surveys and follow-up afterward to provide a feedback loop so 
we can improve the program.
    Since 2001, VETS has provided transition services to over 
146,000 National Guard and Reservists. These transition 
services range in size and content from mobilization and 
demobilization briefings to the full-scale TAP employment 
workshop. In many cases, Guardsmen and Reservists are put on 
orders and are sent to an active-duty TAP workshop, and that is 
the case often in South Dakota. We have provided these services 
to 43 States and the District of Columbia.
    In particular for the Guardsmen and Reservists returning to 
South Dakota, we have long recognized the importance of 
providing them assistance. Since their mobilizations normally 
take place at Fort Sill or Fort Carson, when the presentations 
are made to the demobilizing servicemembers, they are given the 
contact information for our staff here in South Dakota.
    In closing, I'd like to thank you for allowing us to 
address you today, and Mr. Schultz and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. McWilliam appears on p. 78.]
    Ms. Herseth Sandlin. Thank you, Mr. McWilliam. Mr. Kelpin, 
thank you for being here. You are now recognized.

                    STATEMENT OF DON KELPIN

    Mr. Kelpin. Chairwoman Herseth Sandlin and Members of the 
Subcommittee, thank you for the invitation to offer my 
perspective on issues relating to the Employer Support of the 
Guard and Reserve, or ESGR, as it applies to the South Dakota 
National Guard and Reserve members.
    I have volunteered with ESGR since 1996 and currently serve 
as the South Dakota State Chairman. South Dakota ESGR consists 
of 40-volunteer members located throughout the State and two 
paid staff here in Rapid City.
    ESGR is a DoD agency that seeks to promote a culture in 
which all American employers support and value the military 
service of their employees. The ESGR volunteers recognize 
outstanding employer support, increased awareness of the law, 
and resolve conflicts through mediation.
    The Uniformed Services Employment and Reemployment Rights 
Act, or USERRA, Title 38, United States Code, Chapter 43, was 
enacted by Congress and signed into law by President Clinton on 
October 13, 1994, to protect the rights of persons who 
voluntarily or involuntarily leave employment positions to 
undertake military service.
    There are two types of transitions for servicemembers, one 
when they transition after deployment and the other when they 
transition after enlistment obligations.
    I will reference three significant sections of the Federal 
Regulations for USERRA, 20 CFR, Part 1002, that pertains to 
today's hearing regarding the transition of servicemembers.
    The first section 1002.198. What efforts must the employer 
make to help the employee become qualified for their re-
employment position? The employee must be qualified for the re-
employment position. The employer must make reasonable efforts 
to help the employee become qualified to perform the duties of 
this position. These efforts include providing refresher 
training and any training necessary to update a returning 
employee's skills in situations where the employee is no longer 
qualified due to technological advances.
    The second section I will cite is Section 1002.225. Is the 
employee entitled to any specific re-employment benefits if he 
or she has a disability that was incurred in or aggravated 
during the period of service?
    A disabled servicemember is entitled to the escalator 
position he or she would have obtained but for uniformed 
service. If the employee has a disability incurred in or 
aggravated during the period of service, the employer must make 
reasonable efforts to accommodate that disability and to help 
the employee become qualified to perform the duties.
    If the employee is not qualified for re-employment in the 
escalator position because of a disability, then a reasonable 
effort by the employer to accommodate the disability and to 
help the employee to become qualified, the employee must be re-
employed in, A, a position that is equivalent in seniority, 
status, and pay to the escalated position or, B, a position 
that is the nearest approximation to the equivalent position 
consistent with the circumstances of the employee's case. A 
position that is the nearest approximation to the equivalent 
position may be a higher or lower position, depending on 
circumstances.
    The last section being referenced is 1002.226. If the 
employee has a disability that was incurred or aggravated 
during the period of service, what evidence must the employer 
make to help him or her become qualified for the re-employment 
position?
    USERRA, A, requires that the employee be qualified for re-
employment, regardless of any disability. The employer must 
make reasonable effort to help the employee to become qualified 
to perform the duties of his position. The employer is not 
required to re-employ the employee if, after reasonable efforts 
by the employer, the employee does not qualify for re-
employment positions or, B, qualified has the same meaning here 
as it is in 1002.198, the first section I referenced.
    South Dakota ESGR has 16 trained ombudsmen throughout the 
State. These ombudsmen respond to inquiries and conflicts 
regarding USERRA presented by any employees or employers. Since 
October 1, 2007, South Dakota ombudsmen have fielded 116 
information cases only and mediated 14 USERRA cases. South 
Dakota has not had a USERRA case go to the United States 
Department of Labor for the past 18 months.
    I hope this has been able to clarify the role played by the 
South Dakota ESGR in helping employers and servicemembers 
transition from military service to civilian employment.
    Thank you.
    [The prepared statement of Mr. Keplin appears on p. 80.]
    Ms. Herseth Sandlin. Thank you for your testimony. Mr. 
Fillman, thank you for being here. We look forward to your 
testimony. You are now recognized.

              STATEMENT OF WILLIAM D. FILLMAN, JR.

    Mr. Fillman. Thank you, Madam Chair. Madam Chairwoman 
Herseth Sandlin and Ranking Member Boozman and Members of the 
Subcommittee, I appreciate the opportunity to appear before you 
today to discuss the Department of Veterans Affairs Transition 
Assistance Program and local outreach efforts to support 
separating servicemembers and their families during the 
transition from military to civilian life. With me today is Mr. 
John Smith, Director of the Dakota Regional Office.
    The Transition Assistance Program is a joint effort of the 
VA, the Department of Defense, and the Department of Labor. TAP 
briefings are conducted nationwide and in Europe to prepare 
retiring or separating military personnel for return to 
civilian life. Members of the National Guard and Reserves may 
also elect to attend TAP.
    At these briefings, servicemembers are informed of the 
array of VA benefits and services available, instructed on how 
to complete VA application forms, and advised on what evidence 
is needed to support their claims.
    Following the general instruction segment, personal 
interviews are conducted with those servicemembers who would 
like assistance in preparing and submitting their applications 
for compensation and/or vocational rehabilitation and 
employment benefits. Additionally, servicemembers receive 
employment assistance, to include resume writing, skills 
marketing, job referral, and other transitional services.
    In fiscal year 2007, the VA conducted 3,778 TAP briefings 
with 164,853 participants. As of June 30th of this year, we 
have conducted 3,083 TAP briefings for 128,600 participants. 
The participants included 111,113 active-duty members, 14,805 
members of the Guard and Reserve, and 2,682 family members.
    The Sioux Falls VA Regional Office actively supports the 
commitment to provide a seamless transition for retiring 
military members. In fiscal year 2007, the office conducted 16 
TAP briefings for 467 participants. As of June 30th, the office 
has conducted 11 TAP briefings for 242 participants. The 
participants included 231 active-duty members, 6 members of the 
Guard and Reserve, and 5 family members.
    The Sioux Falls Regional Office is working diligently to 
ensure members of the Guard and Reserve understand the VA 
benefits to which they may be entitled. In addition to TAP, the 
office has completed six outreach events for the Army National 
Guard and for the South Dakota Air National Guard since October 
of 2006. These events provided benefit information to 517 
members of the Guard.
    Madam Chairwoman, we at the VA are proud of our continuing 
role in serving this Nation's veterans. We continually evaluate 
and seek opportunities to improve the quality and the scope of 
our outreach efforts to members of the military and their 
families.
    I hope that my testimony today has provided you and the 
Subcommittee with a better understanding of the Transition 
Assistance Program. Thank you for the opportunity to appear 
before you today.
    This concludes my testimony. Mr. Smith and I will be 
pleased to answer any questions from Members of the 
Subcommittee.
    [The prepared statement of Mr. Fillman appears on p. 81.]
    Ms. Herseth Sandlin. Thank you, Mr. Fillman. I'll start 
with a question for you, based on some conversations I had 
during our short break, on the need to coordinate even more 
effectively in South Dakota.
    You do a very good job among agencies, and in coordination 
and partnership but to get more part-time Guard and Reserve 
into TAP. So the figures that you just mentioned in your 
testimony, since June of 2008 in South Dakota, the office has 
conducted 11 TAP briefings for 242 participants in which six 
were members of the Guard and Reserve and five family members. 
Is this an average number of Guard, Reserve, and family members 
that participate in TAP on a monthly basis?
    Mr. Fillman. I think I would have to ask John to answer 
that question.
    Mr. Smith. I would say that that represents an average of 
those. What we try to do when we have our scheduled TAP 
briefings at Ellsworth Air Force Base, we schedule it around 
them. If we have Guard units or Reserve units that are seeking 
assistance on one of their weekend drills, we do send a member 
from our office there to do some transitional briefings and 
also about what the VA can offer.
    As far as the statistics that you see, they are pretty 
accurate.
    Ms. Herseth Sandlin. That number seems low to me. What kind 
of outreach is your office doing? Are you taking any steps to 
increase the participation of Guard and Reserve beyond just 
sending a representative to a weekend drill versus maybe 
stronger partnership with General Doohen, with some of the 
other agencies that can be more active in encouraging part-time 
Guard and Reserve participation? Especially because there may 
be a desire for a career change after deployment. There may not 
be, but there very well may be.
    Any comments there?
    Mr. Smith. Well, I would say that participation at this 
point is an individual choice; and anybody that needs 
assistance, we will be there.
    Now, I can tell you, a member of my staff was in the Naval 
Reserve; and he recognized the need to establish more of an 
outreach for benefit information at the VA office. He put 
together a package during one of his weekend drills after we 
sent it to him, and it was well received. Similar type of 
events we would welcome, but we would need to have some 
participation.
    I was listening through testimony today where they're 
looking at mandatory TAP attendance; and I would say, from my 
perspective, it takes the same amount of energy and resources 
to talk about VA benefits to 5 people as it does to 50 or 500. 
But the more people that you have in attendance, the more 
efficient the programs become, the more they can understand and 
become aware. We're not going to teach in a very small period 
of time what all the VA does, but just so they're aware that 
there's a point of contact.
    Ms. Herseth Sandlin. I don't see her here, and I wish I 
would have asked her this question when she was on the prior 
panel, but Ms. Machetta said that there is room for more 
National Guard. Oh, is she still here? There she is. I just 
want that concern for the record.
    Ms. Machetta. Absolutely.
    Ms. Herseth Sandlin. So we're going to have you come down 
here, perhaps? Do you mind if we have Ms. Machetta come back 
down?
    If there is room for more part-time Guards to participate? 
If there is a flexibility to provide those, not just at 
Ellsworth, but perhaps in Sioux Falls, I would think this is 
something, like you said, it increases the efficiency of the 
program.
    Mr. Fillman, you have a comment?
    Mr. Fillman. Yes, ma'am. This is not unique to South 
Dakota. This is a problem nationwide. When the Guard Reserve 
come back and they transition back from military service, as 
you heard earlier, they're ready to go home. They don't want to 
stay for the TAP briefings.
    In the Guards, that presents a unique problem, because 
they're out in the various communities. And so we try to work 
with the Adjunct General's office in each State to make sure 
they're aware that we will provide service wherever--whenever 
it is requested, and if they would have a meeting on a weekend 
or would like us to bring a lobbyist over there, we would be 
very happy to do that.
    Ms. Herseth Sandlin. I appreciate that, Mr. Fillman.
    Ms. Machetta, do you want to make a statement on the 
official record?
    Ms. Machetta. Yes. We put a lot of our Web sites--all of 
our information out on a Web site that is worldwide now. People 
can reach that. Having spent 8 years in the Guard in the 
beginning of my career, I've always felt that that was really 
important.
    We have room for at least 10 to 15 part-time Guard members 
and their spouses to come every month. Some months there's even 
room for more. And we can afford the opportunity to maybe have 
some TDYs, if necessary. We can work out funding for that if 
that would be helpful to maybe provide one in Pierre once in a 
while, one in South Dakota, maybe over in Sioux Falls.
    If we put our heads together, I'm sure there are ways to 
reach it. But the big thing is the people have to know the 
benefits are out there, some of it, or there's no reason to 
ever increase it. So the word of mouth is really a critical 
part, and then from there I think we can take care of it. Even 
just training our folks from the same, you know, sister 
agencies. It doesn't have to be me. It doesn't have to be any 
one of us teaching it. We just have to have good quality of 
information to get out.
    Ms. Herseth Sandlin. I appreciate that.
    Mr. Boozman, did you have any questions for the panel?
    Mr. Boozman. Thank you, Madam Chair.
    Mr. McWilliam, I appreciate--we've been working on this now 
for several years, and I really do appreciate your working hard 
to try and increase the numbers in the Transition Assistance 
Program. I know you've worked really hard at doing that.
    You mentioned that we have 60-percent active, but the goal 
is 80 percent. I think the Marines is mandatory, and yet, 
theirs is not anywhere near a hundred percent.
    I guess my question is, where do we go from here? You know, 
we've--one of the major things that we've overcome that came up 
a few years ago was the retention thing. The military was very 
concerned that if you told them about civilian benefits, they 
were going to leave.
    And yet what we're finding, Mike was saying that, in the 
Navy, they found a 30-percent retention rate once they went out 
and they were comparing what they had in the military versus 
when they got out, not realizing because they hadn't heard of 
those benefits since they were recruited.
    I guess, like I said, my questions are: Where do we go from 
here? What do we need to do? What help can we give you to push 
it forward? Is it just the fact that we're at war and stretched 
thin or is it--where do you see kind of the underlying 
structural things? It seems like everybody has bought into this 
now, but why aren't we getting it done?
    Mr. McWilliam. Mr. Boozman, as you mentioned, there has 
been an agreement with the Department of Defense to reach a 
goal of 85 percent that has been briefed at the highest levels 
within DoD. The service secretaries or the service chiefs have 
all had to present a plan to the Deputy Secretary of Defense on 
how they will achieve that record, that number, and they are 
moving toward that.
    There is a Department of Defense memorandum that says once 
a servicemember elects to attend TAP, they have to be allowed 
to attend. So that's very positive. That's been out for over a 
year.
    I think, for the Reservists, the Yellow Ribbon 
Reintegration Program is very good. It has the mandatory 30-, 
60-, and 90-day unit assemblies; and TAP employment workshops 
are specifically mentioned as one of the services to be 
provided.
    I think the Department of Defense is working very hard on 
moving this forward; and I think it just takes a while, as you 
mentioned, to achieve the numbers.
    Mr. Boozman. At the 85 percent level, do you have the staff 
to do that? I mean, do you all have to ramp up somewhat, you 
know, to get those kind of numbers done compared to 60 percent 
that you're doing now?
    Mr. McWilliam. Yes. Mr. Boozman, we are not interested in 
just doubling the class size. That's too many participants in 
the class. We have in the President's budget for 2009 included 
an increase specifically for TAP, which will allow us to 
support that higher figure.
    Mr. Boozman. Very good.
    Mr. Fillman, how does the VA know where to send the VA 
discharge packets?
    Mr. Fillman. They would come off the address from the DD-
214s, I believe, sir, which is the discharge, and we would send 
those on out.
    Mr. Boozman. Is that a problem finding that and getting 
that done?
    Mr. Fillman. It would all depend, I believe, on the address 
that's listed on the DD-214. If it's a current address, they 
should be able to receive it.
    Mr. Boozman. How many members have been processed through 
the BDD program?
    Mr. Fillman. Sir, I'm not positive of the number. I think 
they have approximately 125 cases working their way through. 
There's only been, I believe, two that have completed the 
process. I'm not exactly sure on that because I haven't had a 
current briefing on that.
    Mr. Boozman. Tell us--tell me what's going on with the call 
center. How is it--the new call center in Muskogee, how is that 
going?
    Mr. Fillman. The National Education Call Center in 
Muskogee, we got that implemented back in February. We were 
going to phase that in between February and July. We were able 
to move much quicker than that and had it totally implemented 
by the end of April. It's working real well, I'm proud to say.
    The problem in education was we were not communicating--we 
didn't have an effective communication system with the phones. 
The lost call rate varied from--the best for RPO was about 10 
percent, and the worst was about 25 percent. That's people who 
would hang up before they talked to a counselor. And the 
blocked call rate varied from, again, 10 percent to about 30 
percent on calls not even able to get into the RPO they were 
trying to call.
    I'm proud to say that, with the advent of the National Call 
Center for Education, the lost call rate is less than three 
percent, and there is a blocked call rate of zero percent, so 
everyone is able to get in. So it's working real well. We're 
very, very proud of that.
    Mr. Boozman. Very good.
    Mr. Smith, does the staff in North Dakota Regional Office 
process BDD claims? And, if so, what's the process of that?
    Mr. Smith. On the BDD claims, we don't currently process 
any. Those that are on the pre-discharge exams, the claims that 
we get, we are running about 3 months, about 90 days on average 
to process those.
    The members that are separating from active duty that have 
gone through the TAP program and are applying for benefits 
would be the types that can apply within 6 months to us for 
benefits. What we are finding is that they wait until about 2 
to 3 weeks before their discharge and then give us their 
application at that time. If we had it sooner than before their 
discharge date--and, again, we mean 6 months--that would allow 
us some additional time to go through the process of that. We 
are obligated to approve his service notes that are done.
    That is our number one delay in processing our claims, is 
getting the military treatment records. Of everything that I've 
done, that's been our biggest delay.
    And from what I've heard here, they're not getting their 
DD-214 at the time of discharge. That, again, will delay our 
processes, because we need to have certain proof to show that 
they are now discharged from active duty.
    But right now, South Dakota, on the total claims, we are 
running about 93 days on the average. And it's almost the 
leader in the Nation. It's number two in the Nation. That's 
basically the service we're giving for our discharged members. 
We can improve our service if we can have better access to the 
military records.
    Mr. Boozman. Thank you, Madam Chair.
    Again, thank you, all of you all, for your service, working 
hard for veterans, and we really do appreciate the job that 
you're doing and hopefully can continue to help you.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I have a couple of questions.
    Mr. McWilliam, you stated that in fiscal year 2007 almost 
146,000 separating military personnel and spouses were trained 
in 4,715 TAPs worldwide. Is that active duty only?
    Mr. McWilliam. The majority of that is active duty only, 
yes, ma'am. There are some Reservists who attend those 
workshops. I don't have the number in front of me, but it's a 
very small number.
    Ms. Herseth Sandlin. Could you follow up with us and get us 
the actual breakdown?
    Mr. McWilliam. Certainly.
    [The information appears in the post-hearing questions and 
responses for the record, which appears on p. 86.]
    Ms. Herseth Sandlin. Can you tell us how many 
servicemembers separated in fiscal year 2007?
    Mr. McWilliam. It's approximately 200,000, ma'am, but I'd 
have to ask DoD to get that back to you.
    Ms. Herseth Sandlin. Okay. Do you have any numbers specific 
to South Dakota, or can you give that to us as well?
    Mr. McWilliam. Yes, ma'am.
    Ms. Herseth Sandlin. Both for separation and Reservists?
    Mr. McWilliam. Yes, ma'am.
    [The information appears in the post-hearing questions and 
responses for the record, which appears on p. 86.]
    Ms. Herseth Sandlin. On the veterans' employment workshop 
that you mentioned, I think this is a great service, but I was 
wondering if you could identify what you think is the major 
reason that servicemembers and their families opt not to 
participate.
    Mr. McWilliam. Ma'am, I believe--and this is very 
anecdotal, based on trips that my Assistant Secretary and I 
have made to military installations. It was mentioned earlier 
the operational tempo of the military is very high right now. I 
think many people come back, especially from deployment and 
active duty, and they have one interest and that's to leave the 
service and to get out as quickly as they can, and that's what 
they do.
    Ms. Herseth Sandlin. A final question for you, Mr. 
McWilliam. You've mentioned that spouses have also received 
employment and job training assistance. Are families generally 
informed that these programs are available to them; and if so, 
how?
    Mr. McWilliam. Ma'am, spouses are eligible to attend the 
employment workshops. Approximately 3,100 have over the last 
year.
    Ms. Herseth Sandlin. How are they informed?
    Mr. McWilliam. I don't know, ma'am. I would assume they are 
through the Department of Defense and through the publicity for 
the TAP employment workshop, but I will ask the Department of 
Defense people and get back to you.
    Ms. Herseth Sandlin. Okay. It's too bad we can't ask them 
ourselves here today, but I appreciate that, Mr. McWilliam.
    Mr. Kelpin. Okay, so there are 16 trained ombudsmen here in 
South Dakota. Correct? That's just here in South Dakota.
    Mr. Kelpin. Yes, ma'am. We have 16 trained in the State of 
South Dakota.
    Ms. Herseth Sandlin. I think you said that there were 116 
information request filings and 14 cases, but no cases had been 
sent on in 18 months, that those were fielded and mediated by 
the ombudsmen.
    Mr. Kelpin. That is correct.
    Ms. Herseth Sandlin. Understanding the privacy concerns 
here, as it relates to employment and their rights, can you 
tell us generally for the Subcommittee's edification, have you 
seen any trends identified in those information cases? Was it 
just generally an employer not being as familiar as they might 
otherwise be with USERRA rights? Anything related to the 
disability in combination that you mentioned specific to PTSD? 
Can you offer the Subcommittee anything, as to what the 
outcomes might have been of some of those cases that were 
fielded and mediated?
    Mr. Kelpin. The breakdown of fiscal year 2007 issues that 
our ombudsmen dealt with: We had five retirements. We ended up 
with seven seniority or status type positions, six termination 
for vacation, six dealt with benefits, and one was over 
promotions.
    Ms. Herseth Sandlin. Okay. But those were all mediated over 
the last 18 months.
    Mr. Kelpin. That is correct, successfully.
    Ms. Herseth Sandlin. Very good.
    One last question for you, Mr. Fillman. It's helpful to 
hear that the VA and DoD are working together to ensure wider 
dissemination of information with regard to the array of 
benefits and services offered. One of the things that we 
learned in Indiana, at a field hearing there, is that--when we 
did have someone from DoD at that field hearing testifying--was 
some of the information that was being disseminated was only 
available to active-duty servicemembers. We had a spouse of a 
Reservist testifying firsthand of receiving no information, and 
the DoD witness acknowledged that that information about 
benefits wasn't distributed, it was almost like DoD didn't feel 
it was their responsibility to give it to National Guardsmen 
and women and Reservists.
    Can you share with us examples of the information that you 
are providing? I assume that this is going out to Guardsmen and 
women in terms of the information that the VA is sending out, 
understanding the issue of the delay and the questions Mr. 
Boozman posed about where you're sending it and that's the 
address put on the DD-214.
    Mr. Smith. Well, I don't know specifically how to answer 
that question, other than that, I do know that those that were 
activated when they are at the demobolization sites, there are 
people that are giving the TAP sessions, so they're aware of 
that.
    And, as I mentioned before, we are available to go out to 
the various Guard units, but I would offer that they do need 
improvement on more information as to what is available, so I 
would offer any additional resources or invitations to them.
    Ms. Herseth Sandlin. I appreciate that, Mr. Smith. You and 
Mr. Fillman may be aware that we have a legislative hearing in 
the Subcommittee on a bill introduced by Congressman Dennis 
Cardoza that would actually authorize a compact disc with that 
information being disseminated to every servicemember following 
deployment. We are working with Mr. Cardoza to try to move that 
bill.
    While it has been identified by the Congressional Budget 
Office having costs associated with it, we think it's far worth 
whatever cost it is to be able to distribute and contact 
veterans with this benefit information for our military members 
and their families. We hope to be able to have some good news 
on that from this Congress early next Congress to facilitate 
the efforts of your office.
    Unless Mr. Boozman has any final questions? I want to thank 
all of you on this final panel as well for being here. The 
testimony you've offered and the insights that you've shared 
and your service to the Nation's veterans and in your 
respective capacities with the--working with the employers, 
working with the VA, and certainly with the Department of 
Labor, all of them do great work on behalf of our 
servicemembers.
    I also want to take a moment to thank, again, Mr. Boozman 
for traveling to South Dakota once again. We like having our 
Arkansans in South Dakota, especially during the summer, so you 
can take the good word back to get out of the humidity and come 
up to South Dakota during your summer vacations, to your 
constituents down there.
    I want to thank those here at Rapid City Central High 
School for accommodating us, those in the auditorium to work 
these field hearings, the Rapid City community for always being 
so open and receptive to anything that we're doing in our 
official capacity to help our servicemembers, and our veterans.
    And, of course, very strong words of appreciation for 
members of our Subcommittee staff who are here, who counsel us 
effectively, who help us prepare, who work during all of the 
preparation but also the important followup that we'll be 
pursuing and all of the logistics associated, again, with 
getting us out of Washington, DC, and out in the field to be 
with all of you.
    We thank all of the folks that are here from our offices, 
as well as the folks from the community, and those of you with 
the TAP programs who have traveled here as well, and also those 
who served on our panels. Thank you very much.
    The hearing now stands adjourned.
    [Whereupon, at 1:26 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    It is an honor and a privilege to be here with you in South Dakota. 
I would like to thank our servicemembers, their families and everyone 
here with us today. I would also like to thank the distinguished 
Ranking Member John Boozman, of Arkansas, for joining us here in Rapid 
City.
    Like other States across the country, South Dakota has seen many of 
its servicemembers activated in support of operations in Iraq and 
Afghanistan. Over two-thirds of the South Dakota Air National Guard's 
1,012 members have actively supported the Global War on Terrorism, 
since the September 11 attacks on America, either at home or abroad in 
15 countries. In addition, since the terrorist attacks on America, the 
South Dakota Army National Guard has mobilized more than 3,100 
soldiers. Also, 200 airmen and women from Ellsworth Air Force Base, 
which has been supporting missions in the Middle East since 9/11, and 
are currently preparing to deploy to Southwest Asia.
    Many of our brave service men and women in South Dakota are 
returning in need of healthcare, employment, housing, educational, and 
other services. They, like all our veterans across the country, deserve 
our best efforts in providing the resources to ensure a seamless 
transition from military service to civilian life.
    On June 19, 2006, the Subcommittee on Economic Opportunity, under 
the leadership of then Chairman Boozman, held a field hearing nearby at 
Ellsworth Air Force Base to discuss the Transition Assistance Program 
and the Montgomery GI Bill. During that hearing, some of our panelists 
suggested expanding evening classes or online resources to accommodate 
servicemembers and their spouses' working schedules. Others had brought 
up the prospect of making the program mandatory for separating 
servicemembers and expanding existing Montgomery G. I. Bill benefits.
    Today, we are gathered here again to reexamine the Transition 
Assistance Program and the progress we have made from two years ago. We 
will also have the opportunity to learn how the program is assisting 
our veterans in a seamless transition into employment and community 
life.
    As many of you know, the Transition Assistance Program was 
established to meet the needs of separating servicemembers during their 
period of readjustment into civilian life. The program offers job-
search assistance and related services such as workshops on resume 
writing, interview process, labor market overviews, personal appraisal, 
and VA benefits. The program seeks to provide veterans with the skills 
and services needed to transition into the workforce.
    During my time in office, I have had the opportunity to meet with 
many local government officials and veterans here in South Dakota. In 
addition, this Subcommittee has received many recommendations from 
government and military officials, veteran service organizations, and 
concerned citizens from across the country. I am glad to note that we 
succeeded in making progress for our servicemembers and veterans. 
Included in the final version of the National Defense Authorization Act 
of 2008, we were able to gain bipartisan support for language that 
would allow mobilized members of the Reserve Forces to use their 
Reserve Educational Assistance Program, also known as REAP, benefits 
for 10 years after they separated from the Guard or Reserve.
    Furthermore, we made great progress in passing the Post 9/11 
Veterans Educational Assistance Act that was recently enacted into law. 
This Act will enable most veterans to attend a public four-year school 
and provide a housing stipend based on the veteran's zip-code. The new 
program will also help pay for the cost of books and other expenses 
associated with attending school. Many of their dependents will also be 
eligible to receive these benefits if the servicemember meets certain 
enlistment requirements. While this progress is long overdue, we must 
remain committed to reviewing all benefits to help meet the needs of 
our servicemembers and veterans.
    We are glad to see some of our panelists here today who were with 
us two years ago. We hope to hear more from all our panelists with 
regards to how the Transition Assistance Program can better serve our 
veterans.
    I look forward to working with Ranking Member Boozman and other 
Members of this Subcommittee to ensure that our servicemembers and 
veterans are provided proper benefits to help them succeed in life 
after the military. The men and women who serve our Nation honorably 
deserve and should receive the best our country can offer.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member,
                  Subcommittee on Economic Opportunity
    Good afternoon Madam Chairwoman.
    I believe we were here about 2 years ago and I remember the warm 
hospitality extended to me by the citizens of South Dakota and I 
greatly appreciate that.
    I would like to announce that your Congresswoman did such a good 
job as my Ranking Member during the 109th Congress that I thought she 
should get a chance to be the Chairwoman during the 110th Congress. I 
need to start negotiating with her to get my old job back.
    We are here to hear from South Dakotans about their experiences 
with the Transition Assistance Program or TAP. TAP is designed to 
provide servicemembers with the basic skills and knowledge to reenter 
the civilian world. As such, TAP appears to have mixed results.
    It is a success because the information being put out touches a 
wide variety of topics of importance to those leaving military service. 
Unfortunately, a significant portion of servicemembers either choose 
not to attend or are not allowed to attend TAP training.
    According to a July 17, 2008 audit by the VA Inspector General 
titled Veterans Benefits Administration Transition Assistance for 
Operations Enduring and Iraqi Freedom servicemembers and veterans, in 
2006 and 2007, only 43 percent and 47 percent of OEF/OIF servicemembers 
participated in TAP, falling short of VBA's goal of 53 percent. Clearly 
VBA needs to do a much better job in reaching out to veterans.
    I am also very disturbed that the same Inspector General report 
shows that the highly touted Benefits Delivery at Discharge or BDD 
program is not meeting its goal to process benefit claims for severely 
wounded OEF/OIF veterans within 30 days. The IG noted that of the 
nearly 5,000 claims received by Regional Offices, only 24 percent were 
processed within 30 days. The other 76 percent of claims averaged 114 
days with some taking as long as 504 days.
    Madam Chairwoman, while oversight of the basic claims processing 
system falls outside of our Subcommittee, its performance certainly 
delays a disabled veteran's ability to access programs within our 
jurisdiction such as vocational rehabilitation benefits and specially 
adapted housing benefits. These two programs alone are essential to a 
smooth transition to civilian life for disabled veterans.
    With most locations providing TAP over a two and a half day period, 
members are literally deluged with information and if they don't pay 
attention, they will likely miss something important.
    Members of the National Guard and Reserves pose a special challenge 
because of the dispersed nature of their duty stations. In my mind, we 
need to do a better job preparing members of the Guard and Reserves, 
especially those who own businesses, prior to deployment. When those 
members return, we need to ensure they have full access to all benefits 
and programs for which they are eligible.
    Finally, many of those leaving military service will enter school 
or training programs under the GI Bill. I'm sure that most 
servicemembers are aware that Congress passed and the President signed 
into law a new, much more generous GI Bill education and training 
benefit. I want to recognize your efforts to improve education benefits 
by introducing and passing H.R. 5684, a greatly improved education 
benefit that I believe was superior in many ways to the new GI Bill 
program now signed into law. It did not make the final cut, but it was 
a great bill.
    Madam Chairwoman, you have brought us an excellent group of 
witnesses, even a husband a wife team and I am eager to hear from them.

                                 <F-dash>
        Prepared Statement of Yvette S. Lassegard Rapid City, SD
                           (Veteran's Spouse)
    Thank you, Chairwoman Herseth Sandlin and other committee members 
for the opportunity to speak with you about my experiences with 
transition. My name is Yvette Lassegard. My husband Ole is a sergeant 
for the 235th Military Police Company in the South Dakota Army National 
Guard. We have one son Aric, he is 6 years old.
    Ole is a war veteran, having served twice in support of Iraqi 
Freedom. His first deployment was a stateside mission at Ft. Carson 
Colorado from February 2003 to January 2004, and most recently he 
served in Afghanistan from October 2006 to January 2008 (12 months in 
country 3 months training).
    I served as the Lead-Volunteer for the Family Readiness Group of 
our unit during both deployments and through the down time in between. 
This job was not always very easy, but it will be an experience I will 
carry with me for a lifetime.
    During the first deployment, our soldiers were stateside, which 
even though they were on home ground and it was not as stressful in the 
sense of the constant danger, it was no easier than their deployment 
overseas. They still were not (home). The transition back into our 
family and civilian lives I think went pretty smoothly at a personal 
level. However, even though these soldiers were considered veterans, 
after this deployment, I don't think they always were treated as 
veterans by society. They heard a lot of ``Oh you were only stateside, 
that's not so bad.'' It was no different in most ways, they were still 
away from their families, civilian jobs, homes and they were treated as 
``deployed soldiers'' by the military. These soldiers did have many of 
the same sacrifices, even though some people did not understand that.
    When our unit was activated to go to Afghanistan about two years 
later, it was very different. The stress level was higher, they were in 
a war zone, again away from families, jobs, and home, but there was 
more support from the public. People were more accepting of this ``real 
deployment.'' When they came home this time they were treated like 
veterans, even though most of them already were veterans before they 
were in foreign soil. Transition this time, I think has been different; 
we both have become stronger and a little more independent in our time 
apart. Different things are more important to us, the most important 
being each other and our son. This time I worry about things like PTSD, 
and what other things Ole might be experiencing but, I do know that I 
felt more prepared to help with what he may need.
    I think that our State does a wonderful job with helping the 
families and the soldiers both during deployments and transitions back 
into civilian life. Our State Family Assistance Center offers amazing 
support and information. They worked with me and the rest of the Family 
Readiness Group to help keep the families across our State informed 
about what was going on with their soldiers during deployment as well 
as help them prepare for the returning soldiers. The programs that are 
offered are outstanding, Military OneSource, Troop and Family 
Counseling, the TRICARE benefits, and the benefits that the VA offers. 
I think that continued education for both the families as well as the 
soldiers about these programs is very important, especially after a 
deployment. I also think that trying to continue to educate the public 
is important. When a National Guard unit is deployed it affects 
everyone in the community, not only do loved ones leave, but employees, 
employers, community volunteers, and friends. These deployments bring 
back changed soldiers, whether it is a stateside mission or an overseas 
mission if more people are aware of the effects deployments can have as 
a whole, I think that transitions would be easier for everyone 
especially the soldiers.
    Thank you for your time.

                                 <F-dash>
        Prepared Statement of Sergeant Ole D. Lassegard, USANG,
                 Member, 235th Military Police Company,
                    South Dakota Army National Guard
    Thank you, Chairwoman Herseth Sandlin and other committee members 
for the opportunity to speak with you. My name is Ole Lassegard I am a 
sergeant with the 235th Military Police Company in the South Dakota 
Army National Guard. My wife Yvette and I have one son Aric, he is six.
    I joined the Army National Guard in September 1993 in order to pay 
for college. I will have completed 15 years of service in September of 
this year, and will have 19 and a half years of service when my current 
enlistment is finished. I do plan to serve twenty or more years.
    During my 14 years of service I have been on State duty for 1 fire 
in the Black Hills (Jasper), helped with snow and power pole removal 
near Watertown South Dakota after a major blizzard, and did security 
detail at Camp Rapid after 9/11. I have also serviced on active duty 
orders twice.
    My first deployment was a stateside mission in Ft. Carson Colorado 
from February 2003 to January 2004. During this deployment we conducted 
law and order missions while the active duty Military Police from Ft. 
Carson went overseas.
    My second deployment was an overseas mission to Afghanistan from 
October 2006 to February 2008. During this deployment my unit conducted 
missions that consisted of detainee Ops (enemy prisoner of war), convoy 
security, law and order on some of the smaller forward observation 
bases (F.O.B.'s), customs missions on several smaller outlying 
F.O.B.'s, and village assessments.
    Being away from my family was not easy either time. During my time 
in Ft. Carson it was very frustrating to be so close to home, but not 
be at home. My integration back into my family life and my civilian job 
was fairly smooth. While deployed to Afghanistan, things were 
different. I was half way around the world from my family and home. 
Being in a war zone was very stressful. This time when I came home, 
integration back into my civilian life has been a little different. 
Yvette and I have both become stronger more independent people. My son 
Aric had finished preschool and was almost done with kindergarten and 
had grown up so much. The most important part of our lives now, is our 
time together as a family. My transition back to my civilian job has 
gone good without any major problems.
    Our demobilization was at Ft. Carson Colorado. The out processing 
including briefings/debriefings were long and drawn out. We felt that 
some of it could have been completed at our home station Camp Rapid so 
we could have been with our families after having been gone for more 
than a year. Once I was home, I was able to get into the VA at Ft. 
Meade for a dental appointment within a week. However my post 
deployment medical check up before going back to work was not as easy. 
I was told at first I should get an appointment in 30 days. This did 
not happen. I was told several different times that they were ``full'' 
and I would have to wait. When checking back in with them I was getting 
several different stories, depending on whom I would talk to. Things 
were finally straightened out and I was able to get the appointments I 
needed. It was very frustrating for me to have had to deal with this, 
but in all the VA has been a nice benefit in which I will continue to 
use as needed.
    Thank you for your time.

                                 <F-dash>
       Prepared Statement of Master Sergeant Roxanne Krebs, USAF,
                      Ellsworth Air Force Base, SD
    Madam Chairwoman and distinguished members of the Subcommittee, 
thank you for the opportunity to present my experience with the 
Transition Assistance Program or TAP.
    I have been in the Air Force for 21 years and will be retiring at 
the end of this year. Since the Air Force has been my only career since 
the age of 18, I've never had the opportunity to gain the experience my 
civilian counterparts have with conducting a job search, preparing a 
resume or holding a job interview. Although my military career has 
allowed me to grow and develop into a leader who will be successful in 
any job I hold, the TAP workshop provided me with the fine tuning I 
needed to effectively market myself to a potential civilian employer.
    Over the past few years I had numerous friends who went to TAP 
workshops here at Ellsworth Air Force Base and overseas at Osan Air 
Base in the Republic of Korea and every one of them couldn't say enough 
about the program. Although I had heard wonderful things about TAP over 
the past few years, I kept putting it off because something would come 
up. Finally in May of this year I realized I needed to figure out how I 
was going to start searching for a job after retirement, so I finally 
signed up for the 3-day June workshop through the Ellsworth Air Force 
Base Airmen and Family Readiness Center. This was the best decision of 
my career. Now I can't stop talking about the workshop to everyone I 
know who is separating or even thinking about retiring.
    During the TAP workshop, we not only learned how to write a resume, 
conduct ourselves during a job interview, and what veterans programs 
and benefits are available, but we were also provided opportunities to 
speak with real civilian employers. The employers provided us 
opportunities to discuss with them what they are looking for in 
potential employees, how they view resumes and their tips on conducting 
an interview. Once they finished briefing the whole group, we were 
provided one-on-one opportunities to meet with the employers for 
further individualized feedback. One final aspect I really appreciated 
was the volume of reference materials we were provided. From Web sites 
to magazines to books all covering different aspects of the job search. 
One of the most priceless reference Web sites showed me how to convert 
military terminology into the equivalent civilian terminology which 
allows my resume to be competitive.
    Some people would argue why offer a career workshop which costs 
time and money the Department of Defense doesn't have when an 
individual could just go to a local college and pay for a similar 
class. I would argue that a local college can't provide a class 
designed to meet the unique and specific needs of our military culture. 
Only a program created for and run by both veterans and the military 
can meet the unique needs of transitioning military personnel. I truly 
believe this was one of the most comprehensive and informative 
workshops I have ever taken throughout my life and believe it will 
continue to help make a big difference in the lives of all military 
personnel. Thank you again for allowing me the opportunity to present 
my experience with the Transition Assistance Program.

                                 <F-dash>
    Prepared Statement of Mark Koopman, Servicemember, Ellsworth Air
     Force Base, SD (Recent Transition Assistance Program Attendee)
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, on behalf of the Transition Assistance Program 
attendees and instructors for several governmental agencies, I would 
like to thank you for the opportunity to present information concerning 
my experience with the Transition Assistance Program and give you three 
reasons why I support it.
    After being out of the civilian workforce for 20 plus years, day 
one of TAP gave me a wealth of knowledge on getting back ``in the 
game.'' I no longer felt like an outsider looking in. Granted, I 
experienced ``information overload'' but now felt like I had been given 
the competitive edge that I needed for my job search, with access to 
tools such as Web sites, job search, personal appraisal information, 
financial guidance, etc.
    Day two of TAP was even more valuable. It consisted of teaching me 
how to fill out a job application, understand the five different types 
of resumes (chronological, functional, combination, federal and 
targeted), the importance of and know-how on completing cover letters, 
and finally, writing my own resume.
    Day three was equally important as it consisted of the interview 
process. They taught us basic elements such as preparation (know the 
company), and knowing the job description. As basic as this sounds, we 
needed to be reminded of this. Getting my ``30 second commercial'' 
done--having to sell myself! Finding out that there are so many types 
of interviews: phone, board, one-on-one, e-mail--and that I had to 
always be ready to interview. We discussed tough questions and how to 
handle them in interviews. I understood that I must be able show in the 
interview how I can contribute to this company--by increasing their 
profits or satisfying their need. Without the last half of the day to 
learn about personal veteran benefits, I know that I would not have 
been able to protect my family and best use the benefits that are 
available to me.
    In summary, I've explained why the three day TAP class has 
benefited me and why I believe it is invaluable to all veterans. Please 
continue to support it as I do.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, thank you for taking the time to hear about my 
experience with the Transition Assistance Program. This concludes my 
testimony. I would be happy to answer any questions you may have.

                                 <F-dash>
 Prepared Statement of Kimberly S. Geffre, Servicemember, Ellsworth Air
     Force Base, SD (Recent Transition Assistance Program Attendee)
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, thank you for the opportunity to present information 
concerning my experience with the Ellsworth Air Force Base's Transition 
Assistance Program and reasons why I support it.
    I am honored to have served my country over 19 years. In May 2007, 
I deployed to Iraq and shortly after my departure, my husband was 
relocated for a one-year assignment in Central America. I have had the 
opportunity to benefit from many of the services provided at Ellsworth 
Air Force Base including pre-deployment and post-deployment services 
and most recently the Transition Assistance Program.
    I have been out of the civilian workforce for almost 20 years, and 
was intimidated on the transition back into civilian life. This course 
provided me great insight into areas I should consider prior to 
separating. I was given information to assist me in job search, access 
to tools such as Web sites, personal appraisal information, financial 
guidance, etc. I only wish I would have attended earlier and had more 
time to get prepared.
    The training I received was very informative and presented in a 
logical format. Lessons included how to fill out job applications, 
understand different types of resumes, the importance of cover letters, 
and the instructors even provided assistance to me in drafting my own 
resume. I learned keys to job searching such as preparation (knowing 
the company), knowing the job description, and different types of 
interviews. The last day I learned about my veteran's benefits and 
specifically about programs I didn't know were available to me. Every 
military member should attend this class.
    There is one area of concern I have in applying for civil service 
following military service. Although benefits and preferences are 
available for veterans after separation, the hiring systems for civil 
service may not allow you to take advantage of veteran's preferences 
until you receive the final DD Form 214. In the past, a copy of this 
document was provided to the member during their last appointment to 
out-process. It is now mailed to the servicemember and can take more 
than a month from the date of separation. Many members who are retiring 
spend up to 60 days on terminal leave attempting to secure employment, 
and in some cases remain unemployed for as long as 3 months before they 
can take advantage of the VA preferences because they have not received 
the DD Form 214. Compounding this problem is the complicated hiring 
system. In my current position, I have worked through this difficult 
hiring process to hire a civilian employee and it took months. On 
USAJOBS.com, positions were listed that were not truly open (two other 
civilian positions in my office) and there were positions open for 
months that remained unfilled because someone in the reviewing process 
determined the applicant was unqualified. This process was very 
difficult for the unit waiting for the position to be filled, and 
frustrating for applicants who needed employment and had applied but 
did not receive feedback on why they were found to not be qualified. 
This hiring system needs significant work.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, I support your efforts to review and improve the 
Transition Assistance Programs offered throughout our Nation and hope 
that the information provided here today is of help to you. This 
concludes my testimony. I would be happy to answer any questions you 
may have.

                                 <F-dash>
         Prepared Statement of Major General Steven R. Doohen,
     Adjutant General, South Dakota National Guard, and Secretary,
        South Dakota Department of Military and Veterans Affairs
    Madam Chairwoman and members of the Subcommittee, thank you for the 
opportunity to speak to the issues regarding the care, treatment and 
benefits of our Soldiers, Airmen and families. Soldiers and Airmen of 
the South Dakota National Guard continue to answer the call on behalf 
of our Nation and State of South Dakota. As you know, the National 
Guard is a dual mission organization. We have a State mission 
supporting the Governor and our citizens in their time of need, 
responding to man-made and natural disasters of our state. Our other 
mission is the Federal mission of reinforcing the Army and Air Force 
and their missions all over the world. Since 9/11, the South Dakota 
National Guard has and continues to do a superb job answering the call, 
supporting our great nation. We currently have over 4,100 Soldiers and 
Airmen assigned. Fortunately we are over 100 percent of personnel 
assigned and constantly rank within the top five states relating to 
recruiting and retention. The South Dakota Army National Guard has 
deployed over 3,200 Soldiers which is over 94 percent of their 
personnel, while the South Dakota Air Guard has deployed over 900 
Airmen which is over 90 percent fighting against the global war on 
terror.
    These unprecedented deployments required us to change the way we 
take care of our Soldiers, Airmen, and families. Before our units 
deployed, my predecessor determined we should prepare ourselves for the 
return of these heroes and provide better assistance for their 
families. They held several mental health summits with the State's 
mental health professionals, Veteran's Administration officials, State 
Health officials, and the Veteran's service organization. These summits 
helped us organize a plan for the reunion and reintegration of our 
Soldier and Airman. We continue to enhance our programs providing the 
best possible services, recently we revised our Reintegration program.
    Reintegration and transition is a process rather then an event. We 
pave the road to reintegration even before the service members are 
deployed. We emphasize communications to family members and supply 
letter writing kits, morale purpose computers and free software for 
Internet audio-visual sessions.
    During the deployment, we continue building strong families through 
family readiness group activities and positive youth programs.
    The program is most popular for the pre-deployment efforts but 
these could not be successful without a robust program that also 
addresses pre-mobilization and mobilization involvement.
    We have an eight phases, Yellow Ribbon Reunion and Reintegration 
program.
    PHASE 1_Preparation for the returning servicemembers.
    Phase to occur eight to twelve weeks in advance of Service Member 
Return. Focus on providing awareness to families about expectations of 
the return.

      <bullet>  Send Families the Down Range to Iraq and Back Book or 
Courage After Fire Book 60-90 days prior to the returning unit. The 
book is accompanied with a letter encouraging the family to read and 
share with families both of the books which cover topics of Post 
Traumatic Stress Disorder, and Transitional issues such as returning to 
community, employment, parental and spousal roles. The books offer 
insight on dealing with the challenges of deployment as well as 
resources available upon return to assist in the reintegration process.
      <bullet>  Thirty to sixty days prior to the return of the 
deployed unit, a meeting for the awaiting Families is hosted by the 
Chaplain Team to discusses the emotional stages of reintegration. The 
focus of the meeting is to create awareness for all family dynamics; 
children, parents, significant others. The topics of discussion provide 
education and awareness of the signs and symptoms of PTSD.
      <bullet>  After the prior steps have been conducted (separate 
meeting) our Family Assistance Center provides entitlement and benefit 
information to the awaiting Families. The meeting is set up to provide 
an introduction of entitlements, resources and service agencies 
available to support our returning Veterans and Families. The following 
topics make up the agenda and the message is provided by the 
representative responsible for the service. The concept is truly 
surrounding ``community partnerships.''

        TRICARE--Health Care changes with reintegration
        Education--entitlements for Veterans both State and Federal
        Vet Center--services and resources available
        Family Assistance Center--``easy button'' easy access to 
        support and resources
        County Veteran Service Officer--the CVSO responsible for the 
        returning unit and overview of VA medical centers
        Employer Support--re-employment rights and contacts
        Troop & Family counseling service
        Military OneSource and community mental health clinics.

    PHASE 2_Preparing the Community for the return
    Reintegration extends beyond Families. The concept to offer 
training, awareness and support to our great South Dakota Communities 
building strength in our churches, employers and local businesses. WORK 
IN PROGRESS--working to identify solution and success.
    PHASE 3_WELCOME HOME_South Dakota READY
    Welcoming our returning Service Members home at the Demobilization 
Station. Sending South Dakota representation to greet and provide 
contacts to Service Members as they prepare to return to home station. 
Representation sent to de-mobilization site; County Veteran Service 
Officers, Chaplain, Family Readiness Staff, SD National Guard Medical 
Staff. Placing a name with a face.
    PHASE 4_Deactivation Ceremony
    The opportunity for South Dakota to reunite with returning Service 
Members through ceremony and local community events.
    PHASE 5_Outreach
    Thirty to forty-five days upon Service Member return a letter is 
sent to the Service Member and Family reminding of support available. 
The letter highlights services, resources and ``easy button'' options 
available. Enclosed with the letter handouts of Mental Wellness 
Offices, Strong Bonds advertisement and Family Assistance Center 
resources are included.
    PHASE 6_Wellness Call
    A phone call made to the Service Member thirty to sixty days from 
release of active duty. The purpose of the call is to touch base, 
ensure Service Member knows support is a phone call away and offer 
answers to any pending questions, concerns or issues.

    PHASE 7_Reunion Drill
    MANDATORY PARTICIPATION--First drill back Service Member required 
and Family (spouse and parents) invited/strongly encouraged. The drill 
is family oriented and takes place away from the armory and at a hotel. 
The drill is a paid drill and reimbursement is provided to cover 
mileage, hotel expenses and child care is available to maximize 
participation from families. This event is all about the Military 
Family. The agenda of the weekend is as follows:
    Friday--travel day and social event in the evening.
    Saturday--9 am start only one hour of presentation with 
introduction of all supporting offices and representatives.
    Service Members and Families are provided with a checklist that has 
the following listed:

        TRICARE
        Family Assistance Center
        VA Hospital
        County Veteran Service Officer
        Chaplain Office
        Vet Center
        Employer Support
        Education
        Counseling and Mental Health--Military Family Life Consultants
        Community mental health clinics
    After the introductions are complete Service Members with Family 
Members go to each one of the stations. The concept is to minimize 
Service Members from feeling uneasy about visiting with any one 
provider by requiring everyone to go to each station. This also allows 
for both the Service Member and his/her family to address questions and 
concerns direct to individual need. Breaking down intimidation barriers 
and ensuring everyone leaves with a great knowledge of available 
support and resources. Based upon the size of the event creates the 
number of representatives at each station. The goal would be for the 
Service Mmembers and Families to continue to move freely from station 
to station and not a weekend of wait.
    The only other group presentation is the mental wellness brief. 
Through the services of Military Life Consultants a Counselor(s) are 
brought in to have an interactive group session. The goal is to create 
a comfortable setting for open discussion about the transitions of 
deployment thus far and potential issues to come. Attempt to set up in 
a circle setting with counselor sitting within the group. Open 
discussions hopefully providing comfort in knowing ``you are not 
alone'' as well as creating an atmosphere to feel comfortable with 
sharing and communicating.
    The First Drill Back occurs sixty to ninety days upon return from 
deployment. Loads of great information is available about resources, 
benefits and support. The most important function of the event is to 
provide our Service Members with the opportunity to reunite in a stress 
free environment with fellow Service Members, and just as important 
Families having the same opportunity to reunite with one another.
    PHASE 8_Post Deployment Health Reassessment (PDHRA)
    Medical Screening done at second drill back. Testing on many 
different levels from physical issues caused by deployment to mental 
wellness issues caused by deployment. Atmosphere is focused on 
confidentiality and encouragement to speak freely about needs. Matters 
brought up are identified and Soldiers are referred to the Veterans 
Administration. Education on Post Traumatic Stress Disorder to 
recognize within self as well as others and seeking support to address 
matters.
    Prior to 9/11, the staffing of the South Dakota National Guard was 
either 1-2 people deep or non-existent concerning Veteran's Services to 
Service Members and Families. Since 9/11 and the multiple deployments 
of our Guardsmen we have created a Family Wellness Branch. This branch 
consists of: our Family Programs, Veteran's Transition Assistance, 
Chaplain, Funeral Honors, and Employer Support Guard/Reserve.
    The creation of the Wellness Branch was designed to assist Service 
Members, Families, and Employers during the entire period of service 
being performed by our Service member. This innovative approach to a 
combined effort lessened the administrative burdens on the traditional 
administrative personnel sections, and provides a unified focus for 
benefits and services for the Service Member and Family.
    I would be remised if I did not discuss a major issue facing our 
returning HEROES, post traumatic stress disorder (PTSD). Ever time I 
meet with Soldier, Airmen, and Veteran, I stress the important of 
obtaining help should you need assistance in regard to PTSD or any 
other reunion or reintegration issue. South Dakota is very fortunate 
that we have a wonderful Veteran Administration health care system and 
several Veterans Centers that provide outstanding service and support 
to our Veterans.
    We continue to work on the stigma our service members feel about 
obtaining the necessary mental health care they require. We are 
grateful that the Department of Defense's decision to change a question 
on the government security clearance form referencing an applicant's 
mental health history. ``Question 21'' on Standard Form 86 specifically 
asked applicants whether they ever received treatment for mental health 
issues. This is a big step toward removing the stigma relating to 
mental health care, since service members often feel they place their 
security clearance at risk should they seek mental health care.
    I thank you, key members of Congress, for providing the funding for 
programs such as the Yellow Ribbon Reintegration Program. Programs such 
as these that care for our soldiers and families prior to deployment, 
during deployments and long after their return from deployment is 
critical to their proper reintegration back into their civilian 
careers. As a nation we have come along way of taking care of those 
that are serving our country. I thank all of you for the support you 
have given to our Heroes that have volunteered to serve their State and 
Country. I thank you for the privilege and opportunity to be with you 
today. I am very proud to wear the uniform and serve in the ranks of 
these great young men and women.
    Madam Chairwoman, this concludes my testimony. Are there any 
questions?

                                 <F-dash>
 Prepared Statement of Susan Machetta, Community Readiness Consultant,
               Transition Assistance Program Coordinator,
      Ellsworth Air Force Base, SD, Transition Assistance Program
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, on behalf of the Transition Assistance Program 
attendees and instructors for several governmental agencies, I would 
like to thank you for the opportunity to present information concerning 
Ellsworth Air Force Base's Transition Assistance Program.
    Deciding to leave the service, whether through retirement or 
separation, is an incredibly personal decision and it is essential that 
we make this program available early in the member's decision-making 
process. For the program to do what it is intended to do, ease the 
transition to civilian life as well as ensure that the member is making 
a fully considered choice as to his or her career path, it is often 
needed two to three years prior to making the final decision. If the 
decision only involved where to work and what to wear, transition would 
be easy. But when you consider the financial and emotional aspects of 
this decision for the member and his or her family, how and where to 
settle, how to make best use of educational opportunities, how to best 
use the skills gained while in our service, and most importantly, how 
and when to access their benefits, this is a decision that should not 
be made in the last weeks or months of service.
    Each quarter, we have increased attendance at the Transition 
Assistance Program (TAP) classes and we feel this is due to the quality 
of service and the flexibility with which we provide our services. A 
strong cohesive team built with our Airman and Family Readiness Center, 
Ellsworth's senior leadership and all of the partner agencies from the 
Department of Labor and Department of Veterans' Affairs help to 
solidify and strengthen our program. When we asked that commander's 
attention be given to the needs of the service members and that they be 
allowed to attend early in the decision process (up to 3 years before 
actual separation or retirement), our commanders and first sergeants 
concurred and are now, where possible, allowing members to attend early 
to begin planning. Members are highly encouraged to bring spouses to 
the class and we are seeing an increase in spouse attendance. Having 
two sets of ears to capture all of the information provided greatly 
eases family stress--and ensures the spouse knows of the benefits 
available to them as well.
    We encourage members to come back for refresher training and take 
advantage of just-in-time assistance with portions of the class as they 
reach the final stage of their career. Flexibility has been a must to 
make this happen. They may only need a private visit or an hour or two 
of the class--but if they need it, we make sure they have access to it. 
We see a huge concern of members is whether or not they will be 
prepared for employment as they leave the service. One individual 
attending class last year discovered that by staying in for an 
additional tour of duty, he could add $11,000.00 in benefit to his GI 
bill and begin working on a doctorate by finishing up his master's 
degree while on active duty. In his case, attending the class was a 
valuable recruiting tool for the Air Force. Many others struggled with 
not knowing what they were qualified to do, or how to begin writing 
their resumes. To ease that burden, we provide over 100 open and valid 
job announcements from a variety of sources each and every month so 
they are working on solid employer needs as they craft their resume--
and they have, through our joined staff efforts, many individuals to 
assist with fine tuning their resume before the end of class.
    By attending the program early, they have a better understanding of 
what they will need, who can assist them, and immediate access to 
literally hundreds of employment and benefit Web sites and services. 
With attendance at the class taken care of, we have been able to assist 
many members from deployed locations with finalizing resumes, assisting 
them with search engines, preparing budgets that will actually work for 
them, ensuring insurance needs are taken care of, etc. Templates for 
cover letters, resumes, grammar tools, immediate access to detailed 
position descriptions, VA benefits--all are available through our local 
website--no matter who needs access or where they are located. When 
word got out at some of our deployed locations that Ellsworth members 
were able to work on resumes and benefits during down times, service 
members from sister agencies were able to immediately access the same 
information and receive assistance with editing or other needs. Members 
from other installations and services have specifically requested TDY 
orders to come from as far away as Oregon to attend our offering 
because of the personal service offered. An Air Force Reserve commander 
from Oregon recently brought his wife with him to a class as he knew he 
would be retiring near here in about six months. On the way back to 
Oregon from his TDY, he had a heart attack. His wife, who had stayed 
behind to assist family in the local area, found it tremendously 
helpful to have attended the program. She was able to assist him and 
his doctors in ensuring their lives would not be devastated by what had 
happened. He was able to finish his career and look into the benefits 
of regular or disability retirement and together, they made a decision 
that was right for them.
    We continually monitor statistics on attendance and quality of 
service provided. Our Department of Labor folks review all statistics 
as well and have quickly responded to our needs--adding four additional 
classes per year for the past two years so that we can confidently say 
we never turn away any veteran or spouse of a veteran wanting to 
attend. One of the most critical areas of statistics that I see is the 
need to ensure financial stability of the veteran and ensure they 
understand the difference between pay and entitlements while in the 
service and what will be received after separation. When first assuming 
responsibility for this program, I saw that three-quarters of our 
separating or retiring people were greatly concerned about their 
finances. Unfortunately, when we only saw them in the program during 
the last month or two of their careers, there was little we could do. 
Now that we have changed the emphasis on when to attend to at least one 
to three years before retirement, the member has time to fully 
comprehend what will be needed and make necessary adjustments. 
Individual assistance with debt load or assistance with planning can 
now be provided. The results are significant--members are seeking 
assistance early on and are much more aware of what they need. We see 
fewer people stressed over finances--and new attendees to the class are 
often indicating they are attending not because of orders or brochures, 
but because a friend or co-worker recommended the program to them. We 
help our members create solutions and minimize stress!
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, we support your efforts to review and improve the 
Transition Assistance Programs offered throughout our nation and hope 
that the information provided here today is of help to you. This 
concludes my testimony. I would be happy to answer any questions you 
may have.

                                 <F-dash>
  Prepared Statement of Shane A. Olivier, Veterans Education Program 
            Specialist, South Dakota State Approving Agency
Introduction
    Chairwoman Herseth Sandlin, Ranking Member Boozman and members of 
the Subcommittee on Economic Opportunity, I am pleased to appear before 
you today on behalf of the South Dakota State Approving Agency to 
provide comments on the Post-9/11 Veterans Educational Assistance Act 
of 2008 (Chapter 33) and the value of the South Dakota State Approving 
Agency.
Remarks
Public Law 110-252
(Post-9/11 Veterans Educational Assistance Act of 2008--Chapter 33)
    We are very pleased with the enactment of Public Law 110-252 (Post-
9/11 Veterans Educational Assistance Act of 2008--Chapter 33). The 
South Dakota State Approving Agency and the National Association of 
State Approving Agencies, of which we are a member, worked hard over 
the last several years to bring improvements to the educational 
assistance programs for those who defend the freedoms that we all so 
thoroughly enjoy. Our goal of attaining a Total Force GI Bill--one that 
truly provides equal opportunities and benefits for equal service 
rendered to the nation--will finally be realized on August 1, 2009, for 
those seeking a college degree. All service members, active duty and 
selected reserve will be equally recognized for their sacrifices and 
contributions.
    Additionally, our goal of having the ``GI Bill'' keep pace with the 
escalating costs of education also will be achieved. Veterans will no 
longer have to forgo the use of their education benefits because of 
family responsibilities or work a significant number of hours per week 
in order to enroll in an education or training program. The new law 
will provide greater opportunities to maintain a better balance between 
the pursuit of new or improved career opportunities and meeting family 
and community obligations.
    As I have stated, Chapter 33 is definitely a major improvement in 
the earned benefits for those serving in our current war on terrorism. 
The ``new'' GI Bill focuses only on degree programs. In fact there are 
several types of educational institutions as well as training 
establishments that are not included in Chapter 33.
    First, Chapter 33 veterans cannot use their benefits at non-college 
degree educational institutions. Some examples of these institutions 
are: business and trade schools, cosmetology schools, barber schools, 
public area vocational technical schools, etc. Although not as many in 
number as colleges/universities, a significant number of veterans do 
attend non-college degree institutions. They should have the same 
opportunity to use their Chapter 33 benefits. The training for many 
outstanding occupations is provided by these institutions. In addition, 
flight training institutions and correspondence schools are not 
included.
    Second, Chapter 33 veterans cannot use their benefits in 
apprenticeship/on-the-job training programs. On-the-job training 
programs must be at least 6 months in length and no longer than 2 years 
in length. Apprenticeship programs can vary from 1 year to 5 years in 
length. The basic difference between apprenticeship training programs 
and on-the-job training programs is that apprenticeship programs have 
theoretical related instruction as a requirement. Some examples of 
training programs are: carpenter, electrician, plumber, automotive 
technician, truck driver, police officer, deputy sheriff, welder, etc.
    Since the original GI Bill, an important component for all VA 
educational programs has been the ability for approval of training 
programs so that eligible veterans/dependents can use their earned 
benefits while actually performing a job and earning wages. ``VA 
educational benefits should not just be for classrooms.'' Some 
individuals learn better from practical hands-on training. Training on 
the job assists employers in hiring and retaining skilled workers which 
will provide our country and State with a highly educated and 
productive workforce. South Dakota has had a long tradition of 
promoting this type of training opportunity for those eligible to 
receive VA educational benefits. This has enriched our citizens, their 
communities and our state's economy.
    The basic concept is the payment of benefits while the individual 
is in a training status. Generally speaking, individuals begin at a 
trainee (lower) wage and progress in wages as their skills improve. 
This is also the rationale for benefits decreasing at periodic 
intervals. It needs to be noted that many of the training programs 
start at a relatively low wage. Since many veterans have family 
commitments, the beginning of their training program is where they need 
the greatest benefit.
    The last benefit for the trainee (and probably the most important) 
is a simple fact. The veteran already has the job. Once they finish the 
training program they continue their employment. It is not a case where 
the veteran spends a substantial amount of time and money in school and 
then must obtain employment after graduation. Also, some of the most 
utilized training programs are in career fields where there is a 
definite need for increased participation. These include: 
transportation occupations (heavy and light truck drivers); law 
enforcement (police officer, deputy sheriff, firefighter); construction 
trades (electricians, carpenters, plumbers, welders), and automotive 
technicians. The table below illustrates the growing demand in the 
above career fields.

                                      Occupational Growth Demand (2006-2016)
----------------------------------------------------------------------------------------------------------------
                         Industry                                      Occupation              Projected Demand
----------------------------------------------------------------------------------------------------------------
Transportation                                                           Heavy Truck Driver             523,000
                                                                         Light Truck Driver             275,000
----------------------------------------------------------------------------------------------------------------
Law Enforcement                                               Police Officer/Deputy Sheriff             243,000
                                                                               Firefighters             142,000
----------------------------------------------------------------------------------------------------------------
Construction                                                                               Carpenters   348,000
                                                                               Electricians             234,000
                                                                                   Plumbers             157,000
                                                                                    Welders             107,000
----------------------------------------------------------------------------------------------------------------
Automotive                                                            Automotive Technician             265,000
----------------------------------------------------------------------------------------------------------------
Grand Total                                                           All Above Occupations           2,294,000
----------------------------------------------------------------------------------------------------------------

         Each of the above occupations would hold a bright future for 
        our Nations' veterans. They should have the opportunity to 
        utilize their benefits in a way that will best suit their needs 
        and aptitudes.

    There is no doubt that the Post-9/11 Veterans Educational 
Assistance Act of 2008 (Chapter 33) will have a positive effect on 
education and provide the benefits earned by the brave men and women 
who have served (and are currently serving) our country. These veterans 
should not be limited in the manner in which they can use their 
benefits. It is time to enhance the new GI Bill to include non-college 
degree programs, flight training, correspondence programs and 
apprenticeship/on-the-job training programs.
    We also would recommend reconsideration to other ``GI Bill'' 
improvement measures that were introduced in the 110th Congress, but 
have not been fully acted upon. Some great features were included in 
these bills and should receive the attention of the Congress before the 
end of the session. Chairwoman Herseth Sandlin's bill, HR 5684, for 
example, addresses in addition to the costs of education, the 
importance of lifelong learning in the 21st century as one of the major 
forces to maintaining a skilled and viable workforce in our global 
economy. It also addresses GI Bill issues associated with Student 
Financial Aid under Title IV of the Higher Education Act 1965 as 
amended and provides additional financial support to the educational 
institutions which provide programs and services to our veterans.
    The new Chapter 33 is very comprehensive, but it also is complex. 
It will require a high level of cooperation and collaboration between 
all partners and stakeholders to achieve maximum success. The 
Congressional Veterans Affairs Committees, the federal Department of 
Veterans Affairs, State Approving Agencies, educational organizations 
and educational institutions will need to work closely with each other 
in order to ensure that all service members and veterans know of the 
opportunities available to them and that the operations of the new 
program are carried out in an effective and efficient manner with 
minimal disruption. Encouragement from the Congress in this regard 
could prove to be invaluable. There is an enormous amount of expertise 
outside the federal government that can be used to ensure the success 
of the program. The State Approving Agencies across this country stand 
ready to assist in any way possible; many of my associates have decades 
of experience with veterans educational programs and truly are an asset 
the Department of Veterans Affairs should not overlook.
Value of the South Dakota State Approving Agency
    A key aspect of our agency's mission is customer service; this is 
accomplished through outreach, using the Internet, promotional 
mailings, and networking with other agencies, organizations, and 
individuals. South Dakota has been a national leader in the outreach to 
the many troops activated, deployed, and returned from service overseas 
or within the states in recent times. Our agency continues to partner 
with other agencies in developing new and innovative ways to create and 
distribute information concerning programs and services that are 
available to our returning service personnel. Examples of these efforts 
follow:

    1.  Our agency took the lead in the creation of our state's Welcome 
Home brochure. To date over 15,000 copies have been distributed to our 
returning troops since 2004. This is a comprehensive guide to programs 
and services available to our state's veterans and their families.
    2.  After the 2008 National Defense Authorization Act was signed 
into law, within 30 days our agency had created a fact sheet on the 
changes relative to Chapter 1606/1607. We then distributed this 
information electronically to the South Dakota Veterans Service 
Network, provided a mailing to our County/Tribal Veterans Service 
Officers and worked with the South Dakota National Guard to distribute 
this information to active Guard members.
    3.  After the Post 9/11 GI Bill--Chapter 33 was signed into law, 
our agency printed 1,000 fact sheets from the electronic copy provided 
by the Veterans Administration. We then provided an electronic copy to 
our South Dakota Veterans Service Network and the South Dakota School 
Certifying Officials, a mailing to County/Tribal Veterans Service 
Officers and then had these fact sheets distributed at five outreach 
meetings. This was all completed within 18 days of the bill being 
signed.
    Our agency and our counterparts across the nation are able to 
respond quickly to the demands and needs of our customers, the 
veterans. We are the ``Front Line Responders'' to the GI Bill and have 
been for over 60 years. Our agency continues to be involved nationally, 
statewide, and locally to advance and promote the cause, and advocate 
for individuals who wish to utilize their GI Bill benefits.
    Our staff continues to provide technical and liaison assistance to 
schools, training establishments and veterans, guardsmen/reservists and 
dependents/survivors. Last fiscal year there were over 1,900 of these 
actions taken; additionally, over 200 facilities were visited and over 
1,100 approval actions were completed. Our agency is the face of 
veterans' educational programs in South Dakota.
    Our agency has developed a new database system. This new database 
system was designed with organization in mind, for ease of data entry 
and information retrieval and creating reports. This new system has 
combined five databases into one data system. This will improve 
productivity, data retrieval and provide a better reporting system.
    The statement Mr. Summerside made in his April 2007 testimony bears 
repeating today, ``Our true value rests in the heart of each of the 
dedicated staff whose sole purpose is the approval of quality programs 
of education for those eligible for VA educational benefits. Our 
agencies' worth is measured by this dedicated devotion to excellence, 
and our nation's Veterans deserve no less.''
    The true solution to readjusting from the war zone to home is 
quality medical care and the availability of comprehensive counseling 
services for those that need someone to listen and understand their 
pain. After the veterans' medical needs are met the bridge to their 
future would be the realization of their educational or vocational 
dreams. Schools and job training will bring our young men and women all 
the way back. These brave Americans deserve the very best programs and 
services this country can provide.
Closing
    In closing, Madam Chairwoman, I would like to thank you again for 
the opportunity to discuss our views on the Post-9/11 Veterans 
Educational Assistance Act of 2008 (Chapter 33) and the value of the 
South Dakota State Approving Agency. I very much appreciate your 
efforts to make improvements to the educational assistance programs for 
those who defend the freedoms that we so often take for granted. From a 
grateful nation, they deserve no less. I would be happy to respond to 
any questions that you might have.

                                 <F-dash>
           Prepared Statement of Todd Kolden, Administrator,
                    South Dakota Department of Labor
    Madam Chair Herseth Sandlin, Ranking Member Boozman, and 
distinguished members of the Subcommittee:
    Good morning, my name is Todd Kolden, Administrator, with the South 
Dakota Department of Labor. One of the programs I administer for the 
department is Veterans' Services. I also serve as an active member of 
the National Association of State Workforce Agencies (NASWA), Veterans 
Affairs Committee; and I am the State Employment Chairman for the 
Veterans of Foreign Wars (VFW) and the Disabled American Veterans 
(DAV). It is my honor to appear before this committee today on behalf 
of South Dakota Secretary of Labor Pamela Roberts to present the views 
of the South Dakota Department of Labor (SDDoL) regarding the 
Transition Assistance Program (TAP) workshop and to discuss any 
questions or issues you may have. As we feel all benefits owed to 
veterans are important, my testimony this morning will focus primarily 
on TAP.
    In order for TAP to be successful the partnerships between the 
Department of Defense (Ellsworth AFB), VA Vocational Rehabilitation and 
Employment (VR&E), South Dakota Department of Military and Veterans 
Affairs, U.S. Department of Labor/Veterans' Employment and Training 
Service (U.S.DoL/VETS), and the SDDoL need to be solidly in place. I'm 
pleased to say these partnerships are well established in South Dakota 
and have been instrumental in the success of TAP facilitated at 
Ellsworth AFB. Without these solid partnerships, veterans attending TAP 
would not be receiving the full benefit of transition services they 
richly deserve. South Dakota's current TAP Memorandum of Understanding 
(MOU), dated February 1, 2008 includes Ellsworth AFB, U.S.DoL/VETS, 
SDDoL, and the U.S. Department of Veterans Affairs. However, we do ask 
your assistance to ensure these partnerships can continue to function 
successfully.
    The importance of our Disabled Veterans Outreach Program (DVOP) 
Specialists and Local Veterans Employment Representatives (LVER) is not 
only serving veterans in the local office but also conducting outreach. 
One of the best opportunities for outreach is during the facilitation 
of TAP workshops. In South Dakota, our DVOP Specialists and LVER's 
facilitate approximately 80 percent of the TAP workshop and 25 percent 
of the Disabled TAP (DTAP) workshop which is conducted approximately 16 
times each year. On average our workshops average between 25-30 
participants. The majority are Air Force personnel, but members of 
other services, including the National Guard and Reserve often attend. 
TAP is also available to spouses and they are strongly encouraged to 
attend. Often through a TAP workshop, transitioning service members 
develop a one-on-one working relationship with a DVOP Specialist or 
LVER which enhances a successful transition. For those service members 
leaving South Dakota, we provide a DVOP/LVER contact for the States 
which they are relocating to.
    As this Subcommittee is aware, there has been discussion to make 
TAP workshops mandatory for active duty service members and to 
facilitate TAP workshops for Guard and Reserve components before 
transitioning or retiring from military service. SDDoL feels it should 
be mandatory for active duty personnel since many of these service 
members have been in the military for more than four years and most 
likely have been serving since a fairly young age. Many have probably 
never held a civilian job, and this transition will be an abrupt 
change. For Guard and Reserve components, SDDoL feels this should be 
made mandatory coming from the command level. In other words, it should 
be mandatory for the Adjutant Generals of each state to inform their 
units about the TAP workshops and allow them the opportunity to attend 
a TAP workshop if they desire by sending them on no-cost TDY (or TAD) 
orders. As you know, many of these individuals may already have jobs 
they are returning to and may not have a desire or need to attend TAP. 
But again, they should at least be given the opportunity. In South 
Dakota, SDDoL made this request nearly five years ago to the Adjutant 
General and thanks to the partnership we have established, there is an 
informal agreement in place and this was recently affirmed with the new 
Adjutant General. Currently, there are full-time Guard members 
attending TAP when they retire or separate. DoL/VETS reports that about 
60 percent of our service members are attending TAP, and a goal of 80 
percent has been set to be achieved over the next few years. We support 
this initiative and feel making TAP mandatory by these means will help 
bolster this percentage and more importantly, the successful transition 
of service members. Of note, for those service members who are assigned 
to Ellsworth AFB and unable to attend TAP prior to separation, one of 
our DVOP's will provide an abbreviated TAP presentation at the 
mandatory Pre-Separation briefing. While this is not meant to replace 
TAP, it does provide valuable and needed information to separating 
personnel. We always encourage participation in the full TAP workshop. 
If this is not possible, usually due to individual time constraints or 
short-notice separations, we recommend attendance at a TAP workshop at 
the nearest military facility when they complete their move.
    Another example of the strong partnership is reflected by who 
facilitates a TAP workshop. Being job-ready after attending TAP and 
leaving the military is very important, but it's not the only service 
that takes place. During the TAP workshop we have the following 
services presented:

    <bullet>  Finances
    <bullet>  Labor Market/Services Overview
    <bullet>  Personal Appraisal
    <bullet>  Job Search Techniques
    <bullet>  Employment Applications
    <bullet>  Resume/Cover Letter (including work groups and each 
servicemember leaves the workshop with a resume in hand)
    <bullet>  Interview Process (including the opportunity for mock 
interviews)
    <bullet>  VA Benefits
    <bullet>  County Veterans Services
    <bullet>  Vet Center
    <bullet>  A one-half day Disabled TAP workshop is facilitated for 
service members who have or may have service-connected disabilities, 
focusing on the benefits available to them (including Vocational 
Rehabilitation and Employment, etc).

    As you can see, TAP informs service members not only about how to 
get ready to make the transition and receive benefits, but also what 
they are entitled to and how to go about receiving these benefits. 
Again, we feel this instills the importance of the partnerships 
involved to successfully assist in the transition of our service 
members.
    I would like to share my personal experience with TAP. When I 
retired from military service, I was given the opportunity to attend 
TAP. The information I learned and the resources I was provided helped 
me immensely and immediately. TAP assisted me in the seamless 
transition from military to civilian life as I had employment waiting 
for me when I retired. It also assisted in ensuring all of my benefits 
were in place prior to my transition and what to do and where to go if 
I required further assistance. I feel the TAP workshop is one of the 
best resources we currently have for our service members who are making 
the transition from military to civilian life and for Guard and Reserve 
individuals who want to make a career change.
    Finally, I would like to mention that often times an important part 
of transition is training separated service members so they can enter a 
particular employment field. Some of you might remember or are aware 
of, the service members Occupational Conversion and Training Act 
(SMOCTA) 1992, which was an act that provided funding for training 
service members after separating from military service and was highly 
successful in South Dakota. Recently, H.R. 6272, which would re-
authorize SMOCTA was marked up by this Subcommittee and forwarded to 
the Full Committee for consideration, I urge your continued support.
    Again, I want to thank the Subcommittee for allowing me to testify. 
This concludes my testimony and I would be happy to discuss or respond 
to any questions you may have regarding TAP or Veterans' Services in 
South Dakota.

                                 <F-dash>
     Prepared Statement of Luverne L. Boes, District 13 Commander,
              American Legion, Department of South Dakota
    Madam Chairwoman and Members of the Subcommittee:
    The American Legion would like to begin this hearing by expressing 
our gratitude to you and your colleagues for holding this hearing on 
such an important issue. With the ending of the Cold War, the 
Department of Defense (DoD) dramatically downsized its personnel 
strength. In 1990, in an attempt to assist separating service members 
in making a successful transition back into the civilian workforce, 
Congress enacted Public Law (P.L.) 101-510 which authorized the 
creation of the Transition Assistance Program (TAP) and Disabled 
Transition Assistance Program (DTAP). This law was intended to assist 
service members who possessed certain critical military specialties 
that could not be easily transferred to a civilian work environment and 
to assist others, especially those with service-connected medical 
conditions, with educational and career choices.
    DoD's TAP and DTAP programs are designed, in conjunction with 
Department of Labor (DoL) and the Department of Veterans Affairs (VA), 
to help prepare not only separating service members, but also their 
families for a seamless transition to civilian life. Last year in FY 
2007, more than 386,200 service members were discharged from active 
duty status and over 500, 534 service members demobilized from active 
duty service. Public Law (P.L.) 101-510 (Chapter 58, section 1142) 
mandates pre-separation counseling for transitioning service members. 
These programs consist of specific components: pre-separation 
counseling; employment assistance; relocation assistance; education, 
training, health and life insurance counseling; finance counseling; 
reserve affiliation; and disabled transition assistance seminars. DTAP 
is designed to educate and facilitate disabled veterans to overcome 
potential barriers to meaningful employment. Currently, VA, DoL, and 
DoD operate 215 transition offices around the world.
    While the TAP program assists transitioning service members leaving 
the military under their own accord, the DTAP program focuses on the 
specialized needs of the service members who are separating for medical 
reasons. The DTAP workshop is a half-day seminar sponsored jointly by 
DoL, DoD and VA. The workshop provides specialized information on VA's 
many disability benefits:

    <bullet>  Medical Care
    <bullet>  CHAMPVA
    <bullet>  Disability Compensation
    <bullet>  Vocational Rehabilitation
    <bullet>  Disabled Veterans Insurance

    In this current era of a significantly smaller all-volunteer 
military, the reliance on the National Guard and Reserves to fight the 
present Global War on Terror is unprecedented. The Reserve Forces have 
become an essential part of all current DoD operations. Reservists in 
Iraq and Afghanistan make up close to 40 percent of the total force in 
any given month, and DoD reports that continued reliance on the 1.8 
million Reserves and National Guard will continue well into the 
foreseeable future. Attracting and retaining well qualified individuals 
to execute the fundamental functions of a strong and viable national 
defense is paramount. Without providing proper incentives for service 
members to enlist and reenlist, the military will continue to be hard 
pressed to effectively accomplish their Global War on Terror mission.
Reservists Return to Find No Jobs
    Countless numbers of National Guard and Reserve troops have 
returned from the wars in Iraq and Afghanistan only to encounter 
difficulties with their Federal and civilian employers at home. In 
numerous cases brought to the attention of The American Legion by 
veterans and other sources, many of these returning service members 
have lost jobs, lost promotions or benefits, and in a few rare cases, 
they have encountered job demotions. According to the Uniformed 
Services Employment and Reemployment Rights Act (USERRA), employers 
must by law protect the old jobs of deployed service members, or 
provide them with equivalent positions. Benefits, raises, and 
promotions must be protected, as if the service member had never left. 
For whatever reasons, in many cases this law has not been able to 
protect many returning service members across the country. From all 
accounts most Reservists and those in the National Guard appear to be 
well informed about their active duty legal rights due to the 
Department of Labor's efforts. However, in the loss of a job, The 
American Legion strongly endorses the belief that service members would 
greatly benefit by having access to the resources and knowledge that 
the Transitional Assistance Program (TAP) can provide, but the program 
should have a stronger employment, mental health, and small business 
component.
H.R. 6272, The SMOCTA Reauthorization Act of 2008
    This proposed legislation would authorize discretionary 
appropriations to carry out the Service Members Occupational Conversion 
and Training Act 1992 (SMOCTA). SMOCTA was developed as a transitional 
tool designed to provide job training and employment to eligible 
veterans discharged after August 1, 1990. When created, SMOCTA was the 
only Federal job training program available strictly for veterans and 
the only Federal job training program specifically designed for use by 
State veterans' employment personnel to assist veterans with barriers 
to employment. Veterans eligible for assistance under SMOCTA were those 
with primary or secondary military occupational specialty that DoD 
determined was not readily transferable to the civilian workforce or 
those veterans with a service-connected disability rating of 30 percent 
or higher. SMOCTA is a unique job-training program because it 
successfully returned veterans to the civilian workforce.
    The American Legion strongly endorses this bill along with the 
proposed funding request.
The Effects of Reserve Call-ups on Civilian Employers and Veteran Owned 
        Business
    The impact of deployment on self-employed Reservists is tragic with 
a reported 40 percent of all businesses owned by veterans suffering 
financial losses and in some cases bankruptcies. Many small businesses 
have discovered they are unable to operate and suffer some form of 
financial loss when key employees are activated. The Congressional 
Budget Office in a report ``The Effects of Reserve Call-Ups on Civilian 
Employers'' stated that it ``expects that as many as 30,000 small 
businesses and 55,000 self-employed individuals may be more severely 
affected if their Reservist employee or owner is activated.'' The 
American Legion is a strong supporter of the ``Hope at Home Act of 
2005,'' which is a bipartisan bill that would not only require the 
Federal government to close the pay gap between the Reserves and 
National Guard service member's civilian and military pay, but it would 
additionally provide tax credits up to $30,000 for small businesses 
with service members who are activated. Currently, the Small Business 
Administration (SBA) offers a program billed as the Military Reservist 
Economic Injury Disaster Loans. This program offers businesses that 
meet certain eligibility criteria loans that help them to offset the 
economic consequences of the loss of their Reservist personnel. To 
qualify, a company must be able to show that the activated Reservist is 
critical to the success of the company. The American Legion recommends 
that the SBA should be part of any Reservist and National Guard TAP, 
and act in an advisory capacity to businesses owned by veterans, to 
assist them with resources and information to help lessen the impact of 
activation on their bottom line.
Education and the GI Bill
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain service members into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. On June 22, 1944, then-
President Franklin D. Roosevelt signed the Servicemen's Readjustment 
Act of 1944, which later became known as the GI Bill of Rights.
    This historic piece of legislation, authored by the leadership of 
The American Legion, enabled veterans to purchase their first homes, 
attend college, and start private businesses. The emergence of the 
American middle class, the suburbs, civil rights, and finally a 
worldwide economic boom can be attributed to this important 
legislation. The majority of individuals who join the National Guard or 
Reserves enter the Armed Forces straight out of high school, and many 
are full and part time students. With the number of activations since 
September 11, these same Reservists are discovering that their 
graduation will take longer than once anticipated.
    Currently, the Montgomery GI Bill pays the average Reservist 
$317.00 a month compared to the active duty counterpart who is paid 
$1,321.00 a month. With the rising cost of tuition many Reservists feel 
forced to apply for commercial loans and other sources of loans or 
grants to supplement the GI Bill. Unit activations generally take place 
during the middle or end of a school semester. When a service member 
withdraws from school the commercial loan must still be paid regardless 
of whether the student finishes the course or courses, adding to the 
accumulated debt of that service member. Most service members are not 
aware of other programs or ways of paying for school; for example, 
currently, if a service member serves 24 months on active duty their GI 
benefits become comparable to active duty. The American Legion 
recommends that TAP have an education representative to provide 
National Guard and Reservist members this kind of information so they 
can have the option to make informed decisions on how to best 
incorporate their military service with their civilian employment and 
education options.
    According to a 2004 survey conducted by GFK Custom Research, the 
leading reason why people enlist, despite the Global War on Terror, is 
the desire for an affordable education. The American Legion is 
currently consulting with VA's Advisory Committee on Education to 
discuss pursuing one education program for both active duty and 
Reserves. If it is true that young people enlist or reenlist primarily 
for an education, instead of giving them bonuses ($35,000 bonus and up 
to get people to enlist and reenlist) we should promise them an 
education.
    Recently the President signed into law the Post-9/11 Veterans 
Educational Assistance Act which will significantly change veterans' 
education in August 2009. The American Legion strongly supported this 
much needed change and deeply appreciated the bipartisan support this 
bill received. It truly represents the thanks of a grateful nation. 
Once the final rules and regulations have been finalized, TAP/DTAP will 
serve as an excellent venue to brief recently separated service 
members, especially those in the National Guard and Reserves, on the 
new enhanced educational benefits.
The Service Members Civil Relief Act (SCRA)
    On December 19, 2003, the President signed into law a complete 
update of the Soldiers' and Sailors' Civil Relief Act 1940. This helps 
ease the economic and legal burdens on military personnel called to 
active duty status in Operation Iraqi Freedom and Operation Enduring 
Freedom. SCRA provides certain legal protections for individuals called 
to active duty. Relief extends to actions terminating leases, 
evictions, foreclosures and repossessions, default judgments, lower 
interest rates on credit cards and loans and protects against lapses or 
termination of insurance policies.
    In recent months, there have been a number of news articles 
reporting that some creditors make illegal demands on active duty 
soldiers. With the military's increased reliance on National Guard and 
Reserve units, creditors residing in remote areas of the country 
outside of the traditional military towns are not aware of this act, 
including members of the Reserve component. Therefore, service members 
are experiencing serious financial difficulties while on active duty--
their cars are repossessed, homes foreclosed and credit histories 
ruined because this piece of legislation is unknown.
    The American Legion has produced a brochure on active duty legal 
rights, copies of which will be distributed across the country. If TAP 
was mandatory, service members and local community businesses would 
also know of this program, and a lot of frustration, time and 
misunderstandings could be avoided. A few services, such as the Navy, 
discuss personal financial planning during workshops and seminars. 
However, the Reserve components need to have this issue addressed 
during TAP.
Make TAP/DTAP a Mandatory Program
    DoL estimates that 60 percent to 65 percent of all separating 
active duty service members attend the employment TAP seminars and 30 
percent of all separating National Guard and Reservists attend a 
portion of TAP. The American Legion believes this low attendance number 
is a disservice to all transitioning service members. Many service 
members and most National Guard and Reservists are unaware of the 
assistance and resources offered by TAP. Without this program, service 
members who have served their country bravely return to the civilian 
workforce less equipped than their counterparts who took advantage of 
the information provided by TAP.
    According to written testimony from John M. McWilliam, Deputy 
Assistant Secretary of Veterans' Employment and Training, Department of 
Labor, May 12, 2005, ``we have been working with the National Guard and 
Reserve on providing TAP services to these returning service members in 
many states on an informal and as needed basis. In this regard, three 
Reserve Component TAP demonstration programs are underway in Oregon, 
Michigan and Minnesota.'' As a present day follow up with Mr. McWilliam 
``those demonstration projects went well, we learned a lot and we are 
currently offering segments of our program to any Reserve or National 
Guard command requesting them.''
    The American Legion was informed during that period by 
representatives of DoD and DoL that in Oregon, 40 percent of those part 
time service members who attended the TAP session were looking for 
employment. The American Legion recognizes the value of this program 
and recommends that it become a mandatory requirement for all 
transitioning service members.
Access to TAP
    The Government Accountability Office (GAO) report, Enhanced 
Services Could Improve Transition Assistance for Reserves and National 
Guard, May 2005, reports TAP is not made available to the National 
Guard and Reserves. ``TAP managers with DoD and the military services 
explained that the chief problem is lack of time during demobilization, 
which is often completed in 5 days.''
    The American Legion recommends that TAP be instituted in the 
following ways:

    <bullet>  Incorporate TAP into the unit's training schedule months 
before activation;
    <bullet>  Have a TAP briefing during a unit's organization day that 
includes spouses;
    <bullet>  Activate a unit for a weekend either before or after a 
deployment;
    <bullet>  Most units spend three to eight weeks at an installation 
site preparing to move into theater; therefore, include TAP; and
    <bullet>  Spend extra day or two at a demobilization site to 
include TAP.

    The GAO report also states that many service members are not 
interested in the employment segment because they believe they have 
jobs waiting for them once they return home. That might have been true 
with the first rotations into theater; however, that is not the case 
now for many veterans, especially with back to back deployments. A 
number of complaints have surfaced from service members around the 
country that some businesses are reluctant to hire veterans still in 
the military and businesses have allegedly started putting pressure on 
veterans who have deployed once not to deploy a second time.
Transitional Assistance Program for National Guard and Reserves:
Aberdeen Proving Grounds, Maryland
    The TAP program located at Aberdeen Proving Grounds, Maryland, has 
been called a unique program and still highly regarded as a model for 
all the Army. It is currently the only program that offers transition 
assistance to Guard and Reserves with an 8-hour presentation, that 
consists of full range of services and benefits briefing. A list of the 
benefits briefing are in the fields of Finance, Education, USERRA, VA 
compensation and disability claims, Employment assistance, Mental 
Health Counseling Services, and TRICARE. The program also has a number 
of unique partnerships with many Federal, State and local agencies. 
Some of those partnerships include: the Maryland Division of Workforce 
Development, The Perry Point VA Hospital, Department of Labor, Walter 
Reed Army Medical Center and the Ft. Monmouth, N.J., Transition Office. 
The program has a pro-active philosophy. Some examples include:

    <bullet>  Service members needing employment are given immediate 
assistance. In some cases this has led to immediate hires, and those 
service members returned home with a job while avoiding unemployment. 
If the veteran lives outside the state, a point of contact is given for 
that individual to ensure there is a Veteran Representative waiting 
with job service resources.
    <bullet>  The Perry Point VA Hospital offers immediate shelter to 
service members who may be homeless, which lessens the numbers of 
homeless veterans on the nation's streets. VA reports that more than 
175,000 veterans are currently homeless and another 250,000 are 
homeless over a period of time. VA has also reported that the number of 
homeless veterans who have served in Iraq and Afghanistan is 
increasing, especially among women with children. The American Legion 
believes the first line in defense in preventing additional homeless 
cases is to have a strong and pro-active transitional assistance 
program.
    <bullet>  Service members who need assistance with filling out 
compensation and disability claims are offered immediate assistance by 
visiting VA representatives. The program has received positive feedback 
by service members and commanders.
Assessing Services Rendered
    The American Legion recommends that Congress require Federal 
agencies that deliver TAP/DTAP services to develop a management-
monitoring program to better assess how well services are being 
delivered to transitioning service members. Currently, the 
effectiveness of services provided by TAP agencies is unknown because 
adequate performance goals and benchmarking measures have never been 
instituted. Consequently, there is a lack of any verifiable outcome 
data. Performance measures should be instituted to hold all Federal 
agencies involved in TAP/DTAP accountable for services rendered.
Summary
    America asks her young people to serve in her armed forces to guard 
and defend this great Nation and its way of life. Their selfless 
service provides millions of their fellow Americans with the 
opportunity to pursue their vocational endeavors. The successful 
transition of that service member back into the civilian workforce must 
be a shared responsibility, especially if that service member has 
suffered service-connected disabilities. There is much talk about 
``seamless transition'' between DoD and VA, but it goes beyond that. It 
should be a ``seamless transition'' between all Federal agencies 
involved in a transition assistance program. That means:

    <bullet>  Ensuring service members know their active duty legal 
rights and that those Federal agencies involved should monitor and 
assist in the compliance with those rights;
    <bullet>  Prompt adjudication of disability claims;
    <bullet>  Prompt adjudication of educational claims;
    <bullet>  Timely access to TRICARE and VA quality healthcare;
    <bullet>  Housing of the homeless;
    <bullet>  Employment assistance;
    <bullet>  Small business assistance;
    <bullet>  Vocational training for veterans; and
    <bullet>  Any other Federal assistance as needed.

    The American Legion reaffirms its strong support of the Transition 
Assistance Program, but also encourages the Department of Defense to 
require that all separating, active-duty service members, including 
those from the Reserves and the National Guard, be given an opportunity 
to participate in Transition Assistance Program training not more than 
180 days prior to their separation or retirement from the Armed Forces, 
and follow-up counseling not later than 180 days after separation from 
active duty. The American Legion will also support any legislative 
initiatives to mandate that all service members be given the 
opportunity to participate in TAP/DTAP.

                                 <F-dash>
  Prepared Statement of Doris Ann Werlinger, Past Department President
               of South Dakota, American Legion Auxiliary
    Madam Chairwoman and members of the Subcommittee, thank you for 
inviting the American Legion Auxiliary to appear before you today to 
discuss the Transition Assistance Program (TAP.)
    Today I represent the American Legion Auxiliary (Auxiliary), the 
world's largest women's patriotic service organization with 900,000 
members in 8,900 communities across the country. Here in South Dakota 
we have 16,000 members in 221 communities. We are an 89-year-old 
organization whose members are female veterans and mothers, wives, 
sisters, daughters, granddaughters or great-granddaughters of American 
Legion members. Our mission is to serve veterans, their families and 
their communities. Personally, I have four nephews serving on active 
duty. Two serving in the Air Force, one in the Navy and one with the 
Marine Corps.
Reformat TAP
    The goal of TAP is to provide those separating from military 
service, including Guard and Reserve, and their families the tools to 
make a seamless transition to civilian life. The curriculum for this 
program has included a narrowly defined yet broad-based agenda with the 
intent to impart as much information as possible to the active duty 
component. Guard and Reserve members haven't had the benefit of a 
comprehensive TAP. While there is little debate as to the value of the 
information being shared during TAP, we hear continually from service 
members and their families that TAP is either too much or too little 
given at the wrong time and in the wrong setting with the expectation 
that all service members hear the same message at the same time and in 
the same way. So, what changes need to be made for TAP to be more 
effective?
    First, one size doesn't fit all. The retiree may need different 
information than the three year enlistee; a degreed service member who 
may have a variety of professions to chose from needs different 
resource options from the service member entering a trade, going back 
to school or who is undecided. If you're not disabled, why sit through 
two hours of DTAP briefings? Guard and Reserve members are further 
alienated as they return back to civilian lives that are now very 
different then when they left.
    Second, timing matters. Hitting a service member and his or her 
family too early or too late can dilute the message. Delivering any 
message in anticipation of or immediately following a deployment that 
isn't directly related to ``getting back to home and family'' has no 
chance of sticking.
    Third, accuracy, no matter the delivery or message line is 
critical. We hear of miscommunication too many times. Hearing you're 
not eligible for the GI Bill because your high school GPA isn't high 
enough is just wrong. Not being given clear and compelling reasons to 
enroll in the VA immediately upon separation to claim the five-years 
eligibility for VA healthcare is wrong.
    Fourth, too much information being delivered at one time in 
combination of any of the above issues means much of it gets lost or 
not absorbed. We all know what happens to brochures, CD's, workbooks--
they get lost or tossed.
    Fifth, while technically the civilian job of a Guard or Reserve 
member is covered under USERRA, we all know that in practice, these 
service members have difficulty re-entering the workforce or picking up 
their careers because of subtle hiring practices that don't work in 
their favor. Employers don't want to hire someone who may be leaving 
again in a year.
What changes might make TAP effective?
    Following the example of Turbo TAP, which was designed with the 
National Guard in mind, any face-to-face program must be appropriately 
timed, relevant and to the point. It must take into consideration that 
one size doesn't fit all. To over simplify, the Auxiliary feels 
strongly that TAP needs a more contemporary face. Instead of giving 
service members and their families what we think they need, we need to 
give them the option of choosing what they know they need.
    We recommend establishing a program that collectively is no more 
than 24 hours of content with an agenda flexible and varied enough to 
appeal to participants at all stages of readiness for transition. The 
program should consist of a menu of presentations and/or workshops with 
minimum and mandatory requirements established for participation. The 
program should be established in such a way that one or two mandatory 
general sessions start TAP followed by a diverse agenda of programs 
that would appeal to participants on a variety of levels and stages. If 
planned right, this format change would not require additional staff 
resources, would include much of the same content and material 
currently being used but focus on what's important to the participant.
The Model of Turbo TAP
    In an effort to better serve our Guard and Reserve forces, Turbo 
TAP was created to assist service members and their families handle the 
multiple and rapid transitions to and from civilian life. Online, 
interactive and available 24/7, Turbo TAP has become one of the most 
robust and popular tools for reintegration available to service members 
and their families. Its well-organized content contains valuable up-to-
date information on resources and earned benefits.
    Since its debut, we have heard nothing but positive response to the 
program.
Make TAP a Mandatory Program
    The most current Department of Labor statistics report that 60 to 
65 percent of all separating active duty service members attend TAP 
seminars and 30 percent of all separating National Guard and Reservists 
attend a portion of TAP. According to written testimony from John M. 
McWilliam, Deputy Assistant Secretary of Veterans' Employment and 
Training, Department of Labor, May 16, 2008, the DoD has adopted the 
recommendation from the Task Force on Returning Global War of Terror 
Heroes to increase attendance at TAP sessions to 85 percent of 
separating service members.
    We wholeheartedly support this DoD initiative but believe that they 
should take it one step further. Currently, the only branch of the 
military to make TAP required is the Marine Corps. The American Legion 
Auxiliary recommends that each branch of the military make TAP a 
mandatory requirement for all transitioning service members bringing 
participation to 100 percent.
Creation of Measurable Outcomes
    The Auxiliary is further recommending that a clear set of 
measurable standards be established at multiple levels of the program 
to ensure excellence.

    <bullet>  The DoL is accountable for a high standard of delivery 
and therefore outcome;
    <bullet>  DoD must hold each branch accountable for administration 
and implementation of TAP;
    <bullet>  Uniform performance goals need to be established for 
commanding officers responsible for TAP, regardless of branch;
    <bullet>  Measurement outcomes need to be established to gauge the 
effectiveness of the program on its participant's ability to 
successfully reintegrate after service.

Summary
    Our men and women in uniform have made tremendous sacrifices 
defending our Nation. They go through initial training to prepare them 
to endure unique stress and perform actions that are not present in 
civilian life. It is only right that at the conclusion of their 
service, they go through a transition program that meets them on their 
terms ensuring a seamless transition back to civilian life. The 
American Legion Auxiliary recommends:

    <bullet>  Reformatting TAP to fulfill the needs of specific service 
members--including our Guard and Reserve;
    <bullet>  Requiring TAP mandatory for all separating service 
members;
    <bullet>  Creating measurable standards to gauge effectiveness and 
success.

    TAP is an essential component of reintegration for all members of 
our military regardless of branch or rank. TAP done right becomes an 
invaluable step in successful reintegration.
    Thank you again for allowing me to represent the opinions of the 
American Legion Auxiliary through this testimony. I am happy to answer 
any questions you may have.

                                 <F-dash>
   Prepared Statement of Diane Hickenbotham, President, Veterans of 
       Foreign Wars Ladies Auxiliary, Department of South Dakota
    Chairwoman Herseth Sandlin and distinguished Members of the 
Committee:
    I thank-you for the opportunity to discuss what the Transition 
Assistance Program is doing to provide Service members and their 
families with the information and resources necessary to facilitate a 
successful transition from military to civilian life. I am honored to 
be asked to be here as the Department President of the State of South 
Dakota of the Ladies Auxiliary to the Veterans of Foreign Wars. We are 
the wives, widows, mothers, grandmothers, daughters, granddaughters, 
and sisters (this includes all half, step, and foster (who attained 
that status prior to age sixteen and for whom the duties of parent were 
performed) of persons who were or are eligible for membership in the 
Veterans of Foreign Wars by having served our great country in a 
Foreign war/hostile region. The Ladies Auxiliary to the Veterans of 
Foreign Wars serves Veterans and their families as our primary 
function. I am the wife of a 100 percent combat disabled Vietnam 
veteran and a strong advocate for all veterans and their families. I am 
from the city of Aberdeen, SD where many of our National Guard and Army 
Reserve Units have been deployed. I speak as a wife, advocate for all 
veterans and our troops and their families, and as the President of the 
Department of SD Ladies Auxiliary to the VFW, representing more than 
8000 Auxiliary members in our State.
Collaboration
    I express great appreciation and gratitude that the VA, DoD, DoL 
are working together to provide needed and desirable transition 
programs for our returning troops and their families. I am especially 
grateful that you have included the Ladies Auxiliary to both the VFW 
and American Legion. It does let us know that you are considering the 
effect and opinions of the families involved in the lives of our 
returning troops.
Turbo TAP
    In speaking with some returning National Guard and Reserve members 
they have expressed that this technology has been a valuable tool for 
those returning from Operation Enduring Freedom/Operation Iraqi 
Freedom. This web-based system seems to work well for delivery of 
transition information and assistance. Service members have rapid 
accessibility to locate One-Stop Career Centers for employment 
assistance and well as medical care by locating the closest VA Medical 
Center. This program is helping returning service members increase 
their participation and awareness of military benefits allowing for a 
easier transition to civilian life.
What improvements and additions can be made that might make TAP more 
        effective?
    There has been significant progress in the efforts to provide 
transition assistance to the soldier and their families since this 
program was implemented. However, I have spent much time visiting with 
families of soldiers as to how they can be better served by the TAP 
program; the following are some of their concerns.

    <bullet>  Families need more assistance to emotionally support 
their families while their spouse is deployed. This includes 
readjustment to parenting jointly again for when the spouse returns. 
Many feel the Family Readiness Leader or group was all they know about. 
When another parent returns there is often conflict in discipline with 
their children.
    <bullet>  Some spouses feel the returning soldier is shuffled 
around too much for testing and receiving Transitional assistance when 
they return home. Sending from Aberdeen to Fort Carson, CO only causes 
another separation for the family.
    <bullet>  Many feel a need for Credit Counseling. We often think of 
the spouse at home in charge of the checkbook for the family and 
spending the money. There are times when the soldier has only been in 
charge of their needs and is unaware of the financial situation at 
home.
    <bullet>  Many need assistance and support in dealing with the idea 
that the soldier will be called up again. This seems to hang over the 
heads of the children very intently. The parent was gone once and the 
fear of it happening again causes much anxiety to some within the 
family unit. This isn't openly addressed and dealt with through the 
proper channels.
    <bullet>  Families feel the time to utilize the program is too 
short and doesn't start soon enough with those at home to make for a 
easier transition into civilian life once again. Spouse often become 
``battle buddies'' and their knowledge of support services such as 
counseling must be known to them as soon as possible.

Summary
    Many of the above listed concerns seem to deal with the 
communication within the TAP program with the family. We recommend that 
Communication with the families become a priority in a timely manner. 
The time table and availability of transition assistance must be 
communicated frequently and soon enough to accommodate the soldier and 
family for smoother transition into civilian life. Family Readiness 
leaders are an important tool in this program and their training needs 
to be comprehensive and supportive.
    I thank you for allowing me to present this testimony on behalf of 
our organization the Ladies Auxiliary to the Veterans of Foreign Wars. 
Know that we deeply appreciate the implementation of this program. The 
men and women that have worn the uniform of this great Nation deserve 
all the help and transitional assistance that we can give them to deal 
with the stress of war and separation. Every soldier deserves all the 
support that we as Americans can give them. Each and every soldier and 
family member deserves for the great sacrifice they all have given.

                                 <F-dash>
  Prepared Statement of John M. McWilliam, Deputy Assistant Secretary,
  Veterans' Employment and Training Service, U.S. Department of Labor
    Madam Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee:
    Thank you for the opportunity to appear before this Subcommittee to 
discuss the role of the U.S. Department of Labor's (DoL) Veterans' 
Employment and Training Service (VETS) in providing transition 
assistance to our returning servicemembers.
    The mission of VETS is to provide veterans and transitioning 
servicemembers with the resources and services to succeed in the 21st 
century workforce. One of the most important ways that we meet that 
mission is by providing employment workshops to separating active, 
Guard, and Reserve servicemembers as part of their transition to 
civilian life. Our services are provided through the Transition 
Assistance Program (TAP).
    TAP is a Department of Defense (DoD) program that partners with 
DoL, the Department of Veterans Affairs (VA), and the Department of 
Homeland Security. TAP has four components:

    1.  Pre-separation counseling--this is mandatory for all 
transitioning servicemembers and is provided by the military services;
    2.  TAP employment workshops--these are voluntary on the part of 
the transitioning servicemember and are administered through DoL and 
its State partners;
    3.  VA benefits briefing--these briefings are also voluntary and 
administered by the VA; and
    4.  Disabled Transition Assistance Program (DTAP)--also voluntary 
and administered by the VA.

    Sixty to 65 percent of active-duty transitioning servicemembers 
have attended the TAP employment workshops. This has risen from a 50 
percent participation rate in 2001. As a result of recommendations of 
the President's Task Force on Returning Global War on Terror Heroes, 
each of the military services has established a goal of 85 percent 
attendance.
    Since 1991, when DoL began providing employment workshops pursuant 
to section 502 of the National Defense Authorization Act for Fiscal 
Year 1991 (P.L. 101-510), over one million separating and retiring 
military members and their spouses have been provided employment and 
job training assistance and other transitional services. DoL was 
further directed to provide these services at overseas locations by 
section 309 of the Veterans Benefits Act of 2003 (P.L. 108-183). Before 
this law took effect, VETS began facilitating TAP workshops at overseas 
military installations where, by previous interagency agreement, the 
DoD had provided TAP workshops since the program's inception. VETS 
continued to expand to additional overseas sites and we are extending 
efforts to provide workshops whenever requested to those Guard and 
Reserve units returning from the Global War on Terror. We are currently 
conducting TAP employment workshops at 55 sites overseas including 
Germany, Japan, Italy, Korea, Guam and the United Kingdom. Our mission 
is to provide TAP at every location requested by the Armed Services or 
National Guard and Reserve Component.
                      Employment Workshop Overview
    DoL is authorized by Chapter 58 of title 10, U.S. Code, to assist 
the DoD and VA in providing transition assistance services to 
separating servicemembers and their spouses. The role of VETS in this 
effort is to conduct employment workshops based on projections made by 
each of the armed services and the Department of Homeland Security for 
the U.S. Coast Guard. DoL funded Disabled Veteran Outreach Program 
(DVOP) specialists and Local Veterans Employment Representatives (LVER) 
lead most employment workshops that take place in the United States. In 
some cases, due to the distances from State employment offices to the 
military installations, and to assist with the rapid growth of the 
program, contract facilitators were added in early Fiscal Year (FY) 
1992 and Federal staff in FY 1996. In overseas locations, contract 
staff leads most workshops.
    To maintain a quality of service delivery and ensure uniformity 
between locations, all workshops use a common workbook and standard 
program of instruction. In addition, all facilitators, whether DVOP/
LVER, Federal staff, or contract, are trained and certified by the 
National Veterans' Training Institute.
    In FY 2007, over 146,000 separating military personnel and spouses 
were trained in 4,716 employment workshops at military installations 
worldwide. In FY 2008, VETS plans to provide employment workshops to 
over 150,000 servicemembers and spouses at military installations 
around the world.
    The DoL facilitated transition employment workshop is a 
comprehensive two and one-half day session where participants learn 
about job searches, career decision making and current occupational and 
labor market conditions. Practical exercises are conducted in resume 
writing and interviewing techniques. Participants are also provided an 
evaluation of their employability relative to the job market and 
receive information on the most current veterans' benefits. Components 
of an employment workshop include: career self-assessment; resume 
development; job search and interview techniques; U.S. labor market 
information; civilian workplace requirements; and documentation of 
military skills.
   Reserve Component (RC) and National Guard (NG) Employment Workshop
    Global military commitments have necessitated a mobilization of 
Guard and Reserve members that is unprecedented in modern times. The 
longer mobilization periods result in these servicemembers now being 
eligible for veterans' benefits, including TAP. The employment workshop 
is available for most servicemembers at one of the 215 transition 
offices located on military installations in the United States as well 
as overseas locations.
    However, Reserve and Guard members usually transition at fewer 
locations, referred to as demobilization sites. Typically the 
demobilization process is rapid, taking a matter of days once the 
servicemembers arrive back in the United States from overseas. During 
demobilization, servicemembers may be expected to participate in many 
separate briefings and activities. This leaves little or no time for a 
full two and one-half day employment workshop. Nevertheless, we have 
found that many Guard and Reserve service members would benefit from 
such transition assistance. Our State Directors have coordinated with 
each State Adjutant General and they work directly with the individual 
reserve and guard commanders to make special arrangements following 
demobilization in order to present a modified TAP employment workshop 
to Guard and Reserve service members on an `as requested' basis. Based 
on requests from Reserve Component Commanders or Adjutant Generals and 
through coordination with our VETS' state directors, VETS has offered 
to tailor the workshops to the identified needs of the transitioning 
Reserve and Guard members.
    In fact, since 2001 VETS has provided transition services to over 
146,000 National Guard and Reservists. These transition services range 
in size and content from mobilization and demobilization briefings to 
the full scale TAP employment workshops. They are provided in 43 States 
and the District of Columbia. In some States, National Guardsmen and 
Reservists have been allowed to attend the regular TAP for Active 
Component servicemembers. The services provided to the Guard and 
Reserve are tailored to the needs and requests by the DoD.
    To meet the transition needs of the National Guard and Reserves, in 
FY 2007, DoL directed the National Veterans' Training Institute (NVTI) 
to develop a modular version of the TAP employment workshop. The 
traditional TAP employment workshop was turned into a 15-module menu 
that Reserve/National Guard commanders may choose from in providing 
these services to their unit members. This training includes a 
mandatory module that covers local labor market information, USERRA, 
the One-Stop Career Center system, small business opportunities, and 
the risks of homelessness. The other 14 modules consist of the current 
TAP employment workshop curriculum broken down into logical and 
connected blocks of instruction. This is not a new or separate 
curriculum for the Reserves and National Guard; rather it has been 
packaged to better serve this community.
                         South Dakota Programs
    I have provided an overview of what is being done to assist those 
servicemembers transitioning from the military to civilian life. I 
would now like to focus on what we are doing in the State of South 
Dakota.
    VETS recognizes the need to provide employment transition 
assistance and has taken the initiative to provide employment based 
briefings at demobilization sites for National Guard and Reserve Units. 
These briefings are held along with our other Federal and State 
partners. The two major demobilization locations in the Dallas Region, 
which South Dakota is part of, are Fort Sill in Lawton, Oklahoma and 
Fort Carson in Colorado Springs, Colorado.
    VETS State directors in Oklahoma and Colorado conduct these 
briefings and make sure each and every returning service member from 
South Dakota has the VETS South Dakota office contact information so we 
can schedule demobilization briefings and discuss other employment 
transition assistance needs. Since September 11, 2001, for Guard and 
Reserve units, we have conducted eight TAP workshops in South Dakota 
with 345 participants. In FY 2007 alone we conducted 14 active-duty TAP 
workshops in South Dakota that included 403 total participants, 
including some Reserve and National Guard members. In FY 2008, through 
June 2008, we have conducted 11 workshops that included 299 
participants.
    In closing, I again thank you for allowing me to address you today 
on this very important issue and program. I would be pleased to respond 
to any questions you may have.

                                 <F-dash>
     Prepared Statement of Don Keplin, State Chairman, South Dakota
 Employer Support of the Guard and Reserve, U.S. Department of Defense
    Chairwoman Herseth Sandlin and members of the committee: thank you 
for the invitation to offer my perspective on issues relating to the 
Employer Support of the Guard and Reserve (ESGR), as it applies to 
South Dakota National Guard and Reserve members.
    I have volunteered with ESGR since 1996. I served as the Acting 
State Chairman from May 2005 until the National Chairman for the 
National Committee for Employer Support of the Guard and Reserve 
appointed me as the State Chairman in October 2005.
    The National Committee for Employer Support of the Guard and 
Reserve was established in 1972 by Presidential proclamation, as an 
operational Committee under the Office of the Secretary of Defense.
    The Vietnam War had ended and the all-volunteer military became a 
reality. In 1978, ESGR was expanded to include a community-based 
volunteer network. Today, that network has expanded to include more 
than 4,400 ESGR volunteers in 55 Committees--one in each State 
(California with 2 Committees), the Virgin Islands, Puerto Rico, Guam, 
and the District of Columbia. South Dakota ESGR consists of 40 
volunteer members located throughout the State and two paid staff in 
Rapid City. Our volunteers are leaders in business, government, 
academia and senior military representatives.
    ESGR is a Department of Defense agency that seeks to promote a 
culture in which all American employers support and value the military 
service of their employees. ESGR volunteers recognize outstanding 
employer support, increase awareness of the law, and resolve conflicts 
through mediation.
    The Uniformed Services Employment and Reemployment Rights Act 
(USERRA), title 38, United States Code, chapter 43, was enacted by 
Congress and signed into law by President Clinton on October 13, 1994. 
Congress amended the law in 1996, 1998, 2000, 2001, 2004 and 2006. 
Congress enacted USERRA to protect the rights of persons who 
voluntarily or involuntarily leave employment positions to undertake 
military service. The law establishes certain rights and benefits for 
employees and duties for employers. USERRA affects employment, 
reemployment, and retention in employment, when employees serve or have 
served in the uniformed services.
    There are two types of transitions for servicemembers; one when 
they transition after deployment and the other when the transition 
after enlistment obligations. I will reference three significant 
sections of the Federal Regulations for USERRA, 20 CFR Part 1002, that 
pertain to today's hearing regarding the transition of servicemembers.
    The first is 1002.198; What efforts must the employer make to help 
the employee become qualified for the reemployment position?
    The employee must be qualified for the reemployment position. The 
employer must make reasonable efforts to help the employee become 
qualified to perform the duties of this position. These efforts include 
providing refresher training, and any training necessary to update a 
returning employee's skills in situations where the employee is no 
longer qualified due to technological advances.
    The second section I will cite is section 1002.225; Is the employee 
entitled to any specific reemployment benefits if he or she has a 
disability that was incurred in, or aggravated during, the period of 
service?
    A disabled servicemember is entitled, to the same extent as any 
other individual, to the escalator position he or she would have 
attained but for uniformed service. If the employee has a disability 
incurred in, or aggravated during, the period of service in the 
uniformed services, the employer must make reasonable efforts to 
accommodate that disability and to help the employee become qualified 
to perform the duties of his or her reemployment position. If the 
employee is not qualified for reemployment in the escalator position 
because of a disability after reasonable efforts by the employer to 
accommodate the disability and to help the employee to become 
qualified, the employee must be reemployed in a position according to 
the following priority. The employer must make reasonable efforts to 
accommodate the employee's disability and to help him or her to become 
qualified to perform the duties of one of these positions:

    (a)  A position that is equivalent in seniority, status, and pay to 
the escalator position; or,
    (b)  A position that is the nearest approximation to the equivalent 
position, consistent with the circumstances of the employee's case, in 
terms of seniority, status, and pay. A position that is the nearest 
approximation to the equivalent position may be a higher or lower 
position, depending on the circumstances.

    The last section being referenced is 1002.226; If the employee has 
a disability that was incurred in, or aggravated during, the period of 
service, what efforts must the employer make to help him or her become 
qualified for the reemployment position?

    (a)  USERRA requires that the employee be qualified for the 
reemployment position regardless of any disability. The employer must 
make reasonable efforts to help the employee to become qualified to 
perform the duties of this position. The employer is not required to 
reemploy the employee on his or her return from service if he or she 
cannot, after reasonable efforts by the employer, qualify for the 
appropriate reemployment position.
    (b)  ``Qualified'' has the same meaning here as in Sec. 1002.198, 
the first section I referenced.

    South Dakota ESGR helps to ensure that servicemembers transitioning 
from military service back to civilian employment, and the employers 
that hire them, understand their rights and responsibilities under 
USERRA. South Dakota ESGR has 16 trained ombudsmen throughout the 
State. These ombudsmen respond to inquiries and conflicts regarding 
USERRA presented by employees or employers. Since Oct 1, 2007, South 
Dakota ombudsmen have fielded 116 information-only cases and mediated 
14 USERRA cases. South Dakota has not had a USERRA case go to the 
United States Department of Labor for the past 18 months.
    I hope that I have been able to clarify the role played by the 
South Dakota ESGR in helping employers and servicemembers transitioning 
from military service to civilian employment. Thank you.

                                 <F-dash>
 Prepared Statement of William D. Fillman, Jr., Director, Central Area,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Madam Chairwoman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss the Department of 
Veterans Affairs (VA) Transition Assistance Program (TAP) and other 
outreach efforts to support separating servicemembers and their 
families during their transition from military to civilian life. I am 
accompanied by Mr. John Smith, Director of the Sioux Falls Regional 
Office. My testimony today will cover the comprehensive transitional 
assistance VA provides to all servicemembers, including members of the 
National Guard and Reserves, as well as the current outreach efforts by 
the Sioux Falls Regional Office.
VA Outreach Efforts
    VA currently conducts outreach initiatives to servicemembers that 
explain VA benefits at various stages of enlistment, as well as 
following discharge. Many of these activities are done in conjunction 
with the Department of Defense (DoD) and Department of Labor. VA and 
DoD are working through joint initiatives to ensure wide dissemination 
of information on the array of benefits and services available to 
servicemembers; including healthcare, educational assistance, home 
loans, vocational rehabilitation and employment, disability 
compensation, pension, insurance, burial, and memorial services.
Transition Assistance Program (TAP)
    Transition Assistance Program (TAP) briefings are conducted 
nationwide and in Europe to prepare retiring or separating military 
personnel for return to civilian life. At these briefings, 
servicemembers are informed of the array of VA benefits and services 
available, instructed on how to complete VA application forms, and 
advised on what evidence is needed to support their claims. Following 
the general instruction segment, personal interviews are conducted with 
those servicemembers who would like assistance in preparing and 
submitting their applications for compensation and/or vocational 
rehabilitation and employment benefits.
Disabled Transition Assistance Program (DTAP)
    Disabled Transition Assistance Program (DTAP) is an integral 
component of transition assistance for servicemembers who may be 
released because of disability. Through VA's DTAP briefings, VBA 
advises transitioning servicemembers about the benefits available 
through VBA's Vocational Rehabilitation and Employment Program (VR&E). 
The goal of DTAP is to encourage and assist potentially eligible 
servicemembers to make an informed decision about the VR&E program and 
expedite delivery of these services to eligible persons.
    While TAP and DTAP briefings are central to VA's efforts to inform 
servicemembers about VA benefits and services, VA also provides 
briefings to servicemembers about military separation and retirement 
services programs, military medical facilities, Physical Evaluation 
Boards, Casualty Assistance Services, and various other military 
liaison activities.
    The chart below reflects the number of briefings and personal 
interviews conducted by VBA representatives for the past five years. 
This includes briefings conducted for regular active duty military 
members, pre- and post-deployment briefings for Reserve and National 
Guard members, and briefings conducted overseas. VA has increased the 
number of briefings presented by 39.6 percent since 2003.

 
----------------------------------------------------------------------------------------------------------------
            Fiscal Year                  Briefings           Attendees          Interviews
----------------------------------------------------------------------------------------------
2003                                            5,840             210,015             102,402
------------------------------------------------------------------------------------------------
2004                                            7,834             276,574             122,120
------------------------------------------------------------------------------------------------
2005                                            8,184             326,664             124,092
------------------------------------------------------------------------------------------------
2006                                            8,541             393,345              93,431
------------------------------------------------------------------------------------------------
2007                                            8,154             296,855             100,976
------------------------------------------------------------------------------------------------
2008 (Through June)                             6,363             248,452              67,726
----------------------------------------------------------------------------------------------------------------

Veterans Assistance at Discharge System (VADS)
    VA also distributes information on benefits and services through 
the Veterans Assistance at Discharge System (VADS), which generates a 
``Welcome Home Package'' for all recently separated veterans (including 
Reserve and National Guard members). The package contains a letter from 
the Secretary, pamphlets describing VA benefits and services, and a 
benefits timetable. In addition to the VADS mailings, a separate 
personal letter from the Secretary, along with benefits information, is 
sent to each returning OEF/OIF veteran.
Vocational Rehabilitation (VR&E) ``Five Tracks to Employment''
    Based on the 2004 Secretary's Task Force on Vocational 
Rehabilitation and Employment, VA redesigned the delivery of VR&E 
benefits into a program that emphasizes veterans' informed choice and 
employment at the beginning of the process. This redesign, entitled the 
``Five Tracks to Employment'' process, included the development and 
implementation of a standardized orientation program, training for the 
new Employment Coordinators, training for all field staff on the Five 
Tracks to Employment process, creation of an online employment services 
Web site--www.Vetsuccess.gov, and the establishment of Job Resource 
Labs in all regional offices.
    Additionally, the Employment Specialist position, created in 1999, 
was redesigned and renamed Employment Coordinator (EC). The re-design 
streamlined the duties and focused the position on employment-related 
outreach and education. The EC serves as an expert in the VR&E program 
to provide services to enhance veterans' job readiness and assist 
veterans to become employed within their interests, aptitudes, and 
abilities. The EC also serves as an expert about the local labor 
market, assisting Vocational Rehabilitation Counselors to develop 
rehabilitation plans that match current employer hiring demands. The EC 
works collaboratively with the Department of Labor VETS' program 
Disabled Veterans Outreach Program (DVOP) specialists and Local 
Veterans Employment Representatives (LVERS) in the provision of direct 
job placement services for veterans and also partners with community 
employers to develop future career opportunities for veterans served 
through the VR&E program. Combined, all of these activities serve to 
focus the VR&E program on its most vital outcome goal of assisting 
veterans to obtain and maintain suitable employment.
Benefits Delivery at Discharge
    The Benefits Delivery at Discharge (BDD) program is an initiative 
jointly sponsored by VA and DoD. The program provides transition 
assistance to separating or retiring servicemembers who have 
disabilities related to their military service. VA began accepting 
disability compensation claims from servicemembers in the BDD program 
at three VA regional offices and three Army installations in 1995. 
National expansion of the program began in 1998. In November 2004, VA 
and DoD signed a national memorandum of agreement to establish a single 
cooperative examination that meets the requirements of a military 
separation examination and a VA disability rating examination.
    Current BDD program participants include 40 regional offices and 
153 military installations (142 DoD sites and 11 Homeland Security 
Coast Guard sites). This number includes five locations overseas (three 
in Korea and two in Germany). Participation in the BDD program is 
offered to servicemembers who are within 60 to 180 days of release from 
active duty and who remain in the area in order to complete the medical 
examinations.
Disability Evaluation System (DES)
    In response to recommendations by the Dole-Shalala Commission, 
West/Marsh Independent Review Group, Secretary Nicholson's Global War 
on Terrorism Returning Heroes Commission and the anticipated 
recommendations of the Veterans Disability Benefits Commission, VA and 
DoD launched a Disability Evaluation System (DES) pilot in the fall of 
2007, scheduled to run for one year. The pilot program differs from the 
existing DoD DES process in the following significant ways: 1. VA is 
brought into the process at the Medical Evaluation Board (MEB) stage, 
assisting the servicemember and taking a claim for disability 
compensation; 2. One examination is performed according to VA 
protocols, normally done by VA, which forms the basis for the MEB and 
Physical Evaluation Board (PEB) decision making as well as the VA 
disability rating, should the member be found unfit. If the PEB 
determines that the member is unfit, VA evaluates the extent of 
disability caused by the unfitting condition(s) as well as any other 
claimed conditions. The VA rating for the unfit condition is used by 
DoD for purposes of determining the amount of severance pay or 
placement on the temporary or permanent disability retired list. In 
conjunction with the DES pilot, VA is also initiating enhanced data 
sharing between DoD and VA regarding medical information.
Seamless Transition Program
    With the onset of Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), VA expanded its outreach efforts even further with 
the Seamless Transition Program. In 2003, VA began to assign permanent, 
full-time representatives at key military treatment facilities where 
seriously injured OEF/OIF returnees are hospitalized; including Walter 
Reed Army Medical Center, Bethesda Naval Medical Center, Eisenhower 
Medical Center, Brooke Medical Center, and Madigan Army Medical Center.
    VA representatives at these facilities provide benefits information 
and assist in filing claims. They monitor patient progress and 
coordinate the submission and smooth transfer of claims to VA regional 
offices. Each veteran's claim is then case-managed at the appropriate 
regional office of jurisdiction to expedite processing. Additionally, 
VA assigns special benefits counselors, social workers, and case-
managers to work with these servicemembers and their families 
throughout the transition to VA care and benefits systems to ensure 
expedited delivery of all benefits.
    VA also began hiring Recovery Care Coordinators, who are charged 
with assisting seriously ill, injured, or wounded servicemembers 
navigate the various systems and benefits programs to which they may be 
entitled.
National Guard and Reserve Members
    In peacetime, outreach to Reserve and National Guard members is 
generally accomplished on an ``on call'' or ``as requested'' basis. 
But, with the onset of Operations Enduring Freedom and Iraqi Freedom 
(OEF/OIF) and the activation and deployment of large numbers of Reserve 
and National Guard members, VBA's outreach to this group has been 
greatly expanded. VA has made arrangements with Reserve and Guard 
officials to schedule briefings for members being mobilized and 
demobilized. These benefits briefings for Guard and Reserve members 
increased from 821 briefings for more than 46,000 attendees in FY 2003 
to over 1,800 briefings for more than 96,000 attendees in FY 2007.

                                             RESERVE/GUARD BRIEFINGS
----------------------------------------------------------------------------------------------------------------
            Fiscal Year                  Briefings           Attendees          Interviews
----------------------------------------------------------------------------------------------
2003                                              821              46,675                 N/A
------------------------------------------------------------------------------------------------
2004                                            1,399              88,366                 N/A
------------------------------------------------------------------------------------------------
2005                                            1,984             118,658                 N/A
------------------------------------------------------------------------------------------------
2006                                            1,298              93,361              10,515
------------------------------------------------------------------------------------------------
2007                                            1,868              96,355              11,488
------------------------------------------------------------------------------------------------
2008 (Through June)                             1,280              66,404              12,447
----------------------------------------------------------------------------------------------------------------

    VA has also published a brochure, A Summary of VA Benefits for 
National Guard and Reserve Personnel, which is widely distributed to 
Guard and Reserve units. A special page on VA's main Web site is 
dedicated for use by Guard and Reserve members.
Transition Assistance Advisors (TAAs)
    A memorandum of agreement was signed in 2005 between the Department 
of Veterans Affairs and the National Guard Bureau to institutionalize a 
partnership and to support better communication between the two. VA is 
encouraging State National Guard Coalitions to improve local 
communication and coordination of benefits briefings to assure that 
National Guard and Reserve members are fully aware of benefits. As a 
part of this partnership, the National Guard Bureau employs 57 
Transition Assistance Advisors (TAA) for the 50 States and 4 
territories.
    The TAA's primary function is to serve as the statewide point of 
contact and coordinator. They also provide advice regarding VA benefits 
and services to Guard members and their families and assist in 
resolving problems with VA healthcare, benefits, and TRICARE. VA and 
the National Guard Bureau teamed up at the beginning of the program in 
February 2006 to provide training to the TAAs on VA services and 
benefits as well as define their role as VA advocates. In addition, VA 
has participated in annual refresher training and monthly TAA 
conference calls.
TAP in South Dakota
    The Sioux Falls VA Regional Office (RO) actively supports the 
commitment to provide a seamless transition for returning military 
members. In FY 2007, the office conducted 16 TAP briefings for 467 
participants. As of June 30, 2008, the office has conducted 11 TAP 
briefings for 242 participants. The participants included 231 active-
duty members, 6 members of the Guard and Reserve, and 5 family members.
Outreach to the Guard in South Dakota
    The Sioux Falls Regional Office is working diligently to ensure 
members of the Guard and Reserve understand the VA benefits to which 
they may be entitled. In addition to TAP, the office has completed 6 
outreach events for the Army National Guard and the SD Air National 
Guard since October 2006. These events provided benefit information to 
517 members of the Guard.
    Madam Chairwoman, we at VA are proud of our continuing role in the 
transition of servicemembers from military to civilian life, and seek 
to continually improve the quality and breadth of our outreach efforts 
to active duty, Reserve, and National Guard members.
    Thank you for allowing me to appear before you today. I would be 
pleased to respond to any questions from members of the Subcommittee.

                                 <F-dash>
      Statement of William D. Elmore, Associate Administrator for
Veterans Business Development, Office of Veterans Business Development,
                   U.S. Small Business Administration
    I want to thank Chairwoman Stephanie Herseth Sandlin, other 
distinguished members of the Committee, and members of the National 
Guard and Reserves for this opportunity to inform you of SBA's efforts 
to support service members and reservists participating in the 
Transition Assistance Program.
    First, I would like to express the personal gratitude of SBA Acting 
Administrator Carranza, myself and all SBA employees, to those members 
of the National Guard and Reserves who are with us today not only for 
their service, but also for the sacrifices their families make when 
their loved one is activated for military service. We thank you for 
your service in defense of our great Nation.
    As the Associate Administrator for the Office of Veterans Business 
Development (OVBD), I am the lead official at the Small Business 
Administration (SBA) responsible for our veteran outreach initiatives. 
I am happy to report to this Committee the tremendous level of work 
that the SBA has done for our nation's veterans and our work with the 
Transition Assistance Program (TAP). TAP was established to meet the 
needs of separating service members during their period of transition 
into civilian life by offering job-search and career assistance and 
related services.
    There are four components of TAP, and I will address two in my 
testimony. The first is the segment for TAP-eligible service members 
who meet with a DoD counselor after filling out DD Form 2648 (for 
Active Component Service Member), or DD Form 2648-1 (for Reserve 
Component Service Member). Today, DD Forms 2648 and 2648-1 both now 
include information relating to SBA services, which are also available 
through our Web site (http://www.sba.gov), and contain information 
about available SBA Loans.
    The second component of the TAP program I will address is the 
actual multi-day DoL-TAP seminar managed by DoL field staff or 
contractors. SBA is continually working with DoL in an effort to 
increase SBA's participation, utilizing both SBA district offices staff 
(which includes Veteran Business Development Officers) and SBA Resource 
Partners like SCORE, SBDC and VBOC's. SBA currently participates in TAP 
seminars nationwide.
    We have also taken a number of other significant steps beyond TAP 
to ensure that discharging and deactivating service members and 
reservists have access to, or are informed about SBA services, and are 
provided information necessary to consider entrepreneurship as a 
potential vocation.
    In 2001, SBA initiated the Military Reservists Economic Injury 
Disaster Loan (MREIDL) program which provides low interest disaster 
loans with very flexible terms to small businesses suffering economic 
injury when a Reservist who is an essential employee is activated.
    Additionally, the OVBD implemented the Self Employed Reserve and 
Guard (SERG) initiative as we realized that small business owners in 
the reserves may be called to Title 10 duty in the aftermath of the 
attacks of September 11. As part of that initiative, OVBD established a 
Web site specifically for Reservists (http://www.sba.gov/reservists), 
and we began working with the Department of Defense's Office of the 
Assistant Secretary for Reserve Affairs, as well as the National 
Committee for Employer Support of the Guard and Reserve (ESGR) to 
conduct outreach to Reserve component members.
    Also, as part of SERG, we have distributed hundreds of thousands of 
the SBA Reservist Fact Sheets and designed and produced comprehensive 
Pre and Post Mobilization Business Planning Guides, disabled veteran 
procurement guides, SBA Program Guides, and Patriot Express Loan 
Program Guides to organizations and individuals that interact with 
Reserve component members. This has included Reservists Mobilization 
and De-Mobilization sites, DoD-TAP program sites, Military Family 
Support Centers, ESGR State offices, SBDCs, SCORE Chapters, SBA 
district offices, State Departments of Veterans Services, veteran 
service organization service officers, State National Guard Adjutants 
General and hundreds of other locations. In the last year alone, OVBD 
has received requests for and has distributed more than 100,000 
``Reserve and Guard Kits,'' containing all the above information and 
more.
    In 2007, SBA launched the Patriot Express Pilot Loan initiative 
(Patriot Express), and has distributed hundreds of thousands of Patriot 
Express brochures nationwide, including to DoD-TAP locations.
    Patriot Express specifically targets veterans, service-disabled 
veterans, Reserve Component members, discharging service members 
eligible for TAP, spouses of the above, spouses of all active service 
members and widows of service members who died in service or who died 
of a service-connected disability.
    In the first year of the Patriot Express, more than 850 lending 
partners signed up to offer the program and SBA guaranteed more than 
1,600 loans totaling more than $164,000,000.
    In cooperation with the Department of Labor and the Department of 
Defense, we are providing discharging service members and spouses with 
information regarding entrepreneurship, SBA services, SBA programs and 
SBA resource partners. These materials are contained in both the DoL 
TAP Manual and in a number of different sections in the TurboTAP online 
system.
    With the cooperation of the Department of Labor, we included a 
special section in its National Hire Veterans First Web site which 
specifically targeted to entrepreneurship and highlighting SBA services 
and programs for veterans and reservists.
    Our program materials are also included on the Department of 
Veterans Affairs' Center for Veteran Enterprise Web site and we have 
recently initiated a more formative relationship with the Department of 
Veterans Affairs' Vocational Rehabilitation and Employment Services 
program. This will give us access to a pool of 100,000 service disabled 
veterans some of whom have the desire and potential to become 
entrepreneurs.
    In closing, the SBA is dedicated to continually improve and 
increase assistance for veterans and reservists. We are working to 
improve our programs, and will be announcing additional program 
enhancements in MREIDL, SBDC and Veterans Business Development programs 
in the near future.
    While we are proud of the work we have done, and the improvements 
we have made, we also recognize that we can never do enough to fully 
repay the sacrifices that our service members and their families make. 
We will continue to improve the depth of our programs for veterans and 
reservists and we will continue to grow our ability to reach, offer and 
provide assistance to America's true patriots as they choose to pursue 
their entrepreneurial dreams.
    Thank you for the opportunity to present this information.

                                 <F-dash>

                   MATERIAL SUBMITTED FOR THE RECORD
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     August 1, 2008
Mr. John McWilliam
Deputy Assistant Secretary
Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Ave., NW
Room S-2220
Washington, DC 20210

    Dear Mr. McWilliam:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity Field Hearing on ``Transition 
Assistance Program'' on July 28, 2008, I would appreciate it if you 
could answer the enclosed hearing questions by no later than August 29, 
2008.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.
            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

                                           U.S. Department of Labor
                              Office of the Assistant Secretary for
                                  Veterans' Employment and Training
                                                    Washington, DC.
Hon. Stephanie Herseth Sandlin
Chairwoman
House Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
United States House of Representatives
Washington, DC 20515

    Dear Chairwoman Herseth Sandlin:

    This is in response to your inquiry following the House Committee 
on Veterans' Affairs Subcommittee on Economic Opportunity Field Hearing 
on ``Transition Assistance Program'' on July 28, 2008. Your questions 
and our responses are listed on the following pages.
    Thank you for the opportunity to appear before the Subcommittee and 
for your continued support of employment services for America's 
veterans.
            Sincerely,
                                                  John M. McWilliam
                                         Deputy Assistant Secretary
    Enclosure

                               __________

        Questions from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                Hearing on Transition Assistance Program
                             July 28, 2008
    Question 1: In your written testimony, you state that in fiscal 
year 2007, over 146,000 separating military personnel and spouses were 
trained in 4,716 workshops worldwide. Is this active duty only?
    Response: Of the 146,000 participants in TAP Employment Workshops 
in Fiscal Year 2007, there were 3,535 reservists (National Guard or 
Reserve Component servicemembers) and 3,182 spouses.
    Question 1(a): Can you tell us how many servicemembers separated in 
fiscal year 2007?
    Response: The Department of Defense has informed us that in Fiscal 
Year 2007 there were 213,305 active duty transitions worldwide.
    Question 1(b): Do you have numbers specific to South Dakota? 
(separation and participation)
    Response: The Department of Defense has informed us that in Fiscal 
Year 2007 there were 424 active duty transitions in South Dakota.
    There were 403 participants in TAP Employment Workshops in Fiscal 
Year 2007, of which 8 were reservists (National Guard or Reserve 
Component servicemembers) and 16 were spouses.
    Question 2: You mentioned in your written testimony that spouses 
have also received employment and job training assistance. Are families 
generally informed that these programs are available to them?
    Question 2(a): If so, how?
    Response: As mentioned in my testimony, spouses have been provided 
employment and job training services through the TAP Employment 
Workshops. The Department of Defense has informed us that while spouses 
are eligible and encouraged to attend any and all TAP sessions which 
are advertised via normal means (Family Centers, newcomer's 
orientations, etc.), the servicemember is primarily responsible for 
informing the spouse.
    During pre-separation counseling, which is the only portion of the 
TAP process that is mandatory by law, the servicemember is briefed on 
the range of topics available during TAP sessions. On the pre-
separation counseling form (DD Form 2648/2648-1), the servicemember is 
required to check a block by each applicable presentation topic whether 
his/her spouse will also attend with the member. Spouses are encouraged 
to attend presentations on veterans benefits, health and life 
insurance, finances, education/training, and relocation and employment 
assistance.

                                  <all>

</pre></body></html>
